<html>
<title> - OVERSIGHT HEARING ON DOL/DOD/VA COLLABORATION AND COOPERATION TO MEET THE EMPLOYMENT NEEDS OF RETURNING SERVICEMEMBERS</title>
<body><pre>[Senate Hearing 110-150]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-150
 
                    OVERSIGHT HEARING ON DOL/DOD/VA 
COLLABORATION AND COOPERATION TO MEET THE EMPLOYMENT NEEDS OF RETURNING 
                             SERVICEMEMBERS
=======================================================================
                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                     U.S. GOVERNMENT PRINTING OFFICE

37-761 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      











                    COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Larry E. Craig, Idaho, Ranking 
    Virginia                             Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Richard M. Burr, North Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Kay Bailey Hutchison, Texas
Jon Tester, Montana                  John Ensign, Nevada
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director

















                            C O N T E N T S

                              ----------                              

                             June 13, 2007
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Craig, Hon. Larry E., Ranking Member, U.S. Senator from Idaho....     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Tester, Hon. John, U.S. Senator from Montana.....................     5
    Prepared statement...........................................     5
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    26
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    52
Webb, Hon. Jim, U.S. Senator from Virginia.......................    54

                               WITNESSES

Ciccolella, Hon. Charles S., Assistant Secretary, Veterans' 
  Employment and Training Service, Department of Labor...........     6
    Prepared statement...........................................     8
Dominguez, Hon. Michael L., Principal Deputy Under Secretary for 
  Personnel and Readiness, Department of Defense.................    12
    Prepared statement...........................................    13
Caden, Judith A., Director, Vocational Rehabilitation and 
  Employment Service, Veterans Benefits Administration, 
  Department of Veterans Affairs.................................    18
    Prepared statement...........................................    19
Warren, William O., Executive Director, DirectEmployers 
  Association....................................................    29
    Prepared statement...........................................    32
Bradley, Shaun, Co-CEO, Bradley-Morris, Inc......................    39
Morris, Sandra, Co-CEO, Bradley-Morris, Inc......................    40
    Prepared statement of Shaun Bradley and Sandra Morris........    41
    Recommendations for the Improvement of TurboTAP/DOD 
      Transportal/Defense Knowledge Online (DKO) Portal..........    42
        Addenda..................................................    43
McGee, Corey, OEF/OIF Veteran....................................    58
    Prepared statement...........................................    60
Rizer, Monique, Spouse of an Army Reservist......................    61
    Prepared statement...........................................    63
    Recommendations for the Improvement of TurboTAP Web Site.....    66
Osterberg, Don, Vice President, Schneider National, Inc., Green 
  Bay, 
  Wisconsin......................................................    67

                                APPENDIX

National Military Family Association, prepared statement.........    73


                    OVERSIGHT HEARING ON DOL/DOD/VA 
     COLLABORATION AND COOPERATION TO MEET THE EMPLOYMENT NEEDS OF 
                        RETURNING SERVICEMEMBERS

                              ----------                              


                        WEDNESDAY, JUNE 13, 2007

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room 562, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Brown, Tester, Webb, 
Craig, and Isakson.

        OPENING STATEMENT OF DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The hearing will come to order. I want to 
say aloha and welcome to another one of the Committee's 
seamless transition hearings. This morning, we will focus on 
the employment issues facing veterans, members of the Guard and 
Reserve, and their families as they seek to move from a 
military to a civilian workforce.
    Making these transitions is never easy, but for younger 
veterans, it can be particularly difficult. For members of the 
National Guard and Reserves, the return to a prior job may be 
challenging for a variety of reasons. For family members, the 
uncertainty of multiple and extended deployments poses 
different kinds of problems. Finally, the obstacles facing 
those who are disabled while on duty can sometimes seem 
overwhelming and perhaps even insurmountable. The needs of 
these individuals deserve our utmost attention and 
resources.
    We will address a variety of issues this morning from a 
wide range of witnesses, and I think you know now we have three 
panels. Our starting point will be the recommendations of the 
Task Force Report to the President on the Returning Global War 
on Terror Heroes. But I want to stress this, that it will not 
stop here. Indeed, this is something that deeply concerns me, 
that the Task Force only looked at what could be done within 
the constraints of current law and did not make any review of 
recommendations as to what might be needed in terms of 
improvements or additions to existing statutes. This is a major 
shortcoming, in my opinion, with regard to the entire report.
    There is a lot on the agenda today that we will need to 
move through in a timely fashion, so I ask that our witnesses 
adhere to the 5-minute rule for your oral presentation. Your 
full statements, of course, will be made a part of the 
Committee's record. So again, welcome and I look forward to 
hearing from each of you 
this morning.

    Chairman Akaka. At this point in time, I would like to call 
on the Senator from Idaho, Senator Craig, our Ranking Member. 
Senator Craig?

       STATEMENT OF HON. LARRY E. CRAIG, RANKING MEMBER, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Well, good morning, Mr. Chairman, and good 
morning to all assembled. Danny, again, thank you for calling 
this hearing to discuss employment needs of our returning 
servicemembers.
    I think it goes without saying that during a time of war, 
it is essential that we as a Nation help our warriors smoothly 
return to civilian life. For many, finding a job is a critical 
aspect of their transition. Not only is it important for their 
long-term financial stability, but meaningful work can have a 
beneficial impact on both the physical and the mental health of 
that warrior. It is also important for our Nation's economy, 
the vitality of the civilian labor market, to benefit from the 
higher-trained, skilled, and motivated individuals that make up 
the character of that returning veteran. Perhaps more 
importantly, we as a grateful Nation owe it to those who have 
served and sacrificed to provide them with the resources and 
assistance they may need to enter again civilian life.
    When the private and public sectors work together to 
fulfill this obligation, we can help ensure the continued 
viability of an all-volunteer force. It really works both ways.
    But meeting the diverse employment needs of all who wear 
the uniform involves many complex issues. There are recovering 
servicemen and women who had their military careers cut short 
by devastating injuries and who are trying to find their niche 
in the civilian job market. We have members of the Guard and 
Reserve who are returning from war and want to be reinstated at 
their civilian jobs. And we have young veterans who have 
completed their terms of service and are looking to start a 
civilian career for the first time in their lives.
    Today, we will hear about a wide range of programs and 
services involving both the private and public sector aimed at 
helping veterans succeed in the civilian job market. Given the 
sheer number of entities and programs involved, it is clear 
that the Nation as a whole has made it a priority to ensure 
that returning servicemen and women will have a successful 
transition into the civilian workforce.
    In fact, veterans overall are continuing to experience 
lower unemployment rates than non-veterans, and even young 
veterans who have struggled in recent years have seen 
phenomenal improvements in their employment outcomes. The 
unemployment rate of the 20- to 24-year-old veteran dropped 
just less than 6 percent during the first quarter of this year.
    I am sure everyone here is as pleased as I am about these 
signs of progress. However, I think it is incumbent upon this 
Committee to continue monitoring whether Federal programs are 
effectively serving veterans' employment needs.
    To that end, I called a hearing last year to examine two 
employment programs administered by the Department of Labor: 
the Disabled Veterans' Outreach Program and the Local Veterans' 
Employment Representative Program. Based on what I heard, 
Senator Akaka and I asked the Government Accountability Office 
to examine whether the current performance accountability 
system accurately reflects how well these programs are serving 
veterans. Last month, GAO issued a report finding that, after 
many years of trying to improve data and performance measures, 
there is simply no way to determine whether these programs are 
effective in helping veterans find jobs or whether other 
factors are responsible for veterans' job outcomes.
    Although I hope these programs contribute to the success we 
have seen in recent months, I believe we must find a way to 
track how well these programs are serving veterans so we can 
quickly identify any gaps in existing services and continually 
seek ways to further improve veterans' employment outcomes.
    As we move forward, I hope this Committee and Congress will 
do our part in helping returning servicemembers in their 
transition to civilian life by taking steps to ensure that 
these and other programs are capable of providing them with the 
most effective employment services, not just today, but for 
many years to come. And I hope that employers across the Nation 
will do their part by making it a priority to recruit our 
Nation's heroes and let them put their valuable skills and 
traits to work in contributing to the economy of this great 
Nation.
    Mr. Chairman, the work this Committee has done and is 
continuing to do, the oversight, the kind of positive effort to 
make sure that we have the facts, and know if programs need to 
be adjusted and changed, is absolutely the right course and I 
thank you for doing it.
    Chairman Akaka. Thank you very much, Senator Craig, for 
your statement.
    Senator Murray from the State of Washington.

                STATEMENT OF HON. PATTY MURRAY 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman, and I 
want to thank you and Ranking Member Craig for holding this 
really important hearing on the employment benefits provided to 
our men and women in uniform as they transition from military 
to civilian life.
    And I want to start by saying that as Chairwoman of the 
Employment and Workplace Safety Subcommittee, I am really glad 
that we are holding this hearing today. I have worked to 
explore this topic in my own subcommittee and I have spoken 
with a lot of the men and women who are facing employment 
challenges when they return home, and those hearings and those 
conversations have really helped me to get some ideas of some 
of our most critical needs.
    First of all, civilian and veteran organizations need to 
work together to reach out to returning soldiers. We have a lot 
of trained professionals that are willing and able to help our 
returning servicemembers, but they face some real barriers in 
accessing information about those soldiers directly and we have 
got to think creatively how we can connect those providers with 
the soldiers that they are trying to help.
    We also need to provide job information and resources at a 
better time. We all know that soldiers, when they return home 
immediately and are demobilizing, it is not a great time to be 
talking to them about anything except their families. We have 
got to find a better way to find a good time to talk to them 
about the critical employment issues that they are facing.
    Third, we need to address the challenges that a lot of our 
small business owners face in trying to hire our veterans. 
Because we have unpredictable tours of duty, small business 
owners are telling me that they bear a very high cost of 
turnover and training when soldiers deploy. Tax credits or 
something similar to help them cover those costs would help 
them to do the right thing and employ soldiers and veterans.
    Fourth, I think we need to ensure that the skills that 
servicemembers are learning in the field are transferrable to 
the jobs that they are trying to get when they return home. Too 
many soldiers I talk to tell me that the language of the skills 
they have while they are serving are different than the 
language of the skills when they come home and they have a hard 
time connecting those two and we need to focus on that.
    And finally, I think we need to strengthen our training and 
education support, because often returning servicemembers need 
salary and benefits during a transitional time period every 
year or so as they pursue training and the credits that they 
receive for training need to be transferrable and recognizable.
    In my home State of Washington, I am proud to say that we 
have been moving very proactively toward addressing and meeting 
some of these needs. Our Employer Security Commissioner has 
worked tirelessly to promote the Hire-A-Vet Challenge, and that 
is an initiative that encourages businesses to hire returning 
National Guard and Reserve members. And last year, our State 
legislature created a Veterans Innovation Program Board to work 
with Washington's Department of Veterans Affairs in meeting 
specific needs of returning Reservists and National Guard 
members.
    I have said many times to employers, our returning veterans 
have the skills that they are looking for. They are loyal. They 
have character. They show up on time. And they are very good 
workers. I think what we need to do is make sure that all of 
our agencies are working to give them the support they need, 
whether it is assistance in basic job skills or access to 
information or support for businesses who want to hire them. I 
think it is imperative that this Committee look at these issues 
and ask, what are we doing to make sure that we have put in 
place the right policies and procedures and resources to make 
sure those returning veterans get the promises that we have all 
given them to care for them when they return home.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Murray.
    Now, Senator Tester from Montana.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. This is a very 
important hearing. I have got a markup in Homeland Security, so 
I am going to have to leave early and I apologize ahead of time 
for that. I would ask unanimous consent my entire statement be 
put into the record.
    Chairman Akaka. Without objection.
    Senator Tester. I do have a few comments I want to make. I 
would hope that each of the panelists would address what is 
being done and what can be done for the veterans as they come 
home for job opportunities. I think that when it comes to this 
particular war that we are in, the repeated deployments as it 
applies to Guardsmen and Reservists put some interesting issues 
on the table that are not typically there and I think that it 
is critically important that we serve all our veterans, but I 
think that is a segment that may have some special needs.
    As far as the homeless veterans issue, what is being done 
to try to bring those folks back in, I know it is getting to be 
a more significant part of our population, unfortunately, and I 
think that if we can do whatever we can do starting when they 
are in the active military to when they go out of the active 
military and become a civilian, it is important that we deal 
with those folks in a way that meets their needs.
    And then finally, I would hope that at least one of you 
would talk about, if not all, the follow-up and--let me start 
off with how you get the information out to the veterans on 
what is available out there for workforce training and then the 
follow-up of that to see if it is having the kinds of impacts 
that we need that are acceptable for our veterans' population.
    So with that, Mr. Chairman, once again, I want to thank you 
very much for holding this hearing and I want to thank the 
panelists for being here. I will appreciate probably reading 
about your perspective, so thank you very much.
    [The prepared statement of Senator Tester follows:]
    Prepared Statement of Hon. Jon Tester, U.S. Senator from Montana
    Mr. Chairman, this is a very important hearing. Thank you for 
putting this together today.
    The veterans' employment and training programs have so much 
promise, but we do not help ourselves if we allow the good intentions 
of these programs to be undone by not adequately preparing for the 
number of veterans who are using them.
    As I understand it, the President's budget for FY 2008 would have:

    <bullet> Put a freeze on funding for the National Veterans' 
Training Institute, which provides specialized training and 
professional skills development to federal and state veterans' service 
providers' staff;
    <bullet> Increase by less than 1 percent the Homeless Veterans 
Reintegration Program, which provides grants to operate employment 
programs to reach out to homeless veterans and help them become 
employed;
    <bullet> And cut funding for the Veterans Workforce Investment 
Program, which provides competitive grants for training programs and 
employment opportunities for veterans in high-skill occupations.

    I know that funding is tight all over. Believe me, one of the 
reasons I came to Congress is to get after some of the wasteful 
spending that goes on around here. But we're talking about our 
veterans. There's a moral responsibility there, I think, to make sure 
that after someone serves our nation that they have the chance to get 
the training they need to make a life for themselves in the civilian 
world.
    And I have to tell you, this is especially critical in rural areas 
where we need every possible resource to create jobs and maintain a 
highly skilled workforce. And folks who have served in the United 
States military have good skills. We just need to make sure that 
civilian employers understand that, and our folks leaving the service 
know how to talk about those skills in a way that's attractive to 
prospective employers.
    I also hope we'll hear a little about what kinds of follow-up the 
VA and the Labor Department do when it comes to getting the word out on 
these training programs. This is especially important for the National 
Guard folks.
    We all know that when a soldier or a Marine comes back from 
deployment they won't be giving full attention to someone talking about 
their benefits. The soldier's mind is on his family--as it should be, 
quite frankly.
    But as we've seen with mental health issues and with disability 
benefits, that can really complicate things down the road. So I'd like 
to know what you all are doing to follow up with folks after they hear 
about their job training opportunities when they first get home.
    I look forward to hearing from our witnesses, and I thank you all 
for being here today.

    Chairman Akaka. Thank you very much, Senator Tester.
    We will start with representatives of the three Departments 
most involved in the employment, and that is the Departments of 
Labor, Veterans Affairs, and Defense. While each agency has a 
different focus, they share a common responsibility to help 
veterans transition from military service to civilian 
employment.
    Representing the Department of Labor is Assistant Secretary 
of Labor for Veterans' Employment and Training Service, the 
Honorable Charles S. Ciccolella. From the Department of 
Defense, we welcome the Honorable Michael L. Dominguez, the 
Principal Deputy Under Secretary of Defense for Personnel and 
Readiness. Finally, joining us from the Department of Veterans 
Affairs is Judith Caden, the Director of Vocational 
Rehabilitation and Employment.
    Again, welcome to all of you. Your prepared remarks will, 
of course, appear in the record in full, so we look forward to 
your statement, Mr. Ciccolella.

 STATEMENT OF HON. CHARLES S. CICCOLELLA, ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, DEPARTMENT OF LABOR

    Mr. Ciccolella. Good morning, Mr. Chairman, Senator Craig, 
Senator Murray, Senator Tester. Thank you for the opportunity 
to testify on the collaboration among the Departments, 
particularly the Department of Defense, the Department of 
Labor, the Department of Veterans Affairs, to provide services 
to our returning servicemembers from both active duty and the 
National Guard and the Reserve.
    Our Department, the Department of Labor, is fully engaged 
in assisting our servicemembers as they return. We operate in 
very close partnership with the DOD and VA in particular. We do 
this by protecting their employment rights when they are 
deployed and ensuring they get their jobs back in conjunction 
with the Department of Defense, their ESGR organization, the 
Department of Justice, and the Special Counsel's Office. We do 
it by assisting their transition through the Transition 
Assistance Program, the employment workshop that we facilitate 
in conjunction with DOD and VA, and we do it by working very 
closely with all of the agencies to improve employment services 
and outcomes in the workforce system.
    Mr. Chairman, my testimony details the extent of 
cooperation and collaboration, particularly as regards the 
President's Task Force on Returning Global War on Terror 
Heroes. What I would like to do in just a couple moments is to 
highlight our recent and standing initiatives among the three 
agencies.
    The Department of Defense is now leading a joint effort to 
promote and increase participation in TAP, and that is the TAP 
Employment Workshop that is facilitated by the Department of 
Labor. We now have a participation rate goal of 85 percent. We 
are only getting about 65 to 70 percent right now. We have 
already seen a large increase in the number of servicemembers 
who are attending the Transition Assistance Program Employment 
Workshop in the last several years.
    DOL, DOD, and VA have stepped up their efforts to extend 
transition assistance to the National Guard and Reserve, both 
by attending active duty TAP sessions when we can get them in 
there if they need that, or in the case of the Labor 
Department, we do many regular TAP programs for active duty 
transitioning servicemembers in many States. I think Secretary 
Dominguez will talk about the TurboTAP initiative, and that is 
also an excellent way to reach out to the Guard and the 
Reserve.
    The Department of Labor is also leading another joint 
effort through the TAP Steering Committee, which is a joint 
committee, to significantly improve the quality of instruction 
and the content of the TAP Workshops. Senator Murray, you 
talked about the translation of skills, and that is so 
important, that we teach servicemembers how to translate their 
skills, their education, and their training onto their resumes 
so employers can understand it. It is also important they do 
mock interviews and it is important they do job searches on 
their State Workforce Job Board.
    We are working more closely with DOD and DOJ and America's 
employers to protect our servicemembers' employment and 
reemployment rights while they are on military duty and to 
educate employers on their obligations. We work very closely 
with the Department of Defense and the Office of Special 
Counsel, in particular, on ensuring Federal employers 
understand and abide by USERRA, the law that protects our 
servicemembers. We believe we do a very good job on USERRA, 
including these Federal sector cases, and we also think all 
these cases should remain under the jurisdiction, at least the 
investigative part, under the Department of Labor.
    We have strengthened our already close relationship with 
the Department of Veterans Affairs and their vocational 
rehabilitation and employment program by stationing more 
veteran employment representatives from the workforce system in 
their vocational rehabilitation offices.
    We are conducting more veteran job fairs through the 
HireVetsFirst campaign. Over 120 this year and 52 in one week 
in November are planned. Those job fairs are really important 
because they bring together the veteran, the employer, the 
workforce system, and the media and it really raises awareness 
of the value that veterans bring to the workforce. So that is 
also very, very important.
    We are helping veterans better understand their financial 
and educational benefits and we are working with the Department 
of Defense to expand their ``Operation Warfighter'' program. 
That is the Federal intern program, wherein the servicemembers 
are recuperating, and as part of their therapy, they go to a 
Federal agency if they want to and it is like a ``test drive.'' 
The Federal agency can sort of evaluate them. Over 50 of them 
have been hired so far and about 250 of them have participated 
in that program.
    We provide face-to-face employment assistance to the most 
severely wounded and injured through our REALifelines program. 
We work very closely with the VA and the vocational 
rehabilitation folks and with the Department of Defense and the 
individual military services on that.
    And finally, we continue to emphasize the needs of our 
youngest veterans because they do experience, as Senator Craig 
said, higher unemployment rates. We think we have a better fix 
on that, but we have got to watch it very, very carefully. The 
numbers are down, but they are not where they should be. But 
the key there is for more young servicemembers to attend the 
Transition Employment Workshops so they are better prepared and 
so they have a plan when they come out of the military.
    That concludes the highlights that I wanted to cover in my 
testimony, in my opening statement, Senator.
    [The prepared statement of Mr. Ciccolella follows:]
Prepared Statement of Hon. Charles S. Ciccolella, Assistant Secretary, 
     Veterans' Employment and Training Service, Department of Labor
    Chairman Akaka, Ranking Member Craig and distinguished Members of 
the Committee:
    Thank you for the opportunity to appear before you today to discuss 
transition and employment issues of returning veterans, servicemembers, 
reservists, and members of the National Guard.
    The state of employment for our returning veterans is strong. Our 
economy continues to grow and it continues to produce new job 
opportunities. Employers are looking for quality workers, and the 
servicemembers who are leaving the military today bring the technical 
and leadership skills employers need.
    The Department of Labor (DOL) is working in close partnership with 
the Department of Defense (DOD) and the Department of Veterans Affairs 
(VA) to enhance employment opportunities for our separating military 
members by better preparing them for the civilian workforce as they 
transition, by protecting their employment rights while they serve, and 
by providing employment assistance to our veterans whenever it is 
requested or needed.
    I am pleased to be a member of today's panel because the efforts of 
DOD, the VA, and DOL in the area of employment are complementary and 
supportive. We participate on many joint committees, including the 
recent Presidential Task Force on Returning Global War on Terror Heroes 
(Task Force), in an effort to constantly review and improve services 
for veterans and help make their transition to employment as seamless 
as possible.
    My testimony today discusses three major areas.
    First, you asked that I address the cooperation and collaboration 
on employment issues by DOL, DOD and VA, particularly in the context of 
the important employment-related recommendations of the Task Force. 
Since the Task Force focused to a large degree on improving transition 
services, I will elaborate on how DOL is implementing the 
recommendations by expanding or enhancing initiatives that directly 
assist the smooth transition of servicemembers, including members of 
the National Guard and Reserve and wounded and injured military 
members.
    Second, I will discuss the ongoing collaborative efforts underway 
for the past several years to help servicemembers who need help the 
most--those who are wounded and injured, including those who are 
disabled as a result of military service--and our continuing efforts to 
reduce unemployment among young veterans.
    Finally, I will discuss the Department's extensive efforts to reach 
out to employers to help them find and hire veterans.
collaboration between dol, dod and the va; and dol's role in task force 
                            recommendations
    First, I would like to discuss the extensive cooperation and 
collaboration between our departments. As the Committee has recognized, 
the most recent example of our collaboration with VA and DOD is on the 
Task Force. Chaired by Secretary Nicholson, both Secretary Gates and 
Secretary Chao were members of the Task Force. The Task Force report 
contains important recommendations that are already in progress and it 
illustrates the high level of coordination and collaboration that goes 
on among DOL, VA, and DOD, as well as with other Federal departments 
and agencies.
    DOL was tasked with the lead on four of the report's 
recommendations. Those are to integrate our HireVetsFirst Campaign into 
career fairs; train active duty, Guard and Reserve members regarding 
their rights under the Uniformed Services Employment and Reemployment 
Rights Act (USERRA); develop a financial aid education module; and 
develop a wounded veterans intern program. I would like to describe our 
efforts in each of these areas.

    <bullet> Integrate the HireVetsFirst campaign into career fairs: 
DOL's Veterans' Employment and Training Service (VETS) works through 
the nationwide system of One-Stop Career Centers to ensure that 
veterans receive priority employment services, including the 
specialized services of dedicated veteran employment specialists. We 
are working with One-Stop Career Centers in every state to integrate 
the HireVetsFirst campaign into over 120 private and public sector 
veteran job fairs, and to expand the number of employers actively 
involved in veteran recruitment. We will soon announce simultaneous job 
fairs that will be held this November in every state to highlight the 
value veterans bring to the workforce and to offer unprecedented 
opportunities for employers to find and hire veterans and 
servicemembers who are transitioning to the civilian workforce.
    <bullet> Train Active Duty, Guard and Reserve on USERRA rights: To 
improve servicemembers' understanding of their reemployment rights at 
entry to, during, and exiting from military service, DOL has stepped up 
its efforts to ensure that National Guard and Reserve members are 
briefed on their Uniformed Services Employment and Reemployment Rights 
Act (USERRA) rights, both during mobilization and during their 
demobilization once they return. In 2006, we rolled out an aggressive 
training regimen on the new USERRA regulations and over 400,000 
servicemembers and employers have been briefed to date.
    We collaborate closely with the DOD National Committee on Employer 
Support of the Guard and Reserve (ESGR) to develop better understanding 
and application of the law in order to improve the USERRA training, 
technical assistance, and dispute resolution services that are provided 
to servicemembers. DOL has developed a comprehensive pocket guide and 
interactive programs on USERRA for use by servicemembers, veterans, 
employers, ESGR caseworkers and mediators as well as by our own USERRA 
investigators. We have improved training for our USERRA investigators 
and VETS has established a corps of senior USERRA investigators as part 
of its efforts to better advise servicemembers of their USERRA rights, 
and to insure prompt and accurate handling of USERRA cases.
    <bullet> Develop a Financial Aid Education Module for the 
Transition Assistance Program (TAP): DOL, DOD and the Department of 
Education have formed a work group to develop a training module in the 
Transition Assistance Program and the Disabled Transition Assistance 
Programs (DTAP) that will better inform transitioning servicemembers of 
available financial aid benefits. Since only a limited number of 
servicemembers take advantage of the education benefits that are 
available to them, this module will educate them on the wide range of 
financial aid and other benefits to support enhancing their education 
and skills, and improving their marketability to employers.
    <bullet> Develop an Intern Program for Wounded Veterans: Many 
severely wounded and injured servicemembers have little or no civilian 
employment experience. The internship program will build on DOD's 
Operation Warfighter (OWF), in which DOD and DOL have worked very 
closely since its launch two years ago at the Military Severely Injured 
Center (MSIC) in Arlington, Virginia. OWF places active duty wounded 
and injured servicemembers in unpaid Federal employment opportunities 
that meet both the agency's needs and the needs and interests of the 
OWF participant. Like OWF, the expanded internship program will provide 
valuable work experience to injured Global War on Terrorism (GWOT) 
servicemembers while they are in medical hold status and transitioning 
out of military service.
    DOL has a full-time employee based at the MSIC who leads our role 
in OWF. We work directly with Federal agencies to develop intern 
opportunities for interested servicemembers, and hold regular meetings 
for potential OWF participants at Walter Reed Army Medical Center where 
Federal agencies discuss their internship opportunities. We then work 
closely to match wounded or injured servicemembers with appropriate 
internships. To date, over 200 servicemembers have participated in OWF, 
and over 50 have gone on to be hired into permanent Federal jobs.

    In addition to leading these important initiatives recommended by 
the Task Force, DOL plays a pivotal role in several other Task Force 
recommendations.

    <bullet> Increase participation in TAP. One of our goals has been 
to increase the participation rate of active duty, National Guard, and 
Reserve members in Transition Assistance and Disabled Transition 
Assistance Programs (TAP/DTAP) to 85 percent, and we have been working 
with DOD officials to accomplish this goal. Under DOD's lead, DOL and 
VA are working with the military at all installations to market TAP and 
encourage greater participation so that every servicemember that might 
need to find post-separation employment attends this important 
transition activity. Active duty servicemember participation in TAP 
employment workshops has risen by 50 percent since 2002 and will 
continue to increase under these joint efforts.
    To smooth the return of activated National Guard and Reserve 
troops, in FY 2005 DOL began offering TAP Employment Workshops to 
members of the Reserve and National Guard returning from active duty. 
Recognizing the special needs of these returning units and their 
members, we developed a TAP instructional program specifically tailored 
for them. VETS State Directors coordinate closely with state workforce 
agencies to ensure veteran employment staff or contract facilitators 
are available to provide TAP employment workshops for the Guard and 
Reserve. The State Directors work directly with officials of the State 
Adjutant General offices and local Reserve Unit Commanders to stress 
the importance of TAP and to schedule the workshops. Spouses are also 
encouraged to attend.
    Finally, DOL has assisted DOD with the development of ``TurboTAP,'' 
which DOD will discuss during this hearing. This innovative, online 
resource will dramatically enhance transition.
    In addition to increasing participation in the TAP employment 
workshop, DOL is working with DOD to improve the quality of the 
workshop. The improved TAP workshops will include resume development so 
that servicemembers leave TAP with a draft resume; ``mock'' interviews 
so they gain experience in job interviews; and job search sessions so 
participants have conducted a personal job search on their state 
workforce system job board.
    Further, DOL has issued over 300,000 Keys to Career Success cards, 
which provide transitioning servicemembers with information on how to 
locate the One-Stop Career Center in their hometown, and we will 
continue to provide the cards in the TAP resource packets.
    <bullet> Improve opportunities for Licenses and Certifications. DOL 
is also supporting the DOD in implementing the Task Force 
recommendation to improve civilian workforce credentialing and 
certification to better relate a servicemember's military experience to 
civilian employment opportunities.
           ongoing programs for servicemembers and veterans 
                         who need help the most
    Now I would like to take this opportunity to share the ongoing 
collaborative programs that target servicemembers who need help the 
most, and to smooth the transition of our youngest veterans.

    <bullet> Providing Employment Assistance for Wounded and Injured 
Servicemembers and their Families: DOL initiated the Recovery and 
Employment Assistance Lifelines (REALifelines) program in November 2004 
to provide face-to-face, personalized assistance to seriously wounded 
and injured servicemembers and their spouses so they are better 
prepared and trained for rewarding careers in the civilian sector. 
Dedicated REALifelines professionals work closely with DOD, the 
military services, and the VA at major military medical treatment 
facilities. They meet personally with wounded or injured servicemembers 
who will be transitioning into the civilian workforce.
    Over 2,200 servicemembers, spouses or veterans have received 
employment assistance since the beginning of the program. We are now 
exploring ideas for onsite training at medical treatment facilities. 
For example, at Balboa Naval Medical Center, Cisco Systems has agreed 
to establish a Technical Training Academy that will certify 
participants for careers in information technology.
    Last September, we hosted the first National Summit on Recovery, 
Rehabilitation and Employment for Wounded & Injured Servicemembers in 
Alabama under the REALifelines banner. The summit fostered 
collaboration and highlighted successful efforts to assure the 
successful return and reintegration of returning wounded and injured 
servicemembers and their families.
    <bullet> Assisting VA's Vocational Rehabilitation and Employment 
(VR&E) Program: DOL and VA have long maintained a close working 
relationship in the VR&E Program. To ensure a seamless transition 
between the VA's VR&E program and civilian employment, DOL-funded 
veterans employment specialists are outstationed as needed at VR&E 
offices. These specialists provide labor market information to VR&E 
participants as they select training programs. The veteran employment 
specialists assist VA employment counselors and are present as 
participants complete the program in order to assist in job placement. 
Currently, 72 veteran employment specialists are outstationed at 36 VA 
Regional Offices and 36 outbased facilities.
    DOL and VA strengthened our partnership through a Memorandum of 
Agreement (MOA) in 2005. Under the new MOA, joint working groups meet 
and report on ways to increase collaboration, to improve data 
collection and reporting, and, in general, to improve employment 
opportunities for disabled veterans. VA also uses the DOL-funded 
National Veterans Training Institute to develop training courses for 
VR&E staff.
    <bullet> Ensuring the Smooth Transition of Young Veterans: This 
committee has expressed concern about the unemployment rates of 20-24-
year-old veterans. There are a number of reasons the unemployment rate 
of young veterans is usually higher than that of their non-veteran 
counterparts. First, unlike their civilian counterparts in the Current 
Population Survey (CPS), which is conducted by the Census Bureau for 
the Bureau of Labor Statistics, all young veterans have recently 
undergone a significant labor market transition. Moving from military 
to civilian employment is a big transition for these young people. They 
are generally first term enlistees who are getting out of the military 
and entering the civilian job market for the first time, or are going 
to school and waiting for a new semester to begin. Some take a well-
deserved break after military service. Some use unemployment 
compensation while trying to land the right job.
    Any young veteran who is unemployed is a serious concern to DOL, as 
we are researching this subject to better understand the path young 
veterans take as they transition from military to civilian occupations. 
We are also collaborating with VA and DOD on similar research efforts. 
We are working to increase servicemember participation in TAP, to make 
the TAP employment workshop more meaningful to them, and to encourage 
these young servicemembers to use the services of their local One-Stop 
Career Centers.
    <bullet> Participation on Joint Committees and Task Forces: In 
addition to the programs mentioned above, DOL is an active participant 
on numerous DOD and VA committees, including the following:
    DOD Special Working Group on Transition to Civilian Employment
    DOD ESGR Freedom Awards National Selection Board
    DOD/DOL Task Force on Licensing and Certification
    VA Advisory Committee on Homeless Veterans (ex-officio)
    VA Advisory Committee on Rehabilitation (ex-officio)
    VA Advisory Committee on Women Veterans (ex-officio)
    VA Advisory Committee on Education (ex-officio)
    VA Advisory Committee on OIF/OEF (observer)
                    support from america's employers
    Finally, I want to take a moment to discuss two important outreach 
activities we believe are helping veterans find good jobs and employers 
find veterans.
    HireVetsFirst Campaign: The HireVetsFirst Campaign was established 
under the President's National Hire Veterans Committee in 2004 to reach 
out to employers to help them find and hire veterans. The Campaign 
centers on helping employers develop veteran hiring strategies, use 
One-Stop Career Centers to find veterans, and participate in activities 
such as the many veteran job fairs. States and Governors also sponsor 
HireVetsFirst activities focused on hiring veterans in their states. We 
are particularly proud that 48 of 52 Governors have issued 
proclamations (highlighting or emphasizing) veterans' employment to 
their respective business communities.

    <bullet> Advisory Committee on Veterans' Employment, Training, and 
Employer Outreach (ACVETEO): This newly formed Committee is responsible 
for assisting with outreach, assessing the employment and training 
needs of veterans and their integration into the workforce and 
determining the extent to which DOL programs and activities are meeting 
these needs. The Committee includes representatives of veterans service 
organizations, business, employment, labor, state workforce agencies, 
the National Governors Association, rehabilitation agencies and ex-
officio members from Federal agencies. VA and DOD serve as Ex Officio 
members. The Committee is looking at ways to improve transition, 
outreach to business, and services to special veteran populations. The 
first meeting of the ACVETEO, held on May 15th, 2007, was attended by 
Secretary Chao and Secretary Nicholson.
    Thank you again for the opportunity to appear today before the 
Committee. This concludes my remarks, and I would be happy to respond 
to any questions.

    Chairman Akaka. Thank you very much, Mr. Ciccolella.
    Mr. Dominguez, please proceed with your statement.

   STATEMENT OF MICHAEL L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
            SECRETARY FOR PERSONNEL AND READINESS, 
                     DEPARTMENT OF DEFENSE

    Mr. Dominguez. Thank you, sir.
    Mr. Chairman, distinguished Members of the Committee, thank 
you for the opportunity to be here today to discuss issues 
relating to the transition and employment of our separating 
servicemembers and demobilizing members of the National Guard 
and Reserve.
    I would like to begin my testimony by recognizing the 
cooperation and collaboration of our partners at the Department 
of Labor and the Department of Veterans Affairs. The support we 
receive from them ensures our servicemen and women have every 
opportunity to find employment upon completion of their service 
to the Nation. The continued interest and support of this 
Committee is also vital to our efforts and I thank you for your 
involvement, sir.
    Returning to private life after serving in the military is 
a very complex undertaking. Our DOD, DOL, DVA Transition 
Assistance Program provides servicemembers and their families 
with the skills, tools, and the knowledge necessary to design 
individual reentry plans.
    Stimulated in large measure by the unique needs of our 
large numbers of demobilizing Guardsmen and Reserves, we 
collaborated with our many partners and designed a dynamic web-
based system to augment the delivery of transition assistance 
and related information. We are calling this online system 
TurboTAP. TurboTAP will provide active duty, National Guard, 
and Reserve personnel access to employment information, allow 
them to build a resume online, do a job search, to contact 
their local DOL career One-Stop Career Center for employment 
assistance, and many other functions. Also, each servicemember 
will be able to create a lifelong account in TurboTAP. TurboTAP 
was launched on June 9 of this year and we demonstrated the 
program yesterday for the Committee staff.
    We at the DOD, in collaboration with our Federal agency 
partners, veterans service organizations, State and local 
governments, and industry are working on several other 
initiatives to benefit transitioning servicemembers. We are 
studying the rate and causes of unemployment among younger 
veterans. As called for by the Defense Authorization Act of 
2007, we established a Special Working Group on Transition to 
Civilian Employment of National Guard and Reserve members 
returning from mobilized status. My colleague, Secretary Hall, 
leads that effort.
    We continue operating our Military Severely Injured Center 
and partner with DOL on REALifelines. We have begun a series of 
Hiring Heroes career fairs focused on Federal civil service 
employment for severely wounded servicemembers.
    We are increasing attendance at TAP, VA benefits, and 
employment workshops. We have developed and deployed tools to 
assist servicemembers in gaining civilian credentials from 
their military schooling. We have established joint DOD-DVA 
teams to completely revamp the way we support our wounded 
warriors and we continue to improve DOD-VA integration under 
the auspices of the Joint Executive Council.
    Mr. Chairman, while we have accomplished much, much remains 
to be done. We are blessed, however, with energetic, 
enthusiastic partners. Working together and with your support, 
I am confident we can deliver world class transition assistance 
to the men and women who volunteered to serve this Nation in 
the Armed Forces. Thank you, sir.
    [The prepared statement of Mr. Dominguez follows:]
Prepared Statement of Hon. Michael L. Dominguez, Principal Deputy Under 
      Secretary for Personnel and Readiness, Department of Defense
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to discuss issues relating to employment of our 
returning veterans, Servicemembers, and members of the National Guard 
and Reserves. I'd like to recognize the cooperation and collaboration 
among the Department of Defense (DOD), the Department of Labor (DOL), 
the Department of Veterans Affairs (VA) and the Department of Homeland 
Security (DHS).
    We require a great deal from our Armed Forces and I want to affirm 
the Department's commitment to all our Servicemembers--Active, National 
Guard and Reserves and their families.
    Returning to private life after serving in the military is a very 
complex undertaking. To assist them in doing so, we must empower 
Servicemembers with the tools and information they need to fashion 
individual solutions to the challenges they will face as they return to 
civilian life. DOD, along with DOL and the VA, has worked to provide 
them with a variety of tools, including the Transition Assistance 
Program (TAP).
    Let me begin with some general comments regarding the cooperation 
and collaboration among DOD, DOL and VA.
    I am impressed by the dedication and willingness of our Federal 
partners to provide an assortment of highly desirable transition 
services. The cooperation and support we receive from DOL and VA is 
outstanding. You can be truly proud of the manner in which DOD, DOL, 
and VA, have continued to enthusiastically support our men and women in 
uniform. Obviously, the sustained interest and support of this 
Committee is also vital to our efforts.
    While the three departments have been working together in earnest 
for well over a decade, the many professionals within the departments 
are bringing DOD, DOL, and VA closer together at a pace greater than at 
anytime before. Examples of our collaborative efforts include the 
Transition Assistance Program (TAP) Steering Committee and the 
Secretary of Labor's Advisory Committee on Employment, Training, and 
Employer Outreach. DOD and VA also partner extensively though the VA/
DOD Joint Executive Council (JEC), the Benefits Executive Council 
(BEC), and the Health Executive Council (HEC), Veterans Employment, 
Training, and Employer Outreach (ACVETEO).
    Whether separating, retiring or being released from active duty as 
a member of the National Guard or Reserves, the transitory 
Servicemember's most immediate goal is finding a job, changing careers, 
and improving his/her economic quality of life. DOD believes that none 
of our efforts are more important than creating an uninterrupted 
continuum of opportunities at every level, as our Service personnel and 
their families transition from military service to veteran status. This 
includes helping them reach and achieve their employment potential and 
aspirations to their full capability.
    The rest of my statement today will touch on the many activities 
under way that reflect the shared commitment to delivering transition 
assistance, employment assistance, and benefits information.
                     transition assistance program
    Since its inception in 1990, the goal of the Transition Assistance 
Program (TAP) has been to provide Servicemembers and their families the 
skills, tools, knowledge, and self-confidence necessary for a 
successful reentry into the Nation's civilian work force. We deliver 
TAP through a collaborative effort involving DOL, the Military 
Services, VA, DHS, the Department of Education (ED), the Small Business 
Administration (SBA), the National Veterans Business Development 
Corporation, and other Federal, state, local and nonprofit 
organizations. The Veterans Service and Military Service Organizations 
provide outstanding support to TAP and to our Servicemembers and their 
families at both the national and local levels. The goal is to help 
prepare them to move into the job market.
    There is much concern about how we can better serve the National 
Guard and Reserve Components coming from Operation Enduring Freedom 
(OEF)/Operation Iraqi Freedom (OIF). So with that high priority, let me 
tell you first about the new technological breakthrough that will 
change how the National Guard and Reserve members transition out of the 
military, in addition to serving as a valuable tool for the Active 
Component Servicemembers as well.
                                turbotap
    When TAP was originally developed in 1990, we did not design it 
with the needs of the National Guard and Reserves in mind. Their 
mission has changed dramatically since 9/11 and the requirements, with 
respect to TAP, warrant a fresh look. To better meet the needs of the 
Guard and Reserves, DOD, with the cooperation and collaboration of the 
Military Services, National Guard Bureau (NGB), DOL, VA, ED, SBA, and 
the National Veterans Business Development Corporation, has designed a 
dynamic, automated web-based system for delivery of transition 
assistance and related information. This portal architecture will be 
the backbone of the updated DOD TAP process for National Guard and 
Reserve Servicemembers. Each Reservist and Guardsman will be able to 
create a lifelong account to which he/she or his/her spouse can refer, 
at any time during his/her life. Usability, flexibility, adaptability, 
and individual customization are the keys to successful implementation 
of this new technology-enabled process. The goal for this system is to 
increase Servicemember participation and satisfaction.
    We are excited by the possibilities for TurboTAP. National Guard 
and Reserve personnel will be able to access employment information, 
build a resume online, do a job search, contact their local One-Stop 
Career Center for employment assistance, and the list goes on. TurboTAP 
allows an individual to develop and print out his or her own individual 
transition plan.
    Some of the features of TurboTAP are:

    <bullet> A comprehensive Transition Guide for the Guard and 
Reserves as well as a comprehensive Preseparation Guide for Active 
Component Servicemembers. These guides provide information on benefits 
and services available to transitioning Servicemembers as well as 
contact points for further assistance;
    <bullet> Lifelong account for National Guard, Reserves and Active 
Component Servicemembers which allows them to use the system 
indefinitely;
    <bullet> A personal profile that can be updated anytime;
    <bullet> A customized Individual Transition Plan;
    <bullet> Transition information that can be accessed anytime, 
anywhere;
    <bullet> An Employment Hub containing job searches, resume builder 
and military occupational translator using the O*NET to convert to 
civilian occupational skills;
    <bullet> Direct e-mail access to any DOL One-Stop Career Center;
    <bullet> A VA Benefits Hub providing information on VA benefits, 
services and programs; and
    <bullet> ``Helpful checklists'' to remind Servicemembers about key 
things they should do before separating or being released from active 
duty.

    TurboTAP allows Servicemembers, veterans, retirees, and 
demobilizing members of the Reserve Components to locate and find the 
nearest DOL One-Stop Career Center, VA Regional Office, VA Vet Center, 
VA Medical Center, and military installation to where they live. These 
facilities with their highly trained and dedicated staffs, stand ready 
to help our deserving men and women who have served this Nation with 
honor.
    TurboTAP will better meet the needs of the National Guard, Reserves 
and Active Component Servicemembers and their families because it gives 
them the tools to connect and access the information to meet their 
needs when they are ready--present or future. We have high expectations 
for this being a 21st century approach to delivering individualized 
information and benefits to Servicemembers and families. With the 
expected success, we further plan to make transition an online 
transaction much like banking and bill paying have become. The success 
and accountability of transition will be managed online versus a form 
being hand carried to a personnel file. As we move down this road, we 
will solicit your approval and legislative support.
    TurboTAP was launched on June 9th. The site can be accessed at 
http://www.TurboTAP.org.
Components of Transition Assistance Program
    The four components of TAP emphasize preparation for employment 
rather than job placement itself.
    Preseparation Counseling is the first component of TAP. This 
counseling is mandatory for separating and retiring Servicemembers and 
all eligible demobilizing members of the National Guard and Reserves. 
The Military Services are responsible for providing Preseparation 
Counseling. During the 2-2\1/2\-hour Preseparation Counseling session 
of TAP, Active Component Servicemembers are introduced to information 
about employment opportunities and how to go about finding a job. Also 
during this phase of TAP, Active Component Servicemembers, looking for 
a job post-military, are encouraged to attend a DOL TAP Employment 
Workshop.
    During the Preseparation Counseling phase of TAP for the National 
Guard and Reserves, similar information is provided geared to their 
needs. However, instead of encouraging them to attend a DOL Employment 
Workshop, they receive a Uniformed Services Employment and Reemployment 
Rights Act (USERRA) Briefing. USERRA Briefings are scheduled at 
installation demobilization sites in coordination with the 
demobilization commander; therefore, based on availability of staff, 
the briefing may be conducted by a qualified and trained DOL 
representative, a representative from the Employer Support of the Guard 
and Reserves or another qualified and trained individual, such as a 
member of the Judge Advocate General Corps or Solicitor General's 
staff. National Guard and Reserve personnel are also informed, during 
the Preseparation Counseling session, about the services available to 
them at the DOL One-Stop Career Centers. Members looking for jobs or a 
career change are encouraged to visit and register with the One-Stop 
Career Center nearest their residence, once they return home.
    Why does the Department emphasize a USERRA Briefing for our 
National Guard and Reserve personnel? The overwhelming majority of 
those activated have jobs when they are activated; therefore, they have 
jobs to which they will return. This is supported by the 2006 Status of 
Forces Survey conducted by the Defense Manpower Data Center (DMDC) 
which shows that 78 percent of National Guard and Reserve members, who 
were activated in the 24 months preceding the survey, were employed 
prior to activation. We plan to address meeting their needs once home 
by leveraging technology.
    While at the demobilization station, they get information about 
their eligibility to receive employment assistance and other transition 
services up to 180 days after demobilization from any of the Military 
Services Transition Office and DOL One-Stop Career Center.
    In addition to the DOL Employment Workshops, the Military Services 
provide a vast array of additional employment seminars and one-on-one 
counseling to Servicemembers. This extensive assistance covers: resume 
and cover letter writing; information about electronic job banks and 
Internet access to automated employment tools (resume writer, cover 
letter and job assistance tutorials); tools on salary negotiation; 
location of job fairs; details about Federal employment workshops and 
seminars; opportunities for post military employment networking; 
relocation assistance; information about government partnerships for 
employment and training; benefits for members who are involuntarily 
separated; employer panels; and information about Veterans benefits 
(including disability benefits).
    The second component of TAP is the DOL TAP Employment Workshop. 
Attendance is voluntary on the part of Active Component Servicemembers 
and their spouses, with the exception of the Marine Corps which has 
made attending the DOL Employment Workshop mandatory. The DOL 
Employment Workshops are 2\1/2\ days in length. The curriculum, 
facilitators, workshop materials, data collection and analysis related 
to the employment workshops are the responsibility of DOL. During the 
2\1/2\-day workshop, Active Component Servicemembers receive 
information on labor market conditions, assessing individual skills and 
competencies, how to write effective resumes and cover letters, proper 
interviewing techniques, and the best methods of searching for jobs. 
They also learn how to use electronic employment data banks. Finally, 
they get information addressing the special employment needs of those 
separating with a disability.
    The third component of TAP is the VA Benefits Briefing. This, too, 
is voluntary for Active Component Servicemembers and is 4 hours in 
length. The 4-hour briefing addresses education and training; health 
care; home loans; life insurance; vocational rehabilitation and 
employment (VR&E); disability benefits; burial benefits; and 
dependents' and survivors' benefits.
    Demobilizing National Guard and Reserve Servicemembers receive a 
one-hour VA briefing which also includes information on Disabled 
Transition Assistance Program (DTAP). Although not mandatory, if a VA 
Benefits Briefing is on the demobilization schedule, all members of 
that unit receive the briefing. The materials, information, counselors, 
and all data collection and analysis related to the VA Benefits 
Briefings are the responsibility of the VA.
    The fourth and final component of TAP is DTAP. Attendance at the 
Disabled Transition Assistance Program is voluntary for Active 
Component Servicemembers and is a separate two-hour briefing. DTAP is 
for Servicemembers and veterans who have, or suspect they have a 
service-connected disability or an injury or illness that was 
aggravated by service. During the two hour DTAP briefing, VA addresses 
Vocational Rehabilitation and Employment, sometimes referred to as 
Chapter 31. DTAP addresses the five tracks to employment: re-
employment; rapid access to employment; employment through long term 
services; independent living services; and self employment. DTAP also 
addresses other services such as medical, dental, optical, mental 
health treatment, special adapted housing, Vet Centers, vocational/
educational counseling and special hiring authorities for Federal 
employment. VA provides all materials and information, counselors, data 
collection and any analysis related to DTAP.
    Finally, we cannot overlook the many options for Federal employment 
such as: Veterans Recruitment Appointment (VRA), Veterans Employment 
Opportunities Act (VEOA), Appointment of 30 percent or More Disabled 
Veterans, Federal Career Intern Program (FCIP), Small Business 
Administration and the National Veterans Business Development 
Corporation Programs for those who want to start their own business or 
franchise.
    I now want to share with you some ongoing initiatives in DOD as 
they relate to post-military employment for our Servicemembers.
                       other initiatives underway
Special Working Group on Transition to Civilian Employment of National 
        Guard and Reserves
    A more recent initiative is the establishment of a 2-year Special 
Working Group on Transition to Civilian Employment of National Guard 
and Reserve Members Returning from Mobilized Status in direct or 
indirect Support of Operation Iraqi Freedom or Operation Enduring 
Freedom, as specified in Section 676 of the National Defense 
Authorization Act for Fiscal Year 2007.
    The working group will identify and assess the needs of CONUS and 
OCONUS military members with regard to returning to civilian 
occupations or school, the pre- and post-deployment delivery of these 
services, and the effect of the severity of wounds or injuries upon 
their return to the civilian workforce. We look forward to accessing 
this valuable information and utilizing it to the benefit of 
transitioning Servicemembers.
Support for Severely Injured
    As you are aware, DOD and VA established task forces to review how 
wounded Servicemembers are served and how to better collaborate to meet 
the needs of the members and their families. However, today, the Joint 
Seamless Transition Program, established by VA, in coordination with 
the Military Services, also facilitates a more timely receipt of 
benefits for severely injured Servicemembers. Veteran Benefits 
Administration (VBA) counselors visit all severely injured patients and 
inform them of the full range of VA services, including readjustment 
programs, employment programs, and information on educational and 
housing benefits.
    Seamless Transition helps these personnel touch base with 
vocational rehabilitation and employment services, and assists in 
putting them in contact with other employment resources available 
through DOL, the Military Services, the Joint Seamless Transition 
Office, DOD and the Military Services severely injured and wounded 
programs. All of these are available to help Servicemembers and their 
families connect with the employment assistance they need.
    To expand employment assistance to our severely injured and 
wounded, the Office of the Deputy Under Secretary of Defense, Civilian 
Personnel Management Service, has undertaken a broad outreach program 
called ``Hiring Heroes Career Fairs'' to assist severely injured 
Servicemembers and their families in finding employment opportunities 
in the DOD, other Federal agencies, and the private sector. Outreach 
efforts to Servicemembers and veterans are conducted by working across 
government and the private sector to ensure information offered through 
their educational and training programs is available to the 
Servicemembers at the career fairs.
    Career fairs that support the Department's ``Hiring Heroes'' 
program have been offered at the following locations: Walter Reed Army 
Medical Center, DC; Fort Sam Houston, TX; Womack Army Medical Center, 
Fort Bragg, NC; Eisenhower Army Medical Center, Fort Gordon, GA; and 
Walson Army Medical Center, Fort Dix, NJ. Three career fairs have been 
conducted in partnership with the Coalition to Salute America's Heroes, 
a non-profit organization. Over 2,000 Servicemembers and their family 
members have attended these career fairs and several more are planned 
well into the future.
    Corporate America has responded to the call; many Fortune 500 
companies and small businesses are recruiting injured and wounded 
veterans for their skills, experience, maturity, and work ethic. Many 
of these companies are creating special programs geared specifically 
toward finding employment in their respective companies for these 
veterans and their family members.
Task Force Recommendations on Returning Global War on Terror Heroes
    Now, I'd like to turn your attention to the recommendations 
contained in the recent report of the President's Task Force on 
Returning Global War on Terror Heroes that relate to employment. Of the 
25 overall recommendations, DOD is the lead agency on two that are 
related to employment:

    <bullet> The first recommendation, O-1, calls for us to ``Increase 
Attendance at TAP and DTAP Sessions.'' This recommendation calls for 
DOD to increase attendance at TAP and DTAP sessions to 85 percent of 
those separating Servicemembers and demobilizing National Guard and 
Reserves Forces. To meet this challenge, a Departmental Memorandum is 
being prepared that will go to the Secretariats of each Military 
Department informing them of the Department's 85 percent attendance 
goal. Due to the complexities and uniqueness of the National Guard and 
Reserves, how they mobilize and demobilize, this is the area where we 
plan to leverage TurboTAP technology to help us achieve this goal. We 
want at least 85 percent of all demobilizing National Guard and 
Reserves as well as Active Component Servicemembers, to establish a 
TurboTAP account and use the system as intended.
    <bullet> The second recommendation is O-4, ``Improve Civilian 
Workforce Credentialing and Certification.'' During the Preseparation 
Counseling phase of TAP, Servicemembers (National Guard, Reserves and 
Active Component) learn where and how to access information relating to 
licensure, certification and apprenticeship. The Army, after doing 
extensive research, conducting gap analysis, and following a 
comprehensive review of the credentialing process, created 
``Credentialing Opportunities On-Line (COOL)'' or Army COOL. This 
robust web site helps soldiers find civilian credentialing programs 
related to their military occupational specialty. It helps them 
understand what it takes to obtain a credential and it helps them 
identify resources available to pay credential fees. The Navy followed 
the Army with Navy COOL. DOD is working with the Air Force and Marine 
Corps and hopes that they will soon join their sister Services with a 
COOL web site.
    <bullet> I have already addressed the fact that, during the 
Preseparation Counseling phase of TAP, information about the DOL One-
Stop Career Center web site is provided to Active and Reserve Component 
personnel. One of the tools on this web site is the Credentials Center, 
which a Servicemember can use to locate State-specific occupational 
licensing requirements, find agency contact information, information on 
industry-recognized certifications as well as the associated workforce 
education and examinations that test or enhance knowledge, experience 
or skills in an occupation or profession. DOD and DOL established a 
``Credentialing Working Group,'' that is charged with developing 
appropriate goals, objectives, and outcomes that will help remove 
credentialing barriers that some veterans and transitioning 
Servicemembers face today.
                               conclusion
    Mr. Chairman, as I stated earlier in my remarks, the collaboration 
and partnership between DOL, VA, SBA, the VSOs and MSOs and others is 
outstanding. The collaborative structures we have in place (JEC, BEC, 
HEC, TAP Steering Committee, Advisory Committee on Veterans Employment 
and Training and Employer Outreach, and the Joint VA Seamless 
Transition Office) provide multiple forums for our continued dialogue 
on these crucial issues. The Report to the President on ``Returning 
Global War on Terror Heroes'' provides us another opportunity to 
communicate, strategize and work together.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
Members of the Senate Committee on Veterans' Affairs for your steadfast 
support during these demanding times.

    Chairman Akaka. Thank you very much, Mr. Dominguez.
    Now we will hear from Ms. Caden.

      STATEMENT OF JUDITH A. CADEN, DIRECTOR, VOCATIONAL 
   REHABILITATION AND EMPLOYMENT SERVICE, VETERANS BENEFITS 
         ADMINISTRATION, DEPARTMENT OF VETERANS AFFAIRS

    Ms. Caden. Good morning, Mr. Chairman. I am pleased to be 
here today to discuss these very important issues.
    I will first mention the recommendation that came out of 
the President's Task Force on Returning Global War on Terror 
Heroes. For the VR&E program, there was one recommendation, 
that we authorize an immediate extension of from 12 to 18 
months of an individualized extended evaluation plan for those 
returning servicemembers whose disabilities or injuries are so 
great they need more time to really decide on next steps, and 
we can assess whether employment is a feasible goal for them, 
and that change has been implemented.
    VR&E and the Department of Labor's Veterans' Employment and 
Training Service, or VETS, continue to work in partnership to 
provide comprehensive employment services to veterans with 
service-connected disabilities. In October of 2005, we signed a 
revised Memorandum of Agreement to expand and solidify our 
cooperation and our ability to work together, and the 
implementation has been made easier, as Mr. Ciccolella 
mentioned, with the co-location of 72 Disabled Veterans 
Outreach Program Specialists, or DVOPS, at 36 of our regional 
offices and 36 of our out-based sites. So at these offices, 
those DVOP Specialists work hand-in-hand with our VR&E staff 
together to efficiently and effectively deliver employment 
services, and both groups work with the same tools, including 
the VR&E Job Resource Labs and our new online employment tool, 
VetSuccess.gov.
    VR&E Service and the Department of Defense collaborate in 
many ways, and we absolutely recognize the importance of 
partnering with DOD. They are the main component of our early 
intervention and outreach efforts to assist in the transition 
of seriously injured servicemembers.
    An example of this effort is a Memorandum of Understanding 
we entered into with the U.S. Army Materiel Command in support 
of their Always a Soldier Initiative, and that is focused on 
providing newly discharged servicemembers with another 
employment tool to come into AMC. And, in fact, since the 
beginning of FY 2006, that has helped towards the Department of 
Army's hiring over 372 veterans that have participated in the 
VR&E program.
    More recently, we signed an MOU with the Naval Air Warfare 
Center Aircraft Division, or NAWCAD, again to provide another 
employment tool, and this is a little bit more innovative 
because while they are in the VR&E program, NAWCAD will also 
work with veterans to provide paid work experience, provide on-
the-job training opportunities, and to provide the participants 
with a program mentor.
    We work with DOD as far as working with their other 
organizations, like Department of the Navy Safe Harbor, 
Department of the Army Wounded Warriors program, and others.
    DTAP is part of the TAP program, and DTAP, the Disabled 
Transition Assistance Program, is really my piece of TAP for 
VR&E. It explains the VR&E program. In FY 2006, we conducted 
823 DTAP briefings attended by 15,500 participants. We are 
expanding that effort. So far this year, we have had almost 
1,500 briefings for nearly 29,000 participants. We also have 
provided a DTAP CD, mainly for members of the Guard and Reserve 
who maybe can't attend one of these sessions. They can have a 
CD as soon as they get home, take it home, and watch it. They 
can also access it from our web site.
    We have expanded our outreach efforts to OIF and OEF 
servicemembers and veterans, including the Coming Home to Work 
program, which is carried out at eight of the primary military 
treatment facilities. We partner with DOD and with DOL in this 
effort and, to date, there have been 442 participants in that 
program.
    There are many other efforts that are outlined in my full 
statement, but I appreciate the opportunity to be here today. 
Thank you.
    [The prepared statement of Ms. Caden follows:]
     Prepared Statement of Judith A. Caden, Director of Vocational 
       Rehabilitation and Employment Service, Veterans Benefits 
                            Administration, 
                     Department of Veterans Affairs
    Mr. Chairman and distinguished Members of the Committee, I am 
pleased to be here today to discuss the progress made by the Department 
of Veterans Affairs (VA) in improving the delivery of employment 
services and benefits to our Nation's veterans.
    We are working in close partnership with the Department of Defense 
(DOD) and the Department of Labor (DOL) to leverage every opportunity 
to improve the transition of our separating servicemembers from 
military to civilian life. We have expanded and cemented our 
relationships, allowing us to work smarter and better in our separate 
but related missions. Our reinforced partnerships now cut across a 
range of difficult issues and have reduced many of the problems 
encountered by previous generations of veterans.
    I am pleased to provide an overview of the actions the Vocational 
Rehabilitation and Employment Service has taken in response to the 
recommendations of the President's Task Force on Returning Global War 
on Terror Heroes, and the innovative partnerships, programs, and 
initiatives we have implemented together with DOD and DOL to improve 
coordination among our three systems as we deliver our programs, 
services, and benefits.
                  task force on returning global war 
                    on terror heroes recommendations
    On March 6, 2007, President Bush established the Task Force on 
Returning Global War on Terror Heroes. The purpose of the Task Force 
was to improve the delivery of Federal services and benefits to Global 
War on Terror (GWOT) servicemembers and veterans. The Task Force report 
includes 25 recommendations that focus on enhancing the delivery of 
services and information to GWOT servicemembers and veterans within 
existing authority and resource levels. The report outlined one 
recommendation specifically directed toward the Vocational 
Rehabilitation & Employment (VR&E) Program.
    The Task Force recommended that the VR&E Service authorize the 
immediate extension, to 18 months, for an Individualized Extended 
Evaluation Plan (IEEP) for those OIF/OEF participants whose severity of 
injuries warrant additional time to determine feasibility of achieving 
an employment goal. During this extended evaluation, VA will continue 
to provide independent living services to these severely injured 
servicemembers and veterans.
    Current law does not allow the provision of a program of solely 
independent living services to a servicemember through the VR&E 
Program. However, independent living services may be provided to either 
a veteran or a servicemember with a serious employment handicap under 
an extended evaluation plan or as part of a plan of services leading to 
an employment goal. When the feasibility of achieving a vocational goal 
cannot be readily determined for an individual with a serious 
employment handicap, an IEEP is developed. Various services to evaluate 
an individual's feasibility of achieving a vocational goal can be 
provided under an IEEP, including independent living services.
    Many individuals returning from the GWOT with very serious injuries 
require extensive medical treatment and a prolonged transition to 
civilian life. Those individuals who are so severely disabled that a 
decision cannot yet be made about whether an employment goal is 
currently feasible may need an extended evaluation of more than 12 
months. A requirement for a formal request for an extension at the end 
of the 12-month period could potentially cause an interruption in 
needed services if there is any delay in preparing, evaluating, or 
approving the request. An extension of the IEEP at the time the plan is 
developed will avoid interruption and allow sustained access to 
specialized assessments and any necessary independent living services.
    In response to this recommendation, VR&E Service authorized VR&E 
Officers at our 57 regional offices (ROs) to approve the extension of 
an IEEP at the time a plan is developed for those GWOT participants 
whose severity of injuries warrant additional time to determine 
feasibility of achieving a vocational goal. In such cases, an initial 
IEEP may be developed for a period of up to 18 months. Extensions for 
additional periods of an IEEP, including independent living services, 
may also be authorized prior to completion of the initial 18 months.
    partnership with the department of labor's veterans' employment 
                          and training service
    VR&E and DOL's Veterans' Employment and Training Service (VETS) 
continue to work in partnership to provide comprehensive employment 
services to veterans with service-connected disabilities.
    In October 2005, VR&E and VETS signed a revised memorandum of 
agreement (MOA) that expands and solidifies our cooperation in case 
management, employment services, communication, reporting, oversight 
and monitoring, and accountability. These activities are all necessary 
to assist veterans to successfully achieve their rehabilitation goals. 
Associated with the MOA, guidelines and parameters for three workgroups 
have been established to develop and implement the following critical 
activities:

    <bullet> Establish effective performance measures for assessing the 
results of partnership activities;
    <bullet> Design a joint training curriculum for use at the National 
Veterans' Training Institute (NVTI); and
    <bullet> Develop a methodology for joint data collection, analysis, 
and reporting.

    Our goal of achieving excellence in the delivery of employment 
services requires that we establish and maintain close working 
relationships with our VETS partners. Implementation of the MOA with 
VETS has been made easier with the co-location of 72 Disabled Veterans 
Outreach Program (DVOP) specialists at 36 VA regional offices and 36 
outbased facilities. At these offices, DVOP specialists and VR&E staff 
work together to efficiently and effectively deliver employment 
services. Both groups have access to the same resources and online 
technologies such as the VR&E job resource labs and VetSuccess.gov.
    As a result of the national MOA, 38 regional offices have 
established formalized memoranda of understanding (MOUs) with VETS 
partners at the local level within their state. VR&E's Employment 
Coordinators partner with DVOP specialists and Local Veterans 
Employment Representative (LVER) staff. As partners, they assess the 
feasibility of employment services, recommend an appropriate vocational 
rehabilitation plan with the goal of suitable employment or independent 
living, and deliver job-readiness skills training and job-placement 
services.
    I believe we have successfully established effective partnerships 
with VETS, and that disabled veterans are benefiting from our success 
through the availability and delivery of more comprehensive employment 
services. My staff and I meet with our VETS counterparts on an ongoing 
basis. We have developed the Five Track Employment Model so that, from 
a service-delivery point of view, consultation and assistance from 
local DVOP specialists, LVER staff and VETS Federal staff are detailed 
and emphasized in each employment track.
    From our standpoint, the VR&E/VETS partnership is strong and 
continues to gain momentum through our ongoing communications and joint 
participation in training activities and development of effective 
employment policies.
            partnership with the department of defense (dod)
    VR&E Service and the Department of Defense (DOD) collaborate in 
many ways. We recognize the importance of partnering with DOD, as they 
are a main component of our early intervention and outreach efforts to 
assist in the transition of seriously injured servicemembers.
U.S. Army Materiel Command
    In June 2005, VR&E signed a memorandum of understanding (MOU) with 
U.S. Army Materiel Command (AMC) in support of its ``Always a Soldier'' 
initiative. This initiative is focused on providing continued support 
to veterans beyond their active duty service by ensuring that they have 
access to both challenging and rewarding career opportunities. 
Furthermore, it underscores AMC's commitment to working with VA to link 
disabled veterans seeking employment with AMC offices across the 
Nation. VR&E and AMC offer veterans with disabilities opportunities for 
employment, career advancement, job mobility, family economic well-
being, and greater financial security. Through this MOU, VR&E and AMC 
have agreed to:

    <bullet> Support AMC initiative by making ``Always a Soldier'' 
program information available to veterans with service-connected 
disabilities through the local VR&E staff at each RO across the Nation, 
as appropriate;
    <bullet> Encourage AMC human resource managers and VR&E employment 
staff to organize local activities for the ``Always a Soldier'' 
program; and
    <bullet> Construct new lines of communication to inform veterans 
with disabilities about employment opportunities with AMC.

    As a result of this MOU, AMC has contributed to the Department of 
the Army's commitment to hiring veterans with disabilities. Since the 
beginning of FY 2006, the Department of the Army has hired 372 veterans 
from the VR&E program.
Naval Air Warfare Center Aircraft Division
    In March 2007, the VR&E Service signed an MOU with Naval Air 
Warfare Center Aircraft Division (NAWCAD) to advance, improve, and 
expand employment opportunities for veterans with disabilities. This 
MOU established a partnership between both agencies and provides the 
framework to bring veterans with disabilities into the civilian 
workforce through the NAWCAD Disabled Veterans Cooperative Education 
Program (DVCEP). Through DVCEP, NAWCAD and VR&E will assist qualified 
veterans in taking advantage of VA educational and vocational 
rehabilitation benefits while attending accredited college courses, 
leading to employment opportunities with NAWCAD. Beyond standard VR&E 
program services, NAWCAD has agreed to:

    <bullet> Promote DVCEP to VA's 57 regional offices;
    <bullet> Provide paid work experience to full and/or part-time 
college students;
    <bullet> Provide on-the-job training opportunities;
    <bullet> Provide participants with a program mentor;
    <bullet> Work with program candidates to create an Individual 
Development Plan;
    <bullet> Upon successful completion of the education program, 
consider program participants for permanent hire;
    <bullet> Use Student Career Experience Program (SCEP) as a 
mechanism to provide tuition assistance to program participants, where 
appropriate; and
    <bullet> Use SCEP appointing authority to non-competitively convert 
eligible program participants to permanent positions after satisfactory 
performance and completion of all academic requirements, subject to 
funding limitations and needs of the organization.

    VR&E Service and Program staffs are officially kicking-off this 
partnership today. They are touring the NAWCAD facility in Patuxent 
River, MD with the goal of formalizing relationships, practices, and 
referral processes. Once the program is up and running, we plan to 
expand DVCEP to seven additional locations across the country.
VR&E and DOD Working Partnerships
    Integral to the success of employment services within VR&E are the 
combined efforts of DOD entities by which we link together, through 
mutual service delivery offerings, to provide necessary vocational 
rehabilitation services to servicemembers and veterans with 
disabilities, and their families. There are many working partnerships 
of an informal nature that support successful vocational rehabilitation 
and employment programs. VR&E, in conjunction with DOD, consults, 
advises, and coordinates employment services for servicemembers and 
veterans. We also provide VR&E training for DOD staff members. VR&E 
works closely with the following DOD organizations to coordinate the 
provision of priority services to the most severely injured 
servicemembers.

    <bullet> Department of the Navy ``SAFE HARBOR'' program.
    <bullet> Department of the Army ``Wounded Warriors Program.''
    <bullet> USMC's ``Wounded Warrior Regiment (formerly ``Marines for 
Life'').
    <bullet> Department of the Air Force ``Palace HART.''
    <bullet> DOD's Military Severely Injured Center.

combined partnership with the department of labor veterans' employment 
    and training service (dol-vets) and department of defense (dod)
    VR&E Service & VR&E field staff, DOL-VETS, and DOD cooperate to 
provide Disabled Transition Assistance Program (DTAP) services to 
separating servicemembers. Through this relationship, the agencies 
partner to ensure that the transition from active duty to veteran 
status is seamless for servicemembers.
    The proportion of separating, deactivating, and retiring 
servicemembers who participate in VA benefits and TAP/DTAP briefings 
prior to separation, deactivation, or retirement was 53 percent in FY 
2006.
Disabled Transition Assistance Program (DTAP)
    In FY 2006, VA conducted 823 DTAP briefings attended by 15,500 
participants. We are significantly expanding our program, as evidenced 
by the nearly 1,500 DTAP briefings we have already provided this fiscal 
year for nearly 29,000 participants.
    DTAP briefings are not mandatory in all military services. However, 
VR&E, in cooperation with DOD and DOL, strongly encourages 
servicemembers who are separating with a service-connected disability 
to attend the DTAP briefing. VR&E Service has also worked through the 
TAP Steering Committee to suggest that DTAP become mandatory for 
servicemembers being medically separated or servicemembers who believe 
they are separating with a service-connected disability.
Coming Home to Work (CHTW) Program
    VR&E Service has partnered with DOD and DOL to expand its outreach 
to Operation Iraqi Freedom and Operation Enduring Freedom (OIF/OEF) 
servicemembers and veterans through early intervention and seamless 
transition initiatives, to include the Coming Home to Work (CHTW) 
program. CHTW provides valuable civilian job skills, exposure to 
employment opportunities, and work experience to servicemembers facing 
medical separation from the military and uncertain futures. 
Participants work with VR&E, DOD, and DOL staff to obtain work 
experience in a Government facility that supports their career goals.
    VR&E coordinates the Coming Home to Work (CHTW) initiative for 
servicemembers pending medical separation from active duty at eight 
primary military treatment facilities: Walter Reed Army Medical Center, 
National Naval Medical Center Bethesda, Naval Medical Center Balboa 
(San Diego), Brooke Army Medical Center (San Antonio), Eisenhower Army 
Medical Center (Fort Gordon), Evans Army Community Hospital (Fort 
Carson), Darnall Army Community Hospital (Fort Hood), and Madigan Army 
Medical Center (Fort Lewis).
    To date, there have been 442 participants in the program with the 
following results:

    <bullet> 23 in active work-experience programs.
    <bullet> 201 receiving early intervention services.
    <bullet> 182 transferred from MTF to local RO for continued VR&E 
services.
    <bullet> 26 returned to active duty.
    <bullet> 10 direct hires.
                                closing
    Mr. Chairman, I believe our efforts and progress underscore our 
dedication to removing barriers to the employment of veterans with 
disabilities through cooperative partnerships with the Department of 
Defense and the Department of Labor. We are better coordinating our 
overlapping infrastructure and services, and we continually seek 
additional opportunities for partnership. Our Departments are 
singularly committed to the men and women we all serve. They are our 
highest priority.
    Our greatest challenge, and our greatest opportunity, is to build 
and deploy employment services that meet the needs of veterans, 
servicemembers, and their families for today and tomorrow. We will 
continue to persevere toward that goal.
    Mr. Chairman, this concludes my statement. I thank you and Members 
of this Committee for your outstanding and continued support of our 
servicemembers, veterans, and their families. I greatly appreciate 
being here today and look forward to answering any questions you or 
other Members of the Committee may have.

    Chairman Akaka. Thank you very much, Ms. Caden.
    I was glad to hear Mr. Dominguez mention about speaking to 
DOL and collaborating and cooperating. This is what we are 
trying to bring about. So I have a question for each of you.
    The first question is for DOD, Mr. Dominguez. In the case 
of severely injured or wounded servicemembers, it seems to me 
that there are a myriad number of programs that could be used 
to address their needs. First, I would like to ask DOD how you 
decide whether to refer an individual to VA's Coming Home to 
Work or to DOL's REALifelines program. And once that linkage is 
made, is there any system in place to track the individual's 
progress?
    Mr. Dominguez. Sir, I will take a stab at that. I think the 
referral actually happens by the fact that REALifelines also 
puts Department of Labor people in the hospital. So it is 
conversations between the Department of Labor people, veterans' 
benefits counselors there, and then the staff at the military 
treatment facilities that refer, if you will, people to 
REALifelines. Once they are into those programs, it is our two 
sister agencies that are actually delivering the services in 
terms of vocational rehabilitation and training and assistance 
in connecting with employers. I hope that answered your 
question, sir.
    Chairman Akaka. Yes. The other part to that was whether you 
have any system in place to track the individuals' progress.
    Mr. Dominguez. I will have to get back to you on 
that, sir, because I don't know if we do----
    Chairman Akaka. That is fine.
    Mr. Dominguez. Assistant Secretary Ciccolella may know 
that, sir.
    Chairman Akaka. Well----
    Mr. Dominguez. Pass the buck.
    Chairman Akaka. Thank you, Mr. Dominguez.
    This question is for VA. In terms of the VA, could you 
describe briefly how your Coming Home to Work program differs 
from DOL's REALifelines.
    Ms. Caden. Sure. I think there are similarities, which I 
don't necessarily think is a bad thing. I think we are both 
providing as many services as we can. We are a bit more 
focused, I believe, and I will let Chick talk about 
REALifelines.
    In the Coming Home to Work program, we have the counselors 
at these eight military treatment facilities. We work with the 
DOD staff to identify those soon-to-be veterans that are in a 
medical hold and are ready to maybe get some work experience, 
and so we will work to get them into a non-paid work 
experience. We work with them to do that. They will do that 
while they are at the treatment facility. And then we work to 
transition them when they go back to their home to become a 
full-blown member of the Vocational Rehabilitation Program. It 
could be that that work experience turns into a permanent job 
or it helps them decide what kind of training they might need 
for the future and get a job at their home base.
    I do think we are similar, but we might work with different 
veterans at different points in their program.
    Chairman Akaka. From DOL's perspective, how does your 
REALifeline program interface with the VA's vocational 
rehabilitation program? When you are dealing with an individual 
who is in need of vocational rehabilitation for a serious 
employment handicap, how does that individual get referred for 
appropriate assistance without falling through the cracks?
    Mr. Ciccolella. I think Judy and Mike both touched on this. 
First of all, I would tell you, Senator, that it can't be just 
the VA's program or the DOD program, the doctors at the medical 
treatment facilities or the services or just Department of 
Labor. It has got to be all three of those agencies working 
closely together.
    The REALifelines program we started out at Walter Reed to 
work with individuals once they are stabilized, focuses on 
identifying, you know, what they may want to do once they leave 
the military. Now, we don't do that alone at Walter Reed. We 
work right next door to the Department of Veterans Affairs. So 
if the individual would like to pursue education or an 
apprenticeship or training that VR&E, the Vocational 
Rehabilitation and Employment Program, offers, whether we see 
them or whether they see them, they will get to the vocational 
rehabilitation representative, and the vocational 
rehabilitation representatives, again, are right there at 
Walter Reed. They are also right down there together at San 
Antonio at Brooke Army Medical Center. They are at Tripler Army 
Medical Center and they are at Madigan Army Medical Center. So 
they work together. At Madigan, for example, the agencies are 
all represented and work on one committee called a REACH 
Committee.
    So, for this population of severely wounded and injured, 
some of them will be ready to go to work right away. Some of 
them want to go back to the service. Some of them are pending 
their evaluation boards. But they all want to do something good 
in life. That is why they came in the military.
    So whatever their requirements or their needs are, the 
REALifelines program is there to assist them. We can hook them 
up with the DVOP or the LVER in the workforce system. The 
military is there. The military services are there if they want 
to go back in the service, and we are seeing more and more, 
particularly amputees, go back in the service. The Army, in 
particular, is taking more of them back. If they desire to 
pursue education, then the vocational rehabilitation folks are 
right there.
    The key to this whole thing is that these agencies work 
together, and that is exactly what is happening at the medical 
treatment 
facilities.
    Chairman Akaka. Thank you very much. I guess, again, you 
have reemphasized the need for cooperation and collaboration in 
these programs, that all of you do work together on this and 
the importance of that.
    Moving to the next question, and I am directing this to Mr. 
Dominguez and the rest of you can speak about it. My 
understanding is that the TurboTAP online resource has been 
launched and that staff had an opportunity to see a 
demonstration of it yesterday. I am glad to see this site up 
and running. The information provided us is undeniably helpful 
for transitioning servicemembers and their families. The 
question is, how are you getting the information out that the 
site even exists?
    Mr. Dominguez. Sir, thanks for that question. The pre-
separation counseling for every member leaving the Armed Forces 
is mandatory. Pre-separation counseling for people demobilizing 
out of the Guard and Reserve is mandatory. And it is in that 
pre-separation counseling session, which is the first part of 
the Transition Assistance Program, that the--what that really 
does is give them a little bit of everything, to tell them what 
is out there for them and where to go to get help and encourage 
them to use the tools and access the opportunities available to 
them. So the first answer is in the pre-separation counseling.
    The second answer is we met yesterday--my staff and I met 
yesterday--or, no, it was Monday--with the Deputy Chiefs of 
Staff for Personnel in the military services to demonstrate for 
them the program, to let them know, OK, it is ready. They have 
known we have been building it. We have been collaborating with 
them on building it. But the purpose of the session was to ask 
them what are they going to do to market this capability. What 
is it that they will do within their services to ensure that 
commanders are talking about it, that personnel people are 
talking about it.
    And so I have a memo now being drafted to ask them to 
designate people to a team my Deputy for Military Community and 
Family Policy will head to develop the marketing campaign for 
TurboTAP that will involve that chain of command.
    Chairman Akaka. What I am referring to is that we are 
looking at information dealing with benefits available, health 
care, family relocation, career building, job searches, and all 
of this designed to help transition these servicemembers. Also, 
even thinking about the younger set that is now returning who 
are possibly more advanced with technology and the information 
age, so you can treat them a little differently in sending out 
information to them.
    And so I am glad to hear that you are moving on this, you 
have been meeting on this. I just want to ask Mr. Ciccolella 
whether he has any comments about this and what stage have you 
had in this development and how are you doing.
    Mr. Ciccolella. Thanks, Senator. I think Secretary 
Dominguez covered it very well. I would only add to what he 
said that TurboTAP will also be marketed to servicemembers 
through the mobilization and the demobilization briefings. It 
will be marketed at the employment workshops. It will be 
marketed through our outreach efforts and the veteran 
employment representatives in the workforce system and, of 
course, through our national campaign that all the agencies 
participate in the job fairs and other activities of the Hire 
Veterans First campaign.
    The collaboration that has been, I think unprecedented 
between, or I should say among the Department of Defense, the 
military services, the individual military services, and the VA 
has been phenomenal. And two of the folks, Gary Woods and Ron 
Horn, sitting right back here, and their developers, they are 
the folks that developed this TurboTAP system and they 
developed it step by step right along with our input. So I 
think for that reason, it is probably one of the best things 
that has come along to help our transitioning servicemembers 
and it is going to help a lot of Guardsmen and Reservists, but 
it is also going to help active duty servicemembers, even those 
who have gone through the employment workshop, because they can 
go back to it and sign up and create a profile and get services 
that way. It is an awfully good system.
    Chairman Akaka. Thank you. Thank you for your response.
    Before I call for final comments by Ms. Caden, I would like 
to call on Senator Brown for any opening statement that you may 
have.
    Senator Brown. I only have a question. I can ask the 
question or defer to the Chair until he is ready.
    Chairman Akaka. Well, fine. Then let me just finish and 
then I will----
    Senator Brown. OK. Then I will ask quick.
    Chairman Akaka. Ms. Caden, will you, again coming back to 
that last question----
    Ms. Caden. Sure.
    Chairman Akaka [continuing].--will you respond with 
whatever you are doing with this.
    Ms. Caden. Right. Well, like the others, we have been very 
involved and there is a TAP steering committee working on this. 
What we would plan to do is add TurboTAP links to our 
VetSuccess.gov, which we market to veterans as a place to go 
learn not only about our program, but other programs that are 
out there for them. We do it as part of our DTAP briefings 
also, emphasizing that this is another place to go to for 
information to make sure they have everything.
    One of the most important things is to let our field 
counselors know that this is now out there, and we have started 
to do that. We will reemphasize it. So as they are talking to 
veterans or soon-to-be veterans, whether they are first meeting 
them in a military hospital or a VA hospital or once they are 
home, to let them know this is another resource. But I think it 
is great.
    Chairman Akaka. Thank you very much.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    One question for Mr. Ciccolella, if I could. During the 
week after Memorial Day when we were back in our States, I did 
a series of roundtables with veterans around Ohio, veterans' 
service officers with veterans, specifically the Iraq War, then 
a broader group of veterans from all the way back to World War 
II and since, and did five or six of these around Ohio and 
listened to 20 or 25 veterans just talk about the VA and talk 
about the challenges that they face, especially in health care.
    Two young men in Canton, Ohio, a city in Northeast Ohio in 
a county of about a third of a million people, were Iraqi War 
veterans and I was particularly about the conversation I had 
with them. They are part of an organization with which I am 
sure you are familiar, Helmets to Hardhats program. Talk 
through, if you would, how--or let me back up for a moment. 
They both came from families, the father of one of them was a 
union organizer, the other one I believe is his mother or 
father was a union member. So they came out of a union 
tradition which might have led them more to this program or 
gotten them the information about it that other returning 
soldiers and Marines or sailors might not have gotten.
    Talk through with me, if you would, how we make sure that 
those sort of third-party programs, if you will, that are not 
sponsored by the VA, how we make those available, make people 
knowledgeable about them and get young men and women into those 
very important programs, jobs, what have you.
    Mr. Ciccolella. Sure. Thank you, Senator. Well, you 
mentioned the Helmets to Hardhats Program. It is really a good 
program. It is under new management now, and the management 
that is operating it now is very good.
    I will tell you one way that we are able to make sure that 
servicemembers who are leaving the military who are inclined 
toward the building trades and construction trades, how they 
hook up with Helmets to Hardhats, and that is at the Transition 
Assistance Program conferences that train the TAP facilitators 
who facilitate the Department of Labor Employment Workshop, 
because Helmets to Hardhats is often there and they set up a 
booth. And also, they work very closely with the TAP 
facilitators when the workshops are actually going on.
    In Ohio, you have a number of people who are inclined in 
that direction and you have very good programs. Your Governor 
has terrific programs for your veterans, some of the best in 
the Nation. Governor Strickland has a terrific program called 
``Promises Kept.'' In the conferences that go on with veteran 
employment representatives, the VA is always there. The Helmets 
to Hardhats frequently are there at those same conferences. You 
have a program up there in Ohio, a Transition Assistance 
Program for veterans and spouses, not just the folks that are 
coming out, and not just the folks that are in the Guard and 
Reserve who are redeploying. So the word gets out that way.
    Ohio has some of the best programs for taking care of 
veterans, including the Guard and Reserve, because you have a 
program called Serving Warriors at Transition. It is called 
SWAT program. And the veteran employment representatives and 
frequently the VA representatives will go out to the 
mobilization and demobilization events. When they talk about 
employment, they talk about things like Helmets to Hardhats and 
other programs that are available so they can hook them up 
there.
    So it is a very proactive effort on the part of Helmets to 
Hardhats and the other folks, and it is also the employment 
system and the Department of Veterans Affairs and the State 
workforce system and the State Directors of Veterans Affairs 
working together to make sure that the word gets out about 
this, and it is working.
    Senator Brown. Thank you for that, and thank you for your 
acknowledgment about my State. I appreciate that.
    I hear over and over that when Guard and Reserve return 
from Iraq, that one of the reasons we don't know initially 
about some of their illnesses, particularly PTSD and all that 
come, particularly any kind of psychological damage or illness 
from which they suffer, that these young men, particularly 
Guard and Reserve, just want to get home. They don't want to do 
screenings. They just want to get home.
    Are we in these employment opportunities that are out 
there, like Helmets to Hardhats, if we are not reaching them on 
that first screening, on that first go-around when they want to 
get on with their lives thinking that their job will be just 
like it was and their spouse will be just like he or she was 
and their kids will be good and everything will be the same 
when so often they aren't, are people falling through the 
cracks with employment opportunities?
    Are you finding a way if you don't get them--maybe this is 
for you, Ms. Caden, or maybe for you, Mr. Dominguez--if we are 
not getting them right from the start, are we getting them a 
month later or three months later through these conferences or 
other ways? What guarantees are there that we are not missing 
out on these opportunities that are there for them in many 
cases?
    Ms. Caden. Let me start real quickly. One thing that we 
have tried to do anytime we make a contact with a soon-to-be 
veteran or a new veteran, either from the National Guard or 
Reserve or from the regular service (often that first contact 
is when they first come home or when they are first in a 
hospital) is offer the vocational rehabilitation program to 
them, tell them about it, and tell them about the different 
employers like the Helmets to Hardhats. We have built links for 
all of these employers on the VetSuccess.gov web site, which we 
hope all veterans use, so that it is right there also. They can 
link to, say, Helmets to Hardhats, learn about them. They can 
even send an application to them at that point. So we build 
those links.
    But what we are trying to do now is, if we meet them and 
their first wish is to get home and see what is going on in 
their lives, we will do follow-ups. We are doing quarterly, 
six-month, yearly follow-ups to again remind the severely 
disabled of the vocational rehabilitation program, that it is 
there for them, and maybe this is now the better point to come 
in and access that.
    Senator Brown. Mr. Dominguez?
    Mr. Dominguez. I wanted to make a couple points on that. 
The first is that as part of our routine data exchanges now 
with Veterans Affairs, we provide information on all 
demobilizing Guard and Reserves, so automated data feeds to the 
VA so they know who is coming.
    The second thing is that when Guard and Reserve units come 
home, we deploy counselors, so there is a big family assistance 
effort, a transition effort pushed out in cooperation with the 
Adjutants General for the Guard and the commanders of the 
Reserve forces for the Reserves. But we put people out there to 
do the counseling and the assistance to them in terms of 
reintegration back into the civil society. So even if they 
don't get it at the demobilization station, it is available to 
them while they are in the early stages of their transition 
home.
    And then with regard to people who may be suffering from 
PTSD, everyone does pre-deployment health assessments, so they 
complete a form that tells about the kinds of things they are 
experiencing, post-deployment health assessments, and then six 
months after they get back we connect with them again to do a 
post-deployment health reassessment. So if anybody is 
manifesting symptoms of PTSD or any kinds of problems, there is 
an opportunity for them to tell us so we can get to them.
    There is also available to them Military OneSource. At any 
time, they can go to that and access a counselor and that 
counselor will appear in their neighborhood, you know, 30 
minutes from their home, for them to talk to in a private and 
confidential way outside the chain of command. So that is 
available to all those people coming back.
    Senator Brown [presiding]. Thank you, Mr. Chairman.
    Now that I am the Chairman--sorry about that----
    [Laughter.]
    Senator Brown. I am just finding out how it works around 
here.
    [Laughter.]
    Senator Brown. Thank you very much to all three of you for 
joining us. I really appreciate your candor and your help and 
your public service. Thanks for joining us.
    I call the second panel. We will hear from two groups from 
the private sector working in different ways to match veterans 
with appropriate jobs and to maximize their opportunities of 
getting the right job--if the second panel would come forward.
    Two of you, I understand, are husband and wife. I am 
guessing it is you two, right?
    Mr. Bradley. We work with each other----
    Senator Brown. Oh, I thought you were. I am sorry.
    Thank you. From the DirectEmployers Association, we welcome 
their Executive Director, Bill Warren. Representing Bradley-
Morris, Inc., are the company's co-founders, not related except 
at work, Shaun Bradley and Sandy Morris, and my understanding 
is Mr. Warren will begin with five minutes. Mr. Bradley and Ms. 
Morris will split their five minutes however you want.
    I have to leave right around the time your testimony 
concludes. Either Senator Akaka or Senator Murray will be here 
to preside or we will recess until one of them comes back, so I 
apologize for that.
    Mr. Warren, I would love to hear your testimony.

       STATEMENT OF WILLIAM WARREN, EXECUTIVE DIRECTOR, 
       DIRECTEMPLOYERS ASSOCIATION, INDIANAPOLIS, INDIANA

    Mr. Warren. Thank you. Chairman Akaka, Ranking Member 
Craig, and distinguished Members of the Committee, thank you 
for the opportunity to appear before you today to discuss 
transition employment issues affecting our Nation's veterans.
    DirectEmployers Association is a nonprofit association of 
over 270 leading U.S. employers. Through the Association, we 
have developed and managed an employer-funded national 
employment system on the Internet. Our member companies include 
an impressive group of industry leaders, such as Anheuser-
Busch, Boeing, Cisco, Coca-Cola, General Electric, General 
Dynamics, Lockheed Martin, Harris Corporation, Northrop 
Grumman, Proctor and Gamble, Union Pacific, Xerox, and, of 
course, many others. As you see, these are primarily Fortune 
500 companies and most are Federal contractors.
    Twenty-seven DirectEmployers Association member companies 
were ranked in the 2006 Top 50 Military-Friendly Employers by 
G.I. Jobs magazine. This ranking is based on assets dedicated 
to military hiring, policies for Reserve and Guard called to 
active duty, the percentage of new hires who are veterans, and 
internal military and veterans recruiting programs.
    Today, I would like to outline what the private sector is 
willing to do to reach our Nation's transitioning veterans. 
Bottom line, America's leading employers are willing to fund 
and manage a national labor exchange, including an online job 
distribution and employment program for veterans to enable all 
employers in our country to reach the veterans.
    Our association has been working on the development of an 
employer-funded online national labor exchange to replace 
America's Job Bank since its phase-out was announced by the 
U.S. Department of Labor early last year. Our members need to 
reach and connect with our Nation's veterans. The need to reach 
them ranks equally with their need for an efficient labor 
market and their decision-making to actually fund a national 
labor exchange. This need was driven by Federal contractors' 
statutory obligation to give veterans preference in hiring, the 
labor shortage facing our Nation, and, of course, their sense 
of social responsibility. Employers realized that today's 
veterans have a lot of technical training and possess 
outstanding leadership skills.
    DirectEmployers Association, to do this, to develop this 
national employment system, has entered into an agreement with 
the National Association of State Workforce Agencies, NASWA, to 
provide the Job Central National Labor Exchange services to 
replace the functionality previously provided the State 
workforce agencies by America's Job Bank. This program includes 
a wide range of services, from job listing uploads and 
downloads to full-scale site management and a free national 
labor exchange for all employers and all job seekers and all 
industries. Again, this is a free service to all employers and 
all job seekers. Our alliance with NASWA gives us direct access 
to the States' One-Stop Career Centers, local veterans' 
employment representatives, and disabled veterans' outreach 
program representatives in each State.
    We are extremely fortunate to be working with workforce 
experts like Dr. Richard Hobbie and Mr. Bob Simonall at NASWA, 
who provide us wise counsel on State-level workforce and 
veterans issues. We are particularly pleased to have their 
assistance in helping us contact, or helping us connect with 
the veterans' community at all levels, the State, national, and 
again, all levels.
    Through our association with NASWA, we have a unique 
opportunity to work side-by-side with these individuals as well 
as others at the local level who work every day to help 
veterans gain employment and maximize their employment 
opportunities. Our goal is clearly stated. Our member employers 
want to work with NASWA, the States, veterans, veterans' 
organizations, and local employment representatives in a true 
partnership.
    A critical component of Job Central National Labor Exchange 
is VetCentral. VetCentral is a program to deliver Federal 
contractors' jobs to all veterans, including those currently in 
transition back to civilian life. Some of our recent 
discussions with government officials have centered around 
providing additional support for severely injured, wounded and 
injured servicemembers returning to civilian life after 
rehabilitation. We also plan additional support and services 
for military spouses.
    The goal of VetCentral is not compliance but the active 
facilitation of veterans' hiring. We believe the spirit of the 
Jobs for Veterans Act is best met when the right employer and 
the right veteran find each other right away. We have offered 
the DOD, VA, DOL, and others to help create and manage a 
veterans only resume bank that would help with the process of 
making these job matches quickly. There needs to be one place 
where any employer can find qualified veterans.
    To design and help develop the VetCentral program, 
DirectEmployers has partnered with XPAND Corporation and 
contracted for the consulting services of two key former U.S. 
Department of Labor Employment and Training Administration 
Managers, Mr. David Morman and Mr. James Vollman. XPAND 
Corporation, Mr. Morman, and Mr. Vollman all have extensive 
experience in working with various government agencies and 
veterans' organizations in the design, development, and 
implementation of online workforce systems and E-Tools.
    XPAND Corporation is a pioneer in advanced technologies and 
has tremendous experience working with the U.S. Department of 
Labor Employment and Training Administration Veterans' 
Employment and Training Service. It has extensive knowledge of 
job banks, labor market information, and labor exchange 
systems, having successfully built and operated and maintained 
most of DOL's award-winning workforce portals and E-Tools 
applications over the last 10 years.
    Mr. Morman----
    Senator Brown. Mr. Warren, try to wrap up here, if you can.
    Mr. Warren. Both Mr. Morman and Mr. Vollman are highly 
respected workforce experts.
    I have gone into this level of detail to assure you that no 
stone was left unturned in our quest for an effective first-
line online employment system to match America's employers with 
our Nation's veterans.
    As a citizen and as a veteran, I can honestly say we have 
been tremendously encouraged by the hard work and dedication of 
all government officials with whom we have worked with on this 
project. My only recommendation would be to continue the 
dialogue we have established. I truly believe we have a unique 
opportunity to forge a public-private partnership that can 
become a model for helping our Nation's veterans.
    Thank you for the opportunity to make this presentation 
today and this concludes my remarks. I would be happy to answer 
any questions. Thank you very much.
    [The prepared statement of Mr. Warren follows:]
     Prepared Statement of William O. Warren, Executive Director, 
                      DirectEmployers Association
                           executive summary
    ``VetCentral,'' a job distribution program for veterans, has been 
created by DirectEmployers Association to help Federal Contractors meet 
their statutory job posting responsibilities after America's Job Bank 
is closed on July 1, 2007 and in accordance with the proposed 
regulations implementing the Jobs for Veterans Act of 2002 (JVA). The 
law requires that any employer receiving Federal contracts in the 
amount $100,000 or more shall immediately list all of its employment 
openings with the ``appropriate employment service delivery system.'' 
The law also states that each such employment service delivery system 
shall give such qualified covered veterans priority in referral to such 
employment openings.
    VetCentral will be fully integrated into DirectEmployers' 
JobCentral National Labor Exchange site, making it easy for Federal 
Contractors to comply with the amendments to the Federal Contractor Job 
Listing Program! It will eliminate the need for Federal Contractors to 
identify the appropriate local service delivery system and contacts for 
their job listings.
    Jobs can be indexed (scraped) from Federal Contractors' corporate 
web sites and automatically entered into VetCentral. The program will 
then forward the job listings to the appropriate Local Veterans 
Employment Representatives (LVERs), and Disabled Veterans Outreach 
Program Representatives (DVOPs) through local One-Stop Career Centers 
integrated in the employment service delivery system.
    DirectEmployers Association has partnered with industry experts to 
design, develop and implement VetCentral so Federal Contractors can 
remain compliant with The Vietnam Era Veterans' Readjustment Assistance 
Act (VEVRAA), as amended by the Jobs for Veterans Act of 2002, and 
easily transition from America's Job Bank when AJB is discontinued.
    2007 is the publication target date for the revised VEVRAA/JVA 
regulations according to the Office of Federal Contract Compliance 
Programs' (OFCCP) last semi-annual regulatory agenda. The OFCCP, as a 
matter of enforcement discretion, is presently allowing Federal 
Contractors to meet their job listing requirements by posting 
employment openings with either America's Job Bank or directly with the 
appropriate local employment service delivery system until the amended 
regulation becomes final.
    JobCentral National Labor Exchange (www.jobcentral.com) has been 
selected by The National Association of State Workforce Agencies 
(NASWA) (www.naswa.org) to provide job seekers, employers and states a 
cost-effective transition from America's Job Bank (AJB) when it is 
discontinued July 1, 2007, as previously announced by the U.S. 
Department of Labor.
    JobCentral will provide a wide range of employment services to 
participating state workforce agencies, from job listing distribution 
to and from state employment web sites to participation in the national 
labor exchange with other states. The service will also be available to 
Federal agencies for fast response to recruiting needs, after 
disasters, such as hurricanes or earthquakes.
        federal contractors' statutory job posting requirements
    The Vietnam Era Veterans' Readjustment Assistance Act (VEVRAA), 
enacted in 1974, requires covered Federal Government contractors and 
subcontractors to take affirmative action to employ and advance in 
employment specified categories of veterans protected by the Act and 
prohibits discrimination against such veterans. In addition, VEVRAA 
requires contractors and subcontractors to list their employment 
openings with the appropriate employment service delivery system, and 
that covered veterans receive priority in referral to such openings 
from those employment service delivery systems. Further, VEVRAA 
requires Federal Contractors and subcontractors to compile and submit 
annually a report on the number of current employees who are covered 
veterans (the VETS-100 Report). The affirmative action and mandatory 
job-listing provisions of VEVRAA are enforced by the Employment 
Standards Administration's Office of Federal Contract Compliance 
Programs (OFCCP) within the U.S. Department of Labor (DOL). DOL's 
Veterans' Employment and Training Service (VETS) administers the 
veterans' employment reporting requirement.
    In 1998, the ``Veterans' Employment Opportunities Act (VEOA)'' was 
approved by Congress. The VEOA amended VEVRAA to: (1) expand the class 
of protected veterans to include ``any other veterans who served on 
active duty during a war or in a campaign or expedition for which a 
campaign badge has been authorized''; (2) require contractors to 
include their maximum number and minimum number of employees during a 
specific period of time on the VETS-100 Report; (3) increase VEVRAA's 
contract coverage threshold from $10,000 to $25,000; and (4) prohibit 
the Federal Government from contracting with or paying contractors who 
fail to file the VETS-100 Report.
    Enactment of the Veterans' Benefit and Health Care Improvement Act 
of 2000 (VBHCIA) added ``recently separated veterans'' as an additional 
VETS-100 reporting category. The new category was defined in the VBHCIA 
amendments as ``any veteran during the 1 year period beginning on the 
date of such veteran's discharge or release from active duty.'' On 
December 1, 2005, the Office of Federal Contract Compliance Programs 
(OFCCP) announced new regulations that made its Veterans Affirmative 
Action Plan (AAP) requirements consistent with the VEOA and VBHCIA.
    Congress revised the veterans' compliance and reporting 
requirements for Federal Contractors and subcontractors again in 2002 
when the ``Jobs for Veterans Act'' (JVA) was enacted. The JVA 
amendments apply only to contracts and subcontracts entered into on or 
after December 1, 2003.
    The JVA amended VEVRAA's definition of ``covered veteran'' by 
deleting ``veterans of the Vietnam era,'' and adding a new category of 
veterans who receive an ``Armed Forces Service Medal.'' It also 
expanded the definition of ``recently separated veterans'' to include 
any veteran discharged within the last three (3) years. The JVA 
requires covered Contractors to report the number of all current 
employees by job category and hiring location on the VETS-100 form. It 
also raised VEVRAA Federal contract coverage from $25,000 to $100,000.
    JVA also amended VEVRAA by requiring covered Contractors and 
subcontractors to take affirmative steps to employ qualified disabled 
veterans, recently separated veterans, Armed Forces Service Medal 
veterans, and other protected veterans. Under the JVA, Contractors with 
a Federal contract or subcontract of $100,000 or more that was entered 
into on or after December 1, 2003, are required to list their job 
openings with an ``appropriate employment service delivery system.''
    In addition to listing their employment openings with an 
``appropriate employment service delivery system'', the JVA proposed 
regulations provide that Contractors and Subcontractors may list their 
employment openings with a One-Stop Career Center, other appropriate 
service delivery points, or America's Job Bank. The definition of an 
``appropriate employment service delivery system'' is not clear in the 
proposed regulations. It is anticipated this will be clarified when 
OFCCP issues a final regulation, scheduled for publication in 2007.
    On January 20, 2006, the OFCCP published ``Part 60-300 Proposed 
Rule, Affirmative Action and Nondiscrimination Obligations of 
Contractors and Subcontractors Regarding Disabled Veterans, Recently 
Separated Veterans, Other Protected Veterans, and Armed Forces Service 
Medal Veterans.''
    In these proposed regulations, OFCCP has interpreted JVA's 
mandatory listing requirement to mean that Contractors and 
Subcontractors can no longer meet their job listing obligations by 
posting their jobs on AJB. JVA now requires that job listings be 
actually listed with or ``pushed'' to the appropriate local employment 
service delivery system. While a prototype application was developed to 
accomplish this ``local job push'' within the AJB structure in 2003, it 
has never been implemented by USDOL and instead USDOL's Employment and 
Training Administration (ETA) announced in March 2006 that AJB would be 
phased out completely by July 1, 2007.
    OFCCP has not yet finalized its Proposed Rule, although the agency 
has actively reviewed the public comments received in response to its 
proposal. The agency's last semiannual regulatory agenda indicated a 
2007 publication target date.
                  assessing federal contractor options
    The failure of OFCCP to issue final rules implementing the Jobs for 
Veterans Act of 2002 has created some confusion about how employers 
with Federal contracts are to comply with the ``mandatory listing'' 
requirements of 38 U.S.C. 4212 and its predecessors. The issue arises 
particularly for those who are now using America's Job Bank (AJB) as a 
compliance vehicle, something explicitly permitted by current 
regulations (41 CFR 60-250.5 Paragraph 2) that will become unavailable 
beginning July 1 when the Labor Department terminates that service.
    The lack of final rules has resulted in significant speculation 
about how compliance can be achieved in the post-AJB world. The answer 
to that question is not simple and depends on two primary facts: (1) 
whether the contractor has any pre-December 1, 2003 contracts still in 
effect that remain subject to existing OFCCP rules (41 CFR 60-250) and 
(2) whether OFCCP has issued final rules implementing the new mandatory 
job listing provisions of the Jobs for Veterans Act (P.L. 107-288).
    There is a significant ``hope'' in the market that simply listing 
jobs with State Job Banks will be sufficient to achieve compliance 
under the new law. In large part, this hope is tied to how the term 
``appropriate employment service delivery system'' might be 
interpreted. Let's examine whether or not such hope is realistic.
    It is difficult to read the entirety of the current and proposed 
OFCCP Regulations and come away with a reading that says listing jobs 
with a State Job Bank would be sufficient to guarantee Federal 
Contractor compliance. Perhaps OFCCP will issue such regulations, but 
they have not yet and a look at the statute itself would make that 
option unlikely.
    There will be two sets of rules at play. The first set, which 
applies to any company with an existing Federal contract for more than 
$25,000 that was signed before December 1, 2003, will be in effect as 
long as those contracts are active (which could be several years). 
Those rules apply not just to jobs covered by the contract, but to all 
jobs in the company (which a few exceptions for top executives and very 
short term jobs). See 41 CFR 60-250.5, Paragraph 2. Those rules require 
that the listing be done ``at an appropriate local employment service 
office of the state employment security agency wherein the opening 
occurs.'' They also allow for listing with AJB as an alternative method 
of compliance. However, when DOL ends AJB service on July 1 the only 
compliance method under the current rules will be listing with a local 
office.
    A company which has no pre-December 1, 2003 contracts will not be 
covered by this rule, provided that OFCCP actually issues final rules 
for the Jobs for Veterans Act. If OFCCP does not issue such regulations 
by June 30, AJB's last day, all contractors will need to comply with 
the current rules, and the only compliance method will be listing at 
``at an appropriate local employment service office of the state 
employment security agency wherein the opening occurs.'' Companies with 
pre-December 1, 2003 contracts will be covered by the old rules as long 
as those contracts are in place. The plain language of 41 CFR 60-250.5 
Paragraph 2 covers all that company's jobs. OFCCP in its notice of 
proposed rulemaking stated: ``Contractors with contracts entered into 
both before, and on or after December 1, 2003, will be subject to both 
the requirements found in part 60-250 and the requirements proposed for 
part 60-300.'' (Page 3353 of the Federal Register for January 20, 
2006.)
    The proposed rules contain the potentially unclear phase 
``appropriate employment service delivery system,'' but do not either 
explicitly or implicitly equate this phrase with State Job Banks or 
posting of jobs at the state level. The words themselves may be 
unclear; but in the context of Title 38 they have a fairly established 
meaning. Section 4104 of Title 38 which establishes the LVER (Local 
Veteran Employment Representative) program states in paragraph (d) 
``Each local veterans' employment representative shall be 
administratively responsible to the manager of the employment service 
delivery system and shall provide reports, not less frequently than 
quarterly, to the manager of such office and to the Director for 
Veterans' Employment and Training for the State regarding compliance 
with Federal law and regulations with respect to special services and 
priorities for eligible veterans and eligible persons.''
    Further, the Questions and Answers prepared by the Veterans 
Employment and Training Service (VETS) to explain the requirements of 
JVA as they relate to Federal Contractors and posted on the DOL web 
site explicitly call for jobs to be posted at the local level. (http://
www.dol.gov/vets/contracts/main.htm#A-1)

          A-1. What are the requirements of the Federal Contractor Job 
        Listing Program and what is the legal basis for reporting 
        requirements?
          Title 38, United States Code, Section 4212(d) requires that 
        Federal contractors list all employment openings with the 
        nearest State Job Service office (also known as State 
        Employment Service or One Stop Service Location) and Workforce 
        Development Offices (in some States). This job-listing 
        requirement applies to all job openings with the exception of 
        executive or top management jobs, positions filled from within 
        the organization, and jobs lasting 3 days or less. This 
        includes agreements to lease workers from ``Temp Agencies.'' . 
        . .

          A-3. ``How do I list job openings with a Job Service local 
        office, local One Stop Service Center, or Workforce Development 
        Office?''
          To list job openings with a local office, contractors and 
        subcontractors must contact the local office of the State 
        employment service location in their area. The Veterans' 
        representatives in the state employment Service local office 
        can help explain the requirements of the Federal Contractor 
        Program. To locate the state employment service center, local 
        one stop service center or Workforce Development local office 
        nearest you, please contact your state's Director for Veterans' 
        Employment and Training (DVET). A directory of State DVET 
        offices can be located at the following web site: (http://
        www.dol.gov/vets/aboutvets/contacts/main.htm).

    The movement of Wagner Peyser services into One-Stop Career Centers 
in many States created the shift in language (from employment service 
office to employment service delivery system), but the listing is now 
and always has been to facilitate the employment of veterans by having 
the local office and the DVOP/LVER ``work'' the job order on behalf of 
their veteran customers. That rationale is also contained in the 
current and the proposed regulations in 60- 250.84 and 60-300.84.
    The Jobs for Veterans Act itself speaks to that rationale in its 
own statutory language. 38 U.S.C. 4212 section (a)(2)(A) requires the 
mandatory listing by Federal contractors. Section (a)(2)(B) requires 
the employment service delivery system to provide priority referral of 
qualified veterans to those jobs. The mandatory listing is not so that 
the general public can see the job, but rather so that qualified 
veterans can get priority referrals to those jobs. That priority 
referral process has been and continues to be a ``local'' process which 
involves staff, either general purpose or DVOP/LVER, that ``work'' the 
job orders on behalf of the qualified veterans.
    Even more troubling for those who ``hope'' that listing with State 
Job Banks alone will satisfy this requirement is Section (a)(2)(C) of 
38 U.S.C. 4212 which requires the ``employment service delivery 
system'' that has received that listing to ``provide a list of such 
employment openings to States, political subdivisions of States, or any 
private entities or organizations under contract to carry out 
employment, training, and placement services under chapter 41 of this 
title.'' If Congress had intended that a compliant listing could be 
made at the State Job Bank level, there would be little reason for the 
addition of States to the list of entities with whom the job listing 
need be shared.
    It is also useful to note that requirements of the Jobs for 
Veterans Act are not self-implementing. The introductory paragraph in 
38 U.S.C. 4212(a)(2) states ``the Secretary of Labor shall prescribe 
regulations requiring'' which is followed by the particular statements 
in paragraphs A, B and C. OFCCP itself recognizes need for the new 
rules before the JVA requirements become effective. It states in answer 
to the question ``Does listing a job with America's Job Bank (AJB) 
satisfy mandatory listing for veterans? ''

        Currently all covered contractors may list their job openings 
        with either America's Job Bank or with an appropriate local 
        employment service office. After OFCCP promulgates a new VEVRAA 
        regulation implementing the Jobs for Veterans Act (JVA), 
        covered contractors with contracts entered on or after December 
        1, 2003, will be required to post their jobs at an appropriate 
        employment service delivery system. The Department of Labor is 
        working on a new option to allow contractors to meet both the 
        current and the revised mandatory job-listing requirement. A 
        new web portal, the Veterans' Job Clearinghouse, will 
        automatically post listed employment openings with the 
        appropriate employment service delivery system while also 
        giving contractors the option of continuing to list job 
        openings on America's Job Bank. But until the final regulations 
        implementing JVA amendments go into effect, contractors may 
        continue to fulfill their job listing requirements by using 
        either America's Job Bank or their local SES. (See http://
        www.dol.gov/vets/contractor/main.htm#A-4)

    The Veterans' Job Clearinghouse (VJC), mentioned in the above 
answer as a potential solution, was developed to provide a mechanism to 
re-distribute Federal contractor job openings that were posted on 
America's Job Bank to the local level, including to DVOP/LVER staff at 
the local offices, not to State Job Banks. This would have allowed 
Federal Contractors to continue to post on AJB and maintain their 
compliance. The Labor Department has abandoned the VJC effort, in part 
because it was dependent on AJB. However, DirectEmployers Association 
is using the VJC approach of local office delivery in its VetCentral 
compliance tool, and has engaged the same vendor that built VJC to 
build VetCentral.
    DirectEmployers Association, through JobCentral National Labor 
Exchange and VetCentral, will approach compliance as requiring delivery 
of the job listing to the local office which delivers Wagner-Peyser 
labor exchange services that is nearest the hiring location. That 
approach is based on DirectEmployers' reading of the current and 
proposed rules and the belief that compliance efforts should be 
conservative in their reading of regulatory requirements.
    Some companies may hope that listing with a State job bank, which 
does not generate compliance with the current rules, would now generate 
compliance with the proposed rules. But that hope does not seem to have 
much basis in the statute, the regulations themselves, or the practice 
of the employment service.
    Things to consider----

    <bullet> The proposed rules for post December 1, 2003 contracts are 
not final and OFCCP has not stated when they will issue the final 
rules.
    <bullet> The current rules are in effect for all Federal 
contractors until the new rules are issued and will cover any Federal 
contactor with a pre-December 1, 2003 contract. Those rules are not at 
all unclear--on July 1 the only acceptable compliance method will be 
listing with a ``local employment service office.''
    <bullet> AJB does not now deliver job listings to all States. Less 
than half of the States take the current AJB download of jobs. That 
number is not likely to improve when AJB ends. For example, Alabama 
where major defense contractors have large facilities does not take the 
AJB feed now. It will be difficult for anyone other than 
DirectEmployers Association, with its National Association of State 
Workforce Agencies (NASWA) Alliance, to guarantee compliance under even 
the ``hopeful'' reading of the proposed rules given that reality. We 
are aware of no other approach that provides compliance for companies 
that must also comply with the current rules in 41 CFR 60-250.

    DirectEmployers Association is taking the conservative approach to 
compliance (usually the way most company lawyers approach the issue) 
and making sure that member companies are covered whatever the eventual 
ruling and interpretation of the rules might be. While on July 1, 
DirectEmployers/JobCentral will be downloading jobs to more States than 
currently take the AJB feed, it will not have 100 percent coverage of 
all States. It will generate compliance by delivering its member 
company jobs to the local offices in all the States.
    DirectEmployers Association member companies will not be surprised. 
Companies depending on ``hopeful'' interpretations of the law and 
regulations may be.
                     vevraa/jva compliance research
    DirectEmployers Association has been working on a solution for 
employers' mandatory job listing requirements since the AJB phase-out 
was announced almost a year ago. After careful research and months of 
discussions with various stakeholders, some employers might be 
surprised by our conclusion that the VEVRAA/JVA compliance solution for 
employers after AJB is phased out will not be a national public or 
privately financed (commercial) AJB-type job board that distributes 
their jobs to state employment sites. Many employers might be further 
surprised to learn that AJB, had it continued to exist, would not have 
served as a vehicle for them to meet their VEVRAA/JVA job posting 
requirements.
    There are two reasons for this: (1) in recent years, various states 
for various reasons have dropped out of participation in the AJB 
system. It is estimated that as many as twenty-five or more states are 
currently not taking job listing downloads from AJB. Therefore, all 
employers' jobs are currently not being distributed to the local 
employment systems as required by VEVRAA/JVA; and, (2) the JVA changes 
the mandatory job listing requirement to require that, before posting 
with AJB, One-Stop Career Centers, or state job banks, jobs must be 
listed with an appropriate employment service delivery system. AJB 
currently does not do this.
    It is also unclear whether simple posting on a state's job bank 
(either directly or as a result of download from AJB or other job site) 
would generate compliance with VEVRAA or JVA. The intent of VEVRAA was 
to place the Federal Contractor job in the hands of the local 
employment service office where by tradition or policy the veteran 
employment representatives had a day to ``work'' the job on behalf of 
veterans prior to it being released to the general population of job 
seekers. In 1995, OFCCP modified its regulations to allow posting on 
America's Job Bank to satisfy the VEVRAA requirement. OFCCP and the 
Veterans' Employment and Training Service (VETS) were convinced that 
such a posting would actually make more of the jobs from large 
companies available to veterans by allowing them and their advocates to 
view them directly from the Internet. In 1995, America's Job Bank did 
not distribute jobs back to the states.
    The passage of the JVA was intended to return the compliance 
approach back to the pre-1995 way of posting with the local employment 
service office, primarily so that veterans would get a priority chance 
to apply for jobs. The January, 2006 proposed JVA regulations define 
employment service delivery system as ``a service delivery system at 
which or through which labor exchange services, including employment, 
training, and placement services, are offered in accordance with the 
Wagner-Peyser Act.'' From this, one could infer that an ``employment 
service delivery system'' can only be a locally staffed office, where 
actual services are delivered. Therefore, it has not been determined 
whether or not posting to a state electronic database will meet the job 
posting requirements. Simple posting to state job banks does not 
guarantee JVA compliance.
    However, Federal Contractors should have no immediate fear. Until 
OFCCP issues a final regulation, scheduled for publication in 2007, the 
agency, as a matter of enforcement discretion, is presently allowing 
Contractors to fulfill their VEVRAA/JVA job listing requirements by 
either using AJB or posting with their local employment service 
delivery system.
            directemployers' vevraa/jva compliance solution
    The Vietnam Era Veterans' Readjustment Assistance Act of 1974 
(VEVRAA), as amended by the Jobs for Veterans Act of 2002 (JVA), 
requires covered Federal Contractors and subcontractors to list their 
employment openings with ``an appropriate employment service delivery 
system.'' Since America's Job Bank (AJB) will not be a job-posting 
option for compliance after July 1, 2007, DirectEmployers Association 
has partnered with industry experts to design, develop and implement 
``VetCentral'', a web-based application for the distribution of jobs to 
veterans. This application, when fully integrated into DirectEmployers' 
JobCentral National Labor Exchange, will act as a distribution point 
for Federal Contractors--``pushing'' their jobs to the appropriate 
employment service delivery system and maintaining the necessary 
records of each transaction. It will offer a compliance solution for 
Federal Contractors and Subcontractors that is believed to be 
consistent with the new JVA regulations that are scheduled to be 
published in 2007.
    VetCentral will comply with both the spirit and intent of the 
mandatory job listing requirement by delivering, or ``pushing'' job 
listings directly to the nearest of the estimated 2,200 Disabled 
Veterans Outreach Programs (DVOPs) and Local Veterans Employment 
Representatives (LVERs), through a local employment service office (if 
it exists) and/or a One-Stop Career Center if it is an office 
delivering Wagner-Peyser services. It provides required compliance 
reporting capabilities for participating employers in addition to 
offering extensive tools for use by veterans' employment 
representatives. VetCentral will also enable Federal Contractors and 
subcontractors to ``push'' their job listings to applicable DVOPs and 
LVERs through state One-Stop Career Centers from a single point of 
access through JobCentral. Jobs from DirectEmployers' member companies 
will continue to be indexed (scraped) directly from their corporate web 
sites and made available to veterans through VetCentral so 
participating employers will have uninterrupted compliance with the JVA 
regulations when AJB is closed.
                     additional vetcentral benefits
    In addition to providing JVA compliance, the many benefits of 
VetCentral include:

    <bullet> Elimination of the significant administrative burden 
facing Federal Contractors in distributing their job listings to the 
appropriate employment delivery system.
    <bullet> A single point of job entry through JobCentral's indexing 
process.
    <bullet> Required compliance reports for Federal Contractors 
through the JobCentral interface.
    <bullet> Assistance in giving covered veterans priority in referral 
to employment 
openings.
                vetcentral completion and implementation
    Software development for the VetCentral job distribution 
application is presently complete and ready for implementation. 
Companies that make an early election to utilize the VetCentral service 
through JobCentral should encounter no loss of VEVRAA/JVA reporting 
capability as they transition from America's Job Bank when it is 
discontinued on July 1.
             program partnerships and consulting agreements
    To design and develop this critical application, DirectEmployers 
Association has partnered with XPAND Corporation and contracted for the 
consulting services of two former key U.S. Department of Labor 
Employment and Training Administration (DOL-ETA) managers, Dave Morman 
and Jim Vollman. XPAND, Morman, and Vollman all have extensive 
experience in working with various government agencies and veterans 
organizations in the design, development, and implementation of online 
workforce systems and E-Tools.
    XPAND is a pioneer in advanced technologies, implementing leading-
edge and awardwinning enterprise web solutions including many years of 
experience working with the U.S. Department of Labor Employment and 
Training Administration and Veterans' Employment and Training Service 
(VETS). It has extensive knowledge of job banks, labor market 
information, and the labor exchange system, having successfully built, 
operated and maintained most of DOL's award-winning workforce Portals 
and E-Tools applications over the last 10 years. XPAND also has 
extensive experience working with representatives from the Office of 
Federal Contract Compliance Programs (OFCCP) and the Veterans' 
Employment and Training Service (VETS) to strategize technical 
solutions for the proper distribution of jobs to local DVOPs and LVERs.
    Both Dave Morman and Jim Vollman are highly respected for their 
many years of government service at DOL and for the pioneering work 
they did in making AJB one of the most heavily used government web 
sites and an industry leader in workforce management. Vollman was the 
chief architect of America's Job Bank and was responsible for its 
growth and development in its early stages gaining its acceptance by 
nearly all 50 states. Morman managed ETA's National Electronic Tools 
Program which included AJB; he has previously served as the Executive 
Director of the Veterans' Employment and Training Service. In their 
positions at DOL, both were deeply involved in the early development, 
management and direction of AJB and our Nation's national labor 
exchange programs and in serving veterans.
    DirectEmployers Association has also entered into an agreement with 
The National Association of State Workforce Agencies (NASWA) to provide 
JobCentral National Labor Exchange services to replace the 
functionality previously provided to State employment sites by 
America's Job Bank. This program includes a wide range of services from 
job listing uploads and downloads to full-scale site management and a 
free national labor exchange. The JobCentral/NASWA program allows the 
distribution of jobs to participating states for affirmative action 
purposes and to reach each state's workforce. It is also a convenience 
for companies that are required to post job listings to their state 
sites. While this is an extremely important partnership for our member 
companies and participating states, it alone may not provide VEVRAA/JVA 
compliance because posting jobs to state employment web sites may no 
longer satisfy the new JVA job posting requirements, hence the creation 
of VetCentral.
    DirectEmployers Association believes strongly in the concept and 
value of a low-cost national labor exchange and will continue to 
provide JobCentral for all job seekers, employers, and states that 
choose to participate. A national employment system like JobCentral 
National Labor Exchange can play a vital role in the management of our 
Nation's workforce, especially at a time when employers are facing a 
nationwide labor shortage. It should be an important part of every 
employer's Affirmative Action Program (AAP). By working together, an 
immediate, cohesive group of leading U.S. employers can be available to 
Federal agencies for fast response as witnessed by JobCentral's 
response to the Katrina disaster. Bottom line: a cooperative of 
employers can provide a national low-cost employment system where all 
employers, regardless of size can participate--all difficult, if not 
impossible, to do in a commercial for-profit environment.
            the need for a low-cost national labor exchange
    Funded by Employers America's Job Bank, the only federally funded 
job board on the Internet and the first Internet presence for labor 
exchange for each of the states, has served a very important role for 
both job seekers and employers since its inception in 1995. It most 
recently listed over two million jobs from employers in all industries 
and nearly 700,000 job seeker resumes which are available free of 
charge to employers.
    The discontinuance of America's Job Bank along with the impending 
labor shortage caused by baby-boomer retirements and a dwindling 
workforce provides a formidable challenge for all employers. Because 
job postings and resume searching have always been provided free of 
charge by AJB, many small to medium-sized employers have relied on AJB 
as their only Internet recruiting source.
    AJB has also played a prominent role in helping employers build 
their workforce and comply with state and Federal regulations by 
serving as the Nation's only online cross-state labor exchange and 
distributing corporate job listings to state employment services. It 
has been invaluable in helping employers meet Federal job posting 
requirements for Affirmative Action Plans, Office of Federal Contract 
Compliance Programs (OFCCP) and Jobs for Veterans Act compliance.
    The loss of America's Job Bank is even greater for employers when 
you consider the labor shortage facing our Nation. The U.S. Bureau of 
Labor Statistics (BLS) predicts a labor shortage of more than 10 
million skilled workers by 2010 which heightens employers' need to 
attract difficult to reach groups such as minorities, veterans, seniors 
and women to the workforce.
    JobCentral's National Labor Exchange will be free of charge to job 
seekers and easily affordable for all employers. No job seeker or 
employer will be excluded because of financial constraints. It will 
help employers satisfy their compliance requirements and, through new 
search technology, provide a single place on the Internet where job 
seekers can find employment opportunities in all industries.
    It will allow job seekers to search over five million (5,000,000) 
jobs from corporate web sites, newspapers, trade associations, and 
other Internet sources in all 50 states plus the District of Columbia, 
major metropolitan areas, and all U.S. cities and postal zip code 
areas. The National Labor Exchange will be available free-of-charge to 
job seekers. Job postings, resume searching capabilities and other 
services will be available at no cost to all employers in all 
industries.
    The JobCentral National Labor Exchange will help companies: (1) 
meet their respective Affirmative Action Program (AAP) objectives, 
Office of Federal Contract Compliance Programs (OFCCP) obligations and 
veterans hiring goals when America's Job Bank (AJB) is discontinued in 
July, 2007 and; (2) meet their general recruiting needs at the time of 
an impending national labor shortage.
    In addition to general recruiting for all occupations in all 
industries, the site will also serve as the primary focal point for 
recruiting diverse candidates, returning members of the U.S. Armed 
Forces and specialty groups such as the physically challenged and 
senior members of the workforce. It will also allow companies to work 
directly with government officials at all levels in responding to 
national emergency recruiting needs such as we experienced with the 
Katrina disaster.
    The JobCentral National Labor Exchange site will play a leading 
role in helping employers meet their individual affirmative action 
goals and, as a group, better manage our Nation's workforce. It will 
provide an opportunity for companies to meet their compliance and 
staffing requirements in an environment which is owned, managed and 
controlled by employers.

    Senator Brown. Thank you, Mr. Warren.
    Ms. Morris, Mr. Bradley, your five minutes. Thank you.

       STATEMENTS OF SHAUN G. BRADLEY AND SANDY MORRIS, 
 CO-CHIEF EXECUTIVE OFFICERS, BRADLEY-MORRIS, INC., KENNESAW, 
                            GEORGIA

    Mr. Bradley. Thank you, Senator. Mr. Chairman and 
distinguished Members of the Committee, on behalf of Co-CEO 
Sandy Morris and myself, I would like to thank the Committee 
for the opportunity to speak with you today. We are honored to 
be included in the discussion of seamless transition for our 
military.
    Our company, Bradley-Morris, Inc., often referred to as 
BMI, was created in 1991. For the majority of our history, we 
have operated as a typical contingency placement firm, and 
according to Staffing Industry Analysts, we rank in the top 1 
percent of contingency placement firms nationwide.
    The reason we are here today is because of our candidate 
focus, that is, the job seekers we screen and present to 
Fortune 500 and emerging companies that help fill their job 
openings. We focus on the ex-military talent pool, one of the 
most highly trained and most diverse groups of job seekers in 
existence. Over our company's history, we have placed more than 
15,000 veterans into jobs in corporate America. These positions 
have included management, engineers, technicians, and sales 
people, to name a few. Twenty-nine percent of these placements 
have been diversity, that is, minority and women.
    As a matter of fact, we think so highly of this talent pool 
that more than 60 percent of our own employees are ex-military. 
Thus, they are personally familiar with the transition 
challenges and are keenly aware of the great training members 
of the military community receive while they are serving.
    And because we subscribe to the contingency model, our 
services are free to military-experienced job seekers. That is, 
our client companies pay the fee for our services.
    Ms. Morris. Good morning. To expand on Shaun's points, a 
new opportunity presented itself to us approximately three 
years ago and it was based on specific feedback we received 
from our employers that we work with. They told us that they 
would like to expand the ways that they source military job 
seekers, and as a result we created CivilianJobs.com, which 
offers employers and job seekers three ways to connect: Via the 
web, via job fairs on or near military bases, and then via 
print newspaper that is on military bases.
    Whereas the Bradley-Morris model delivers specific jobs for 
specific candidates, CivilianJobs.com offers something for 
everyone. Any former member of the military may use these 
services, and not just those transitioning. CivilianJobs.com 
provides employers with the most efficient and cost-effective 
ways to access the veteran talent pool. Again, these services 
are all free to military-experienced job seekers.
    As you might expect, it has been incredibly rewarding for 
us to place these men and women that have honorably served in 
our Armed Forces with great careers in corporate America. We 
find that the demand is high and our business is strong. And we 
believe there are even more opportunities to assist ex-military 
by strengthening our public and private partnership.
    Mr. Bradley. As part of our service to military men and 
women, we visit many bases around the world to bring our job 
assistance services to them, whether we are conducting group 
career counseling putting on job fairs, or distributing job 
seeker advice via our base newspaper. We work in close 
partnership with both the ACAP and TAP Transition Offices of 
each service branch to get notice of these events out to 
veterans, as well as notice of our client companies' job 
opportunities.
    Ms. Morris. As with any endeavor, some audiences are more 
receptive and enthusiastic to our message than others, and over 
our history, there have been some instances where a lack of 
enthusiasm as to notifying veterans and transitioning military 
personnel of our opportunities has been attributed to BMI being 
a for-profit company. This is despite the fact that, again, our 
job seeker services are free to military personnel.
    Over time, we have found the ``less-than-enthusiastic'' to 
be a small percentage of the whole. However, as we were asked 
to discuss the seamless transition topic, having a clear 
mandate that it is OK for military bases, branches of the 
service, or military affinity groups to support companies like 
ours, companies that provide free job services to veterans, 
whether they are for-profit or not, would certainly provide a 
more seamless transition to more veterans, that is, help 
veterans get more jobs.
    We also support two pieces of legislation recently 
introduced, 
S. 1272, the Yellow Ribbon Reintegration Program Act of 2007, 
focusing on seamless transition for our National Guard troops, 
introduced by Senators Isakson and Chambliss, as well as H.R. 
2330, the Veterans' Employment Transition Support Act of 2007, 
introduced by Representative McCotter. Both of these proposed 
initiatives help strengthen the cause of veteran job seekers 
and will help us assist more ex-military personnel in their job 
search.
    Mr. Bradley. In summation, we look forward to supporting 
the Committee's work on seamless transition and we will be glad 
to be of assistance and provide additional information as 
needed to further illuminate this important issue.
    Thank you for your time.
    [The prepared statement of Mr. Bradley and Ms. Morris 
follows:]
        Prepared Statement of Shaun Bradley and Sandra Morris, 
                     Co-CEOs, Bradley-Morris, Inc.
    Mr. Chairman and distinguished Members of the Committee, we would 
like to thank the Committee for the opportunity to speak with you 
today. We are honored to be included in the discussion of seamless 
transition for our military.
    Our company, Bradley-Morris, Inc., often referred to as ``BMI,'' 
was created in 1991. For the majority of our history, we've operated as 
a typical contingency placement firm, and according to Staffing 
Industry Analysts, we rank in the top 1 percent of contingency 
placement firms nationwide.
    The reason we are here today is because of our candidate focus, 
that is, the job seekers we screen and present to Fortune 500 and 
emerging companies that help fill their job openings.
    We focus on the ex-military talent pool, one of the most highly 
trained and most diverse groups of job seekers in existence. Over our 
company's history, we've placed more than 15,000 vets into jobs in 
corporate America. These positions have included management, engineers, 
technicians and sales people to name a few. Twenty-nine percent of 
these placements have been diversity, that is, minority and women.
    As a matter of fact, we think so highly of this talent pool that 
more than 60 percent of our own employees are ex-military. Thus, they 
are personally familiar with transition challenges, and are keenly 
aware of the great training members of the military community receive 
while they are serving.
    And because we subscribe to the contingency model, our services are 
free to military-experienced job seekers--that is, our client companies 
pay the fees for our services.
    A new opportunity presented itself to us approximately 3 years ago, 
based on specific feedback we received from employers. They told us 
they would like to expand the ways they source military job seekers.
    As a result, we created CivilianJobs.com, which offers employers 
and jobs seekers three ways to connect: Via the web, via job fairs on 
or near military bases, and via a print newspaper on military bases.
    Whereas the Bradley-Morris model delivers specific jobs for 
specific candidates, CivilianJobs.com offers something for everyone--
any former member of the military may use these services (not just 
those transitioning). CivilianJobs.com provides employers with the most 
efficient and cost-effective ways to access the veteran talent pool. 
Again, these services are all free to military-experienced job seekers.
    As you might expect, it's been incredibly rewarding to be able to 
place the men and women who have honorably served in our Armed Forces 
into great careers in corporate America.
    We find the demand high, and our business is strong.
    And, we believe there are even more opportunities to assist ex-
military by strengthening our public/private partnership.
    As part of our service to military men and women, we visit many 
bases around the world. We bring our job assistance services to them, 
whether we are conducting group career counseling, putting on job 
fairs, or distributing job seeker advice via our base newspaper.
    We work in close partnership with both the ACAP and TAP transition 
offices of each service branch to get notice of these events out to 
veterans, as well as notice of our client companies' job opportunities.
    As with any endeavor, some audiences are more receptive and 
enthusiastic to our message than others. Over our history, there have 
been some instances where a lack of enthusiasm as to notifying vets and 
transitioning military personnel of our opportunities has been 
attributed to BMI being a ``for profit'' company. This is despite the 
fact that, again, our job seeker services are free to military 
personnel.
    Over time, we have found the ``less-than-enthusiastic'' to be a 
small percentage of the whole. However, as we were asked to discuss the 
``seamless transition'' topic, having a clear mandate that it is OK for 
military bases, branches of service, military affinity groups, etc., to 
support companies like ours--companies that provide free job services 
to veterans, whether they are a ``for profit'' company or not--would 
help us provide a more ``seamless transition'' to more veterans, that 
is, help more veterans get jobs.
    We also support two pieces of legislation recently introduced: S. 
1272, the ``Yellow Ribbon Reintegration Program Act of 2007,'' focusing 
on seamless transition for our National Guard troops, introduced by 
Senators Isakson and Chambliss; as well as H.R. 2330, the ``Veterans' 
Employment Transition Support Act of 2007,'' introduced by 
Representative McCotter. Both of these proposed initiatives help 
strengthen the cause of veteran job seekers and will help us assist 
more ex-military personnel in their job search.
    In summation, we look forward to supporting the Committee's work on 
Seamless Transition and will be glad to be of assistance and provide 
additional information as needed to further illuminate this important 
issue.
    Thank you for your time.
                                 ______
                                 
  Bradley-Morris' Recommendations for the Improvement of TurboTAP/DOD 
           Transportal/Defense Knowledge Online (DKO) Portal
                          resume distribution
    Resumes submitted to TurboTAP must be distributed beyond 
Monster.com to other free job seeker services for transitioning 
military. Monster.com only represents a portion of available jobs 
(e.g., we understand that Monster.com which powers TurboTAP.org only 
presents jobs that employers pay to advertise), and in our experience, 
Monster.com/Military.com does not have visibility of many of the 
highest-value and most applicable jobs for transitioning servicemembers 
(such as those found at Bradley-Morris, Inc./CivilianJobs.com).
                      free job placement services
    Free job placement services must be highlighted.--In the Senate 
hearing, a repeated prominent theme emerged: There is a pronounced 
communication gap that exists between private sector companies' job 
opportunities (such as those offered through companies like ours) and 
getting that information into the hands of transitioning servicemembers 
and veterans. Adding to this gap, TurboTAP is designed as a ``do-it-
yourself'' site.
    To help address these gaps, free services that do part of the job 
search ``leg work'' for transitioning servicemembers must be ``up 
front.''
    Intuitively, it would seem a transitioning servicemember would want 
to learn about the free added-value services first, on the home page, 
services that actually schedule interviews and/or match them with 
applicable military-friendly companies (such as the services offered by 
companies like ours).
    On the current web site, there is space available under the More 
Resources area to add a Free Job Placement Services section (see 
addenda for more detailed information on this suggestion).
    We have provided additional detail for each of these points in the 
Addenda attached.
    In conclusion, Secretary Dominguez brought out many good points in 
his written testimony regarding TurboTAP. However, one statement gave 
us pause:

        ``. . . we further plan to make transition an on-line 
        transaction much like banking and bill paying have become.''

    If this is indeed the future of TAP that TurboTAP portends, we do 
not feel this is a productive direction if the ultimate goal of TAP is 
for transitioning servicemembers to secure civilian employment. In 
fact, we feel this direction would be at odds with the best interests 
of the transitioning servicemember if, again, the end result of TAP is 
meant to be civilian employment.
    Our company, Bradley-Morris, Inc. (BMI) and our subsidiary, 
CivilianJobs.com, deliver jobs to transitioning servicemembers every 
day. Over our company's 15-year history, this experience has shown us 
that hiring is an ``in-person'' business. Interviews are conducted in-
person, job fairs are conducted in-person, base visits and career 
counseling are conducted in-person, etc. ``In-person'' is the ultimate 
essential ingredient to employment.
    If TAP/TurboTAP isn't helping to deliver this essential ingredient 
by communicating, promoting and linking to the free ``in-person'' job 
seeker services, services that companies like Bradley-Morris, Inc. and 
CivilianJobs.com offer, we do not believe that TAP and TurboTAP will be 
as successful as we all hope they would be.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Murray [presiding]. I would like to thank all of 
you for your testimony, and I apologize for everybody. I had a 
VA markup downstairs. I know Senator Craig did, as well. 
Senator Akaka has gone to a markup. Everybody is returning, and 
I want to thank Senator Brown, who assisted in chairing for a 
minute. Senator Akaka has asked that I take over for a few 
minutes. And to all of you who it looks like we are just 
running in and out and not paying attention, we are trying our 
best to pay attention here, but it has been a difficult morning 
with so many markups in the Senate.
    But I want to thank all three of our panelists today for 
being here to talk about a very important topic and making sure 
that our men and women who serve us don't come home and find 
themselves unemployed, which is far too often the case today. 
All of you have done a really good job in working throughout 
your professional lives to address that issue and we really 
appreciate it.
    I wanted to ask you one question. I have found that a lot 
of veterans who return home from Iraq and Afghanistan are not 
aware of the opportunities that are available to them. I held a 
roundtable out in my State in Vancouver, Washington, and 
brought in some Guard and Reserve members who had returned from 
Iraq, had not been able to find a job, and I also had at the 
table, people from the Washington State WorkSource whose job is 
to find jobs for people who don't have jobs. They didn't know 
each other existed and they sat there at the roundtable and 
started talking about how they could get jobs for these young 
men.
    Yet until I had that roundtable, they didn't even know they 
existed. The WorkSource employees told us that they could not 
get access to veterans' information. They couldn't call and get 
veterans' names so that they could reach out to them and the 
veterans themselves, for whatever reason, didn't know that this 
WorkSource even existed.
    So I wanted to ask you, how can we make veterans more aware 
of the services, and do you find that it is hard to access the 
veterans' names and how can we work through that?
    Mr. Bradley. Well, first, there are a lot of people that 
are in the service that don't think about what they are going 
to do after the service until the day they leave the service. 
The missions are intense. It is not everybody, but that is a 
decent percentage of it.
    If the goal is to have people in the military see something 
or do something, then I think the way to accomplish that is to 
hold the commanders accountable for it being done. That is how 
things work. A lot of the information that we want veterans to 
know, we are depending on them to do it, for them to look at 
it. And the reality is the ones that need the help the most are 
the ones that are going to be least likely to do that. So 
sometimes there needs to be a little bit of a push. Have you 
looked at this? I want to make sure. So I would make the 
commanders responsible for making sure that gets done.
    Ms. Morris. You know, Senator, it is funny, because you 
were talking about, when you were giving your speech earlier, 
that they are talented, they have skills, but people don't know 
it. Shaun and I often tell people, we feel that we are in the 
education business, not in the placement business, because that 
is really what it is about. It is educating not just the 
employers about the talent pool and what they can bring, but 
also the individuals transitioning, letting them know what is 
available, and that is an educational process. We run into that 
all the time.
    Kind of what I mentioned in my testimony is we are reaching 
out all the time to organizations, to facilities, anything we 
can do, ACAP, TAP, we have worked with all of them to try to 
get the information out. I don't know that there is a right 
answer, but certainly some of the things that were mentioned 
here today. You know, Secretary Ciccolella was talking about 
working together with organizations. We are partnering with 
them with job fairs. Again, that coordination will help.
    So I think any public-private partnerships that can be 
established to help get the word out will help in that regard.
    Mr. Warren. I would agree with that. One of the most 
effective things that we have done is Secretary Ciccolella 
actually was on a phone call conference call with over 100 
companies that are our member companies and he took the time to 
explain the transition programs that are available and the 
information that is available for veterans, and that was by far 
the most popular session that we have had like that. Again, I 
think I would go along with that public-private partnerships 
can really do a lot to help get that information out. In that 
case, he took over an hour on a conference call to actually go 
through all the programs and our employers were overwhelmed by 
that.
    Senator Murray. I appreciate that, and I know the agency 
heads are no longer at the table. I hope that they get to 
Members of Congress information, because one of the things I do 
at every Chamber meeting or Rotary meeting I go to in talking 
to businesses is say, I am speaking on behalf of a lot of men 
and women who are coming home. They are skilled. They show up 
on time. They have good work skills. They are dedicated 
employees. They need a job. I am counting on you to help 
provide that. And I think if we can provide that information, 
to any of the agencies that are here, to Members of Congress, 
all of us go home and talk to those organizations and help get 
some of this information out, it would, I think, be of benefit.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Senator Murray, and I want to 
welcome Shaun Bradley and Sandy Morris. Not only are they from 
my home State, but they are from my home county. They are in 
Kennesaw, Georgia, I think the largest organization of your 
type in the United States, is that not correct?
    Ms. Morris. We like to think so.
    [Laughter.]
    Senator Isakson. Well, I just wanted to throw that 
advertising plug in for you.
    Ms. Morris. Thank you. We appreciate that.
    Senator Isakson. Speaking of advertising, Sandy, thank you 
for talking about S. 1272. We do think that is an important 
piece of legislation and somebody like yourself acknowledging 
that, I think is very helpful to us.
    I think you answered the question that I had, Shaun, 
talking about putting the responsibility on the commanders, but 
I would like to just push that a little bit further. Talk about 
some things that DOD can--well, let me preface this. I was at 
Mologne House on Monday. Mologne House at Walter Reed is where 
the wounded veterans who are in transition--they are not 
totally ready to go back to their post or back to society, they 
have medical problems--Mologne House is where they and their 
families can stay. I know the Army is making a real effort to 
help have counselors and guides for them to work through the 
medical side. Do you know if there is much of that on the job 
placement side?
    Mr. Bradley. As far as----
    Senator Isakson. As far as the military or the Department 
of Defense.
    Mr. Bradley. With disabled----
    Senator Isakson. No, not just disabled, but in terms of 
really trying to get job counseling and get the veterans who 
are leaving or transitioning out connected with people like 
yourselves.
    Mr. Bradley. Oh, there is a real strong program with the 
TAP and the ACAP offices and they do a really fine job. There 
is career counseling. There is resume help. It is good. Now, 
their challenge is to deal with the volume of people that are 
going through the program, and just as with any large program, 
are they able to provide as much one-on-one attention to each 
personally the services they would like? You would have to ask 
them that. But, oh yes, those are good people at those offices.
    Senator Isakson. From the standpoint of job placement, you 
mentioned veterans with disabilities. From the standpoint of 
job placement, what percentage of those you are placing have a 
disability, a service-related disability?
    Mr. Bradley. Well, we can tell you how many of our own 
Bradley-Morris staff is classified as disabled. Sixteen percent 
of Bradley-Morris's----
    Senator Isakson. Sixteen percent?
    Mr. Bradley. Sixteen percent of our own people are 
classified as military disabled. While we don't have that 
statistics for the people that we place into companies, we 
could look at it and see if we could come up with it. It is a 
sizable percentage, and we have offered to help in this area. I 
mean, when Sandy was talking about clarity on being able to 
work with a private or a for-profit company, we actually 
offered our services to a government agency that was providing 
services to disabled veterans. Because we were a for-
profit company, you know, thanks but no thanks. So we would 
like to be able to do that.
    Senator Isakson. OK. Maybe I shouldn't ask this, but I 
always like to shine a light on the good guys. Are there 
companies that you could point to that are really aggressive in 
seeking and employing veterans?
    Ms. Morris. Oh, absolutely. I mean, we work with thousands 
of companies all over the country and one of the things we try 
to do--I mean, you have to remember, what our people are doing 
on the phone every day, as Senator Murray was talking about, is 
calling all these companies all over the country to educate 
them and tell them about this resource.
    The biggest problem is really that a lot of the companies 
aren't aware of it. Once they are made aware, once we introduce 
them to these candidates, once they interview them, they are 
sold. They come back time and time again, and then, of course, 
success breeds success because they talk to their friends, 
their associates, or their subsidiaries or divisions and then 
it spreads. So once they are introduced to the candidate pool, 
absolutely, they are all very 
interested.
    Senator Isakson. And I guess, following up, this will be my 
last question because my time is running out, what has been 
your most successful method? You talked about how you get the 
word to the employers on what is out there and the service. 
What is your most successful tool that you use to get to the 
soldiers?
    Ms. Morris. Well, it is day-to-day letting them know we are 
here. It is that contact, constant contact. We have people that 
all they do all the time is travel to all the bases. We go 
overseas. We go to Hawaii. As Shaun mentioned, we work with the 
TAPs and ACAP offices to continually let them know that when 
they are ready, they have a place to go as a resource to use.
    Senator Isakson. Thank you very much, and thanks for coming 
to Washington today and testifying.
    Mr. Bradley. Thank you, Senator.
    Chairman Akaka. [presiding]. Thank you very much.
    Senator Webb?

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman.
    I appreciate the testimony that you all gave this morning. 
I read it before I got here. I would like to, first of all, 
make a comment about a portion of your testimony where you 
indicate that there, at least in some areas, was some 
resistance to the fact that you are a for-profit enterprise. My 
experience in this area goes a long way back. In fact, I see 
Ron Drock [ph.] out here in the audience, who used to work for 
the Disabled American Veterans 29 years ago when we were 
working on these.
    I would like to say, first of all, that the experience we 
have had with government actually trying to do this kind of job 
has been abysmal. We had a program that during the Carter 
Administration they tried to put into place. I think Ron will 
probably remember this. It was, like, a $40 million program to 
try to, with the Department of Labor, actually help do the same 
sort of thing you are doing and it was just horrible. I think 
we got something like 400 jobs for veterans in about a year.
    So the fact that you are doing this and making money out of 
it is not a bad thing when you consider what the alternatives 
are for the kinds of expenditures when government tries to 
replicate the sorts of things that you are doing.
    I would also like to say that my brother, the first job he 
got when he left the Marine Corps was through a job fair 
program like this. I think they are very useful and the right 
way to do it.
    The questions that I have go to, first of all, awareness. 
We talk about awareness, awareness on both sides and 
particularly with respect to enlisted personnel. I am 
wondering, first of all, what percentage of people you are 
placing are junior enlisteds. Do you have any idea?
    Mr. Bradley. Historically, Senator, we will place about 60 
to 65 percent enlisted, 35 to 40 percent officer.
    Senator Webb. Do you know what percentage of those are 
junior enlisteds rather than people retiring?
    Mr. Bradley. I would need to get the specific number, if 
you would like, but because there are more of them, more junior 
enlisteds than are senior, it is probably the majority, I mean, 
the E-4, E-5, there are more of them and consequently more are 
placed.
    Senator Webb. That is good to know. The question really 
goes to the awareness inside the active duty ranks that this 
sort of assistance is available when they are transitioning 
out. I find anecdotally that they are less likely to be 
employed at the point of their discharge rather than when they 
go back home. Is that something that you have seen?
    Mr. Bradley. That is not our program. Our program is that 
before they leave the service, they have a job, they know where 
they are going. Typically, they will interview 60 to 90 days 
before they get out. They will have a job. It takes about three 
weeks before initial interview to job offer, so they are good 
to go. So as far as awareness, we believe, as Sandy said, we 
want them to be aware of us. We say it over and over and over 
again to make sure they are aware of us, and we get a lot of--
because we have been so successful, we get huge numbers of--you 
know how it works, buddies referring buddies referring buddies 
and that takes on a life of its own and that is the majority of 
our candidates now come to us that way. But we don't rely on 
that.
    Senator Webb. That is really great to hear. We need a lot 
more of it. One of the things I have been working with, in 
fact, with our unions in Virginia, where they say they want to 
go after veterans, as has been said many times, somebody who 
has spent four, six years on active duty compared to people in 
their age group has a much more refined sense of 
responsibility, knows how to get things done. They are in an 
environment where you have got to get things done every day. 
They are a great commodity. In talking to the unions in 
Virginia about wanting to reach those people, I have been 
trying to encourage them to get closer and closer to the point 
of discharge rather than waiting until people come back to the 
community. So I really commend you on what you are doing here.
    Mr. Bradley. Senator, if I could comment on that, I have 
been doing this 20 years and Sandy has more experience than me, 
even though you would not be able to tell that, and I don't 
think there has ever been a case--the military-experienced job 
seeker versus his civilian counterpart, the same age, there is 
no comparison because the military-experienced job seeker will 
tell what he did from a leadership standpoint, from a stress 
level, from just cultural sensitivity, every category that is 
important to somebody being a successful employee.
    Now, translating that to a world that sometimes doesn't 
understand--I would not say that people don't value, because I 
think they do, but there is a world out there of people that 
haven't served or don't know anybody in the military, that they 
just don't know. They just don't understand. As Sandy said 
earlier, when they interview them, it is like their eyes pop 
open. They just can't believe how good these military 
candidates are. That is the world that we live in.
    Senator Webb. I am glad you are doing it. Thank you, 
Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Webb.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    Just a couple real quick questions just to clarify.
    Are all three of your groups working before discharge for 
placement, all three folks here? I mean, I understand that 
Shaun and Sandy, you are focused on the folks before they get 
out or they are discharged.
    Mr. Warren. Both.
    Senator Tester. Both?
    Mr. Warren. Both.
    Senator Tester. OK. For the ones after they get out, how do 
they get access? How do you inform them you are available? Is 
it by mail, or is it by direct contact? Do you call them? The 
ones that are in the military are a little easier because they 
are in a spot where you can identify them.
    Ms. Morris. Right. Well, after they have already been out, 
are you saying that they have already had a job and they are 
making a second job change, or they just exited----
    Senator Tester. Either one.
    Ms. Morris. OK. Well, they can come to us a number of 
different ways. Obviously, again through the public and private 
partnerships, we try to get the word out. A lot of it is 
through referrals, because even though they may not have a job, 
maybe their buddy got a job through one of the sources.
    But we also do a lot of advertising. We publish a newspaper 
called Civilian Job News and that goes to all the bases. And so 
obviously there are going to be people reading that, and we 
have got advertisements in there as well as information to 
provide to them as to what they need to do.
    Senator Tester. Do you have outreach, too, for those that 
are out of the military that are in civilian life? Does that 
publication go to the folks who are out of the military?
    Ms. Morris. That publication doesn't, but we do a lot of 
advertising outside of that----
    Senator Tester. OK.
    Ms. Morris. [continuing].--and we have a job board and 
online services, as well.
    Senator Tester. OK. Well, I don't ask these questions to be 
critical. As Senator Webb, I appreciate the work you do because 
I think it is valuable.
    Do you reach into all States as far as placement?
    Ms. Morris. We try to.
    Mr. Bradley. Yes, Senator. I mean, there are States where 
we have not placed anybody. I actually----
    Senator Tester. How about pulling the veterans in? Is it 
all 50 States for that, too, because----
    Mr. Bradley. Oh, absolutely.
    Senator Tester. OK.
    Mr. Bradley. Absolutely, because somebody who is stationed 
in Wisconsin, which is where I am from, doesn't mean they want 
to spend the rest of their life there.
    Senator Tester. Then somebody in California might want to, 
say, work in Montana.
    [Laughter.]
    Senator Tester. Thank you folks for all you do. I 
appreciate it.
    Chairman Akaka. Thank you very much, Senator Tester.
    Let me ask two or even three questions. Mr. Warren, as a 
successor to America's Job Bank, please describe the role your 
organization is undertaking to assist returning servicemembers 
make a smooth and effective transition from the military to a 
civilian 
workforce.
    Mr. Warren. Our primary role in that respect is to help the 
employers, all employers, but primarily the Federal 
contractors, get their jobs to the local level, to the State 
level, to the local DVOPs and LVERs and to the people, the 
counselors that can help them. In other words, looking at IBM 
as an example, IBM would have to post jobs in, I think, about 
30 States, and what we do is electronically deliver those jobs 
to the appropriate DVOP, LVER, and One-Stop Career Center in 
each State to help those people know where the jobs are, where 
the Federal contractors are, and how to get the veterans into 
those jobs.
    Chairman Akaka. Let me ask just one more question. DOD has 
recently launched its TurboTAP web site. I recognize that 
DirectEmployers is a contributing resource to that site.
    Mr. Warren. That is correct.
    Chairman Akaka. I would greatly appreciate it if each of 
you would visit the finished product on the web and share with 
the Committee for the record your reaction to it and any 
suggestions you might have for improvements. So I am asking you 
to do that and we would really appreciate your responses.
    Mr. Warren. Could I respond now to that, or----
    Chairman Akaka. Yes.
    Mr. Warren. As part of our participation in that product, 
our firm is actually providing the job search capability that 
connects the veterans with the employer, and so I have looked 
at that extensively, the whole product, the whole service. And 
as a citizen and as a veteran, I can say that I am probably 
more impressed with that service and what they have done with 
that than anything that I have seen or any service, especially 
any online service, that I have seen. I think it is an 
outstanding product and I think they have done a tremendous job 
in developing it.
    In terms of looking at it and making recommendations beyond 
that, I would have to spend more time.
    Chairman Akaka. Well, thank you. What about----
    Mr. Bradley. We would be happy to look at it, Senator.
    Chairman Akaka. Fine. Then will you respond in writing?
    Ms. Morris. Absolutely.
    Mr. Bradley. Yes, sir.
    Chairman Akaka. I really appreciate that.
    Let me ask the Members here, do you have any further 
questions?
    Well, I want to thank you so much for your testimony of 
panel two. It will help us in our work here. It is looking 
exciting and we certainly want to help seamless transition of 
our military people. So again, thank you very much for being 
here.
    Mr. Bradley. Thank you, Senator.
    Mr. Warren. Thank you.
    Chairman Akaka. For our final panel, we will hear some very 
personal stories. First, the Committee welcomes Corey McGee. 
Mr. McGee was severely injured in Iraq and he will share his 
inspiring success story with us.
    We are also pleased to welcome Monique Rizer, a young wife 
and mother who was recently awarded the Army Commander's Award 
for Public Service for her work as a Family Readiness Group 
leader during her husband's deployment in Iraq.
    Mr. Don Osterberg, Vice President of Schneider National, 
Inc., of Green Bay, Wisconsin, will share some of his insight 
on transition from an employee's perspective.
    We are happy to have you all join us today and look forward 
to hearing from you. So may I ask Mr. McGee to begin with your 
statement.

           STATEMENT OF COREY McGEE, OEF/OIF VETERAN

    Mr. McGee. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to testify today. It is an honor to be 
here on behalf of the newly injured soldiers coming home from 
Iraq and Afghanistan who will be transitioning into civilian 
life to find new careers, not just jobs. From experience, I can 
tell you that it is not an easy road to travel, but I hope that 
today will bring us one step closer to creating a better 
experience for combat-wounded veterans and their families 
around the United States.
    After receiving the news that I had to retire from the 
military due to the wounds I received in combat, I decided that 
I needed to think about what was next. I was worried that no 
one would want to hire a paraplegic. I had joined the Army 
straight out of high school. The only thing I was trained to do 
was be a sniper for a scout platoon. Even if there were an 
opportunity for employment, how would I know about it and set 
up an interview? What would I wear and how would I get to the 
interview? Because I had planned to be in the military for the 
next 20 years, I did not have a resume and the only degree I 
had was a high school diploma. I had no back-up plan. It never 
occurred to me that I would be paralyzed and searching for 
gainful employment.
    After a few months after returning from Fallujah, I met a 
woman by the name of Jennie Lohowictz who gave me the answers I 
needed to begin to travel on the road to success.
    She introduced me to the Coming Home to Work Program. This 
program allowed me to serve as a Department of Veterans Affairs 
volunteer, which enabled me to get the experience I needed to 
work in the business world. Though it goes against that old 
Army cliche, I volunteered.
    I joined the nationwide volunteer group of thousands who 
serve veterans at VA hospitals, helping in a variety of 
assignments from escorting the patients to medical appointments 
within the hospital to working in administrative work. 
Volunteering gives returning soldiers an opportunity to 
transition back into civilian life as well as establish 
relationships with VA staff and members of the veterans service 
organization community. It also allows soldiers to use old and 
current skills as well as learn new skills without the pressure 
of a job. It helps soldiers transition into the community and 
establish relationships, just as a young business professional 
in the real work world.
    I have been through a lot within the last three years, from 
a quadriplegic to a paraplegic, to the man sitting here before 
you today, as I transitioned from an under-educated soldier 
with few practical skills to a college-educated Public Affairs 
Specialist with the help of this program. Even though I could 
no longer serve my country within the Army, I am proud to 
continue to serve from within. I now have a full-time position 
at the VA as a Public Affairs Specialist while also attending 
college full-time at the Northern Virginia Community College.
    Thanks to my experiences, I was able to find a job in the 
VA medical center in Atlanta, Georgia, where I am moving with 
my soon-to-be wife. I plan to transfer to Emory University to 
further my education in the fall. I would not change a thing 
within the last seven years of my life. I would do it all over 
again if I could because I would not be here today without 
everything that I 
have done.
    Having said that, though, there is one change that I would 
like to recommend that might be able to help soldiers and their 
families. I have two children from a previous marriage and know 
what it is like to worry endlessly about how to take care of 
them financially after a military career is cut short. After 
receiving the training I needed from the VA as a volunteer for 
a year, I knew I wanted to work for the VA as an actual 
employee once completing my medical discharge. However, no 
governmental agency could hire me nor guarantee me a position 
since I was still technically employed by the military.
    By the end of my year-and-a-half of volunteering with the 
VA, I was living off the hospital grounds, going to work almost 
every day, and only rarely returning to Walter Reed for 
physical therapy and exams, yet I still had no idea if there 
would be a job for me upon my release from the military. It 
took two months for me to secure a position once I was 
discharged, a long time when you support two children and live 
in such an expensive city.
    My suggestion is for the entire process to be more 
streamlined to make it easier for these young heroes to 
directly transition from a volunteer position to a permanent 
position once released. A government employer should have the 
option to hire a soldier part-time that is currently on medical 
hold and meets the standards for the position. For those 
soldiers who may not need office training, it would be most 
beneficial to have a point of contact to guide them to 
employers who are interested in hiring soldiers, disabled or 
not. Even better would be the establishment of a web site 
designed solely for retired soldiers and their families that 
would highlight job opportunities or training seminars and 
classes. This web site could be similar to the numerous other 
job market search sites, like Monster.com or USAjobs.com, but 
would only be accessible to retiring soldiers. This would help 
families to eliminate the worry of finding a career and help 
soldiers recover faster during their rehabilitation.
    Mr. Chairman, that ends my statement and I thank you for 
the privilege of appearing before the Committee today.
    [The prepared statement of Mr. McGee follows:]
           Prepared Statement of Corey McGee, OEF/OIF Veteran
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today. It is an honor to be here on behalf of 
the newly injured soldiers coming home from Iraq and Afghanistan who 
will be transitioning into civilian life to find new careers, not just 
jobs. From experience, I can tell you that it is not an easy road to 
travel, but I hope that today will bring us one-step closer to creating 
a better experience for combat wounded veterans and their families 
around the United States.
    After receiving the news that I had to retire from the military due 
to the wounds I received in combat, I decided that I needed to think 
about what was next. I was worried that no one would want to hire a 
paraplegic. I had joined the Army straight out of high school, and the 
only thing I was trained for was to be a sniper for a scout platoon. 
Even if there were an opportunity for employment, how would I know 
about it and set up an interview? What would I wear and how would I get 
to the interview? Because I had planned to be in the military for the 
next 20 years, I did not have a resume and the only degree I had was a 
high school diploma. I had no back-up plan. It never occurred to me 
that I would be paralyzed and searching for gainful employment.
    After a few months after returning from Falluja, I met a woman by 
the name of Jennie Lohowictz who gave me the answers I needed to begin 
to travel on the road to success. She introduced me to the, ``Coming 
Home to Work Program.'' This program allowed me to serve as a 
Department of Veterans Affairs volunteer, which enabled me to get the 
experience I needed to work in the business world. Though it goes 
against that old Army cliche, I volunteered. I joined a nationwide 
volunteer group of thousands who serve veterans at VA hospitals helping 
in a variety of assignments from escorting patients, to medical 
appointments within the hospital, to working in administrative work. 
Volunteering gives returning soldiers an opportunity to transition back 
into civilian life, as well as establish relationships with VA staff 
and members of the veterans service organizations community. It also 
allows soldiers to use old and current skills as well as learn new 
skills without the pressure of a ``job''. It helps soldiers transition 
into the community and establish relationships just as a young business 
professional in the real work world.
    I have been through a lot within the last three years. From a 
quadriplegic to a paraplegic, to the man standing here today as I 
transitioned from an undereducated soldier with few practical skills, 
to a college educated Public Affairs Specialist with the help of this 
program. Even though I could no longer serve my country within the 
Army, I am proud to continue to serve from within. I now have a full 
time position at the VA as a Public Affairs Specialist while also 
attending college full-time at the Northern Virginia Community College. 
Thanks to my experiences, I was able to find a job in the VA medical 
center in Atlanta, Georgia, where I am moving with my soon-to-be wife. 
I plan to transfer to Emory University to further my education in the 
fall. I would not change a thing within the last seven years of my 
life. I would do it all over again if I could, because I would not be 
here today without everything I have done.
    Having said that, though, there is one change that I would like to 
recommend that might be able to help soldiers and their families. I 
have two children from a previous marriage and know what it is like to 
worry endlessly about how to take care of them financially after a 
military career is cut short. After receiving the training I needed 
from VA as a volunteer for a year, I knew I wanted to work for the VA 
as an actual employee once completing my medical discharge. However, no 
government agency could hire me nor guarantee me a position since I was 
still technically employed by the military. By the end of my year and a 
half of volunteering with the VA, I was living off of the hospital 
grounds, going to work almost every day, and only rarely returned to 
Walter Reed for physical therapy and exams. Yet, I still had no idea if 
there would be a job for me upon my release from the military. It took 
two months for me to secure a position once discharged, a long time 
when you support two children and live in such an expensive city. My 
suggestion is for the entire process to be more streamlined, to make it 
easier for these young heroes to directly transition from a volunteer 
position to a permanent position once released. A government employer 
should have the option to hire a soldier part time that is currently on 
medical hold and meets the standards for the position. For those 
soldiers who may not need office training, it would be most beneficial 
to have a point of contact to guide them to employers who are 
interested in hiring soldiers, disabled or not. Even better would be 
the establishment of a web site designed solely for retired soldiers 
and their families that would highlight job opportunities or training 
seminars and classes. This website could be similar to the numerous 
other job-market search sites, like monster.com or usajobs.com, but 
would only be accessible to retiring soldiers. This will help families 
to eliminate the worry of finding a career and help soldiers recover 
faster during their rehabilitation.
    Mr. Chairman, that ends my statement, and I thank you for the 
privilege of appearing before the Committee today.

    Chairman Akaka. Thank you very much, Mr. McGee.
    Mr. McGee. Thank you, Senator.
    Chairman Akaka. We will hear now from Ms. Rizer.

        STATEMENT OF MONIQUE RIZER, ARMY RESERVE SPOUSE

    Ms. Rizer. Thank you. Thank you for your service, Corey. My 
name is Monique Rizer and I am married to a 13-year Army 
Reserve soldier who deployed to Iraq from May of 2005 until 
August of 2006. Thank you for inviting me to speak with you 
about how Reserve spouses return to civilian employment after a 
deployment. My entire statement has been submitted for the 
record, but I would like to share some highlights with you 
today.
    My husband deployed three months after he moved to Virginia 
for his civilian job. I was transitioning from employee to 
contractor for a contracting and consulting firm I had worked 
for two years. When my husband deployed, I looked for work, but 
with two young children at home and a soldier at war, full-time 
opportunities were daunting. After his R&R in January of 2006, 
I felt overwhelmed and I decided to stop seeking employment or 
contracting opportunities altogether. It was in the best 
interests of my children and my soldier and the 20 families I 
supported as a Family Readiness Leader.
    I was eager to work again when he returned from his tour 
August 2006, but the search was more difficult than I had 
expected. I was not aware of resources for Reserve or Guard 
spouses seeking professional employment and I received no 
government assistance. I relied on popular web sites and my own 
small network of friends.
    During the first half of his tour when I was looking for 
work, recruiters called me regularly based on my publicly 
posted resume. When he returned home, I updated my resume with 
my FRG experience and the military award I had received for 
that work. I received only one call during that job search. I 
couldn't help but wonder if the lack of interest in my resume 
was because I now had a nearly two-year gap in my paid 
employment history. I can't be sure, but according to January 
2006 Bureau of Labor Statistics, a woman my age with employment 
tenure of two years or more, which I had, the median time 
without work was five-and-a-half weeks. I was without work for 
nearly six months.
    It was frustrating to think that I, too, had served my 
country while my husband was deployed, and it was more 
difficult looking for work now than before. My credentials 
hadn't changed. In fact, they had improved. I added a software 
course to my master's degree and was highly recommended by the 
military leader I worked with during the deployment.
    Active duty spouses who relocate with their sponsor to an 
active duty station receive DOD job preference. I believe 
Congress should consider a six-month preference for Reserve and 
Guard spouses, as well, similar to six months of TRICARE 
benefits we receive post-deployment. Of course, this would not 
help Reserve and Guard spouses who live in remote areas as 
compared to areas here in Washington, DC, which is why civilian 
employment support is imperative.
    I believe spouses must also be proactive and take advantage 
of the opportunities that are presented during a deployment. I 
immersed myself in military life during my husband's 
deployment. I told everyone I knew I was looking for a job and 
I continued to volunteer, which finally led to my employment.
    However, I do believe I am behind my civilian peers due to 
the deployment. My husband is legally protected from this 
effect under the law. I make half the hourly rate of my last 
contracting opportunity. He, on the other hand, received a 
raise that he missed while he was in Iraq. I am in a field that 
I was not trained for, so I am not building a career in my 
primary area of experience. However, I also am offered benefits 
that I did not have as a contractor, such as paid leave, 
holidays, a retirement plan, and health care benefits. I am 
also now in a place I feel secure if he was deployed again, 
which we know is likely as a long-term Reserve 
family.
    Day care is another area affected by a servicemember's 
deployment. My husband is currently on active duty, right now, 
actually, attending a military course for two weeks out of 
State. I am living what my life would be if he deployed again 
while I am working and it is challenging. He usually cares for 
our children one day a week during his flex schedule so I can 
work longer hours, and now I have to seek out friends to cover 
before and after-school care for my third-grader and full-day 
care for my 3-year-old. If I were paying for this, it would eat 
up more than 60 percent of my net pay, making the financial 
benefit hardly worth it.
    My other consideration with returning civilian employment 
was that my husband suffered a traumatic brain injury in his 
first few days in Fallujah. It was mild compared to others, but 
I am still concerned about his long-term ability to provide for 
us, since we have invested in him as our primary breadwinner. I 
am constantly torn, like many military spouses, between being 
home as a support for my family and working hard outside the 
home to eventually be in a position to be the primary 
breadwinner if the situation demands it. For now, we take life 
one day at a time. We are very thankful that he is home and I 
am employed. So far, his civilian career is going well.
    I believe widespread communication about resources 
available to Reserve and Guard spouses seeking employment would 
help. Employers to offer part-time work with benefits is 
crucial, and even extra leave time for military spouses who 
must take off for issues related to the servicemember's 
deployment would be beneficial. Day care is also key. Whether 
the servicemember is deployed or serving an extended battle 
assembly, two-week AT, or military course, there should be some 
provision for spouses who need extra day care assistance that 
their spouse usually provides. As with the servicemember, the 
spouse should not be penalized for taking time to support his 
or her family while the servicemember is deployed. They should 
be able to reclaim their place in the civilian workforce.
    Each military spouse's experience is unique, but today's 
Reserve and Guard spouses are relied upon for family support 
like never before. We are committed to that support, but our 
jobs and pursuit of higher education is sometimes delayed 
because of it. We resign, reduce hours, or change jobs. I 
believe I have shared some challenges we all face: Finding 
employment that works with our unique life, having consistent 
day care, and supporting our servicemember.
    Thank you for your time.
    [The prepared statement of Ms. Rizer follows:]
    Prepared Statement of Monique Rizer, Spouse of an Army Reservist
    My employment history since graduating with my master's degree in 
2003 has been heavily influenced by my husband's military and civilian 
career. Up until the deployment I was progressing at a pace I was 
satisfied with and felt was on par with my peers. His deployment to 
Iraq, however, resulted in a gap in my employment history, and changed 
my future career course. Following is some background about my 
employment history leading up to my husband's deployment.
    We both grew up and attended college in Washington, Senator 
Murray's state. After graduating on the same day, he from law school 
and I from a master's program, we relocated to Pennsylvania, Senator 
Specter's state, in July of 2003 where my husband served as a Federal 
law clerk until February 2005. I was fortunate to keep my job with a 
Northwest based top 100 accounting and consulting firm, where I began 
as a communications intern during my master's program, by working from 
home in Pennsylvania despite the firm having no offices outside of 
Washington or Idaho. I had also given birth to our second son during 
that time, so the arrangement was ideal for our circumstances as young 
professionals with young children.
    Our family moved to Alexandria in February of 2005 when my husband 
accepted a full time position in Virginia, Senator Webb's state. The 
move forced my company to reevaluate our telecommuting agreement, and, 
while I pushed to keep working from home, they were not able to 
continue with this work arrangement, but they did contract with me for 
several projects as the new employee was trained. By this time I had 
tripled my starting hourly wage.
    Within weeks of moving to Virginia rumblings of a deployment put a 
question mark on my employment future, since we had no idea how it 
would affect our family. He received orders and deployed on Mother's 
Day 2005 for 3 months of training in Indiana, and then was sent to Iraq 
where he served in a small town outside of Fallujah from late July 2005 
until July 2006. Our sons were 6 and 18 months at the time.
    I had begun a frantic search for employment before we moved to 
Virginia, right after I was informed I could no longer telecommute for 
my firm once I moved. The pressure to replace my income, and put to use 
my education, which had been funded primarily by a full scholarship I 
was awarded as junior in college, weighed heavily on my mind, but when 
my husband finally deployed I wasn't sure what to do. Despite my 
husband's 11 years of service as a Reserve component soldier (he served 
as an enlisted Washington National Guard soldier for 5 years, then as 
an officer in the WNG prior to transferring to the Army Reserves when 
we moved to Pennsylvania) I couldn't have imagined what the next 15 
months would bring; an injury caused by an IED in the first weeks of 
him being in Iraq, and the anxiety on all of us.
                   going back to civilian employment
    When he returned home early August 2006 we both wanted as much time 
as a family as possible, so using his military leave and some of our 
own funds to float us without an income for a few days he was able to 
take several weeks off before returning to his civilian job.
    I decided to seek part time employment when my husband returned 
home. I freelanced on a few projects while he was deployed, but only 
during the first half. After his two-week leave in January of 2006, I 
was overwhelmed and sought counseling, so did not pursue any additional 
freelance opportunities. When he returned, I was eager to find ways to 
get my career back on track, but still could not to take my main focus 
off my family, which, for me, precluded me from seeking full time work. 
By this time it had been a year and a half since I had been employed. I 
volunteered as an FRG leader during the deployment and the 
responsibilities I had helped to explain my absence from the work force 
for prospective employers, but it would take another 6 months to find a 
position that could accommodate my family needs, which I believe is an 
important point.
    When my husband returned, he was not the same, and our family was 
not the same. Like thousands of servicemembers, he was dealing with 
post traumatic stress and also a traumatic brain injury, which affected 
all of us. He lives with chronic headaches, decreased hearing and 
eyesight, and traumatic memories, to name some of his symptoms. My 2-
year-old son was uncomfortable with his father for anything routine, 
such as bed times, having spent half his life separated from him, so it 
was a challenge for my husband to bond with our children again, and 
find his role in our lives since we had been independent of him for so 
long. Given these circumstances I felt a great responsibility to my 
family and wanted to balance our health with my career, so I think it 
took me much longer to find employment than had I been seeking 
traditional full time employment without the added concern for my 
family.
    It was at times discouraging looking for work. I was not aware of 
resources for Reserve or Guard spouses seeking professional employment, 
besides a career fair on Ft. Belvoir, which I attended. I relied on 
Monster, Craigslist, and my own small network of friends. During the 
first half of his tour, when I was looking for work, I had several 
recruiters calling based on my Monster profile. When he returned home, 
I updated my profile with my FRG responsibilities and my award for 
public service. I received one call in 6 months. Was the dearth in 
interest because I now had a nearly 2-year gap in my paid employment 
history? I can't be sure, but it was frustrating to think that I, too, 
had served my country while my husband was deployed, and it was more 
difficult looking for work now, than before that service.
    And yet, the pull to be home with my family, to take care of them, 
was strong enough to make me question if going back to work was even 
the right move. I had conflicting emotions--take care of them from 
home, or get back into the work force so that I can eventually get a 
high paying job in case my husband's employment was affected by what he 
suffered in Iraq. (He was still in the disability process at that time 
and we did not know what kind of compensation he would receive for his 
injury.) It may sound paranoid, but given the recent discoveries about 
even mild TBI and the delayed onset of symptoms particularly when 
coupled with PTSD, it was a real and frightening thought at the time, 
and it still crosses my mind that who knows what or how TBI symptoms 
could affect his longevity as an attorney. I want to be prepared to 
care for my family no matter what the future holds.
    I believe Reserve spouses must also be proactive and take advantage 
of the opportunities that are presented during a deployment. I became 
involved in military life to an extent I never had before, which 
resulted in my finding employment with NMFA. I do believe I am behind 
my civilian peers due to the deployment--an effect that my husband has 
protection from under Uniformed Services Employment and Reemployment 
Rights Act--I make half the hourly rate from my last contracting 
opportunity with my previous firm, and I am in a field that I was not 
trained for, so I am in a sense losing career building time in my 
primary field of education and experience. However, I also am offered 
benefits that I did not have as a contractor, such as paid leave, 
holidays, a retirement plan and health care benefits. And I'm in a 
place I feel secure in if my husband was deployed again.
                 future employment as a reserve family
    We have a much clearer understanding of what it means to be a 
Reserve family in today's military. Not only can we expect the 2 weeks 
of yearly training to take work off for, we know another deployment is 
a real possibility and we must consider how it affects our civilian 
jobs. For me it means needing a flexible and a supportive employer who 
will understand if I need time off for my husband or my children or 
even a leave of absence. It also means having back up daycare 
arrangements.
Child care
    I am experiencing now what life would be like if he deployed. My 
husband is currently away for 17 days to attend a military course and I 
have relied on the generosity of my friends (also military spouses) to 
care for my children when my husband normally would.
    A deployment today would increase my daycare costs by about $200/
month since my husband currently has a flex schedule, which allows him 
to be home with our children one day a week. (During a deployment, 
that's about what I spent sending my husband food since he lived 
outside of a FOB and did not have regular access to meals other than 
MREs, morale items, and paying for shipping.) I rely on him for this so 
that I can work more hours that day without having to pay for an 
additional day of daycare for our 3-year-old, or before and after 
school care for my third grader. If I did have to pay for an additional 
day, the total cost of daycare would eat up more than 60 percent of my 
paycheck.
    While I do qualify for military child care when my husband is on 
active duty orders for more than 72 hours, this would not completely 
eliminate the challenges. First, I still would have to pay for it. 
Second, I know from experience using the part time care on post during 
the deployment that you must plan at least one month in advance to get 
an hourly care slot, not to mention having to go through the process of 
re-registering them, and hours are limited from 8 a.m. until 4 p.m. 
This would conflict with my work schedule. Third, there is no 
transportation from a civilian school to before and after care on post 
for my third grader.
    If he were deployed again, I would have to either alter my work 
schedule or lose pay, and paying for additional child care would make 
the net financial profit of working hardly worth it.
Future deployments
    Since returning, my husband has been contacted twice for another 
deployment. We assume that he cannot be ordered to deploy again since 
he just finished a 15-month tour less than 1 year ago, but the lack of 
clarity on the deployment rules for Guard and Reserve servicemembers 
puts us in a precarious position wondering how long he can stay in the 
service, considering the interruptions it causes to our primary 
livelihood. I know nothing is sure, but some guidance or an attempt to 
follow a standard, such as limiting deployments to 18 consecutive 
months in 5 years, would at least help us to understand what we are 
facing if we remain a Reserve family. No one has been able to answer 
that question for me.
    Job interruptions caused by lengthy deployments can have 
significant consequences for Reserve families. One Reserve spouse who 
ran her own business told me that after her Reserve spouse's second 
deployment in 4 years, with a total of 2 years away, she was compelled 
to close her business. The risk of future deployments was too great for 
her. She wrote to me saying:

          ``First, it is a lot of work to run a business, but on your 
        own it is even more. This is not double the work . . . it is 
        exponential. The farm, the house, the business, it is 
        exhausting both physically and emotionally.
          Secondly the financial risk involved. A small business is 
        always tenuous. I have a few employees and although they are 
        all contractors, I try to keep myself and them employed to 
        their fullest potential. The lost of a large contract, the 
        bankruptcy of a large client, or worse yet another geopolitical 
        disaster such as 9/11 could wipe out my company in a day. This 
        would have a large impact on my finances while my spouse is 
        overseas.
          And finally, since my husband's return in August, my thoughts 
        have been overwhelmed with worries that he will be called back 
        again. And this time, it will be longer than the last. I need a 
        more stable, less risky environment.
          It is hard to find an employer who believes that I want to 
        give up successful entrepreneurship for a return to the 
        corporate life. But I tell them this is now a way of life for 
        the military spouse.''

                           the servicemember
    While I have the opportunity, I would like to offer some insight 
into the servicemember's transition to civilian employment after a 
deployment. We are more profoundly affected by his or her return to 
civilian employment if they are the primary breadwinners.
    Each servicemember's experience is different, but there are common 
challenges to returning to civilian employment--if they even have 
something to return to. I believe a large part of this issue revolves 
around ensuring servicemembers, and their families understand the 
Uniformed Services Employment and Reemployment Rights Act and how it 
applies to public and private employers and ensuring employers adhere 
to these protections without causing undue burden or pressure on the 
servicemember. In addition, I believe certain changes should be made, 
or at least more clearly articulated within USERRA regarding the 
employment rights of our Nation's citizen warriors. I admit I do not 
understand the law myself. But, I can offer our family's experience to 
highlight some difficulties and successes.
    I have found the general understanding of employment rights for 
Reserve servicemembers to be limited to: (1) a guarantee that you will 
have a position to return to, or one comparable to the position you 
left when you deployed, (2) any pay increases, or promotions you were 
entitled to before you deployed should remain on schedule. I believe 
the rule should be simple--you should not be penalized in any way 
because you served your country when called to active duty. Our 
servicemembers put their lives on the line, spend years away from their 
spouses and children, sometimes only to return to a boss pressuring you 
to return to work, dragging feet to give deserved, earned benefits, or 
nothing to return to at all. We must also continue to recognize 
employers who exemplify support to Guard and Reserve servicemembers and 
their families.
    The transition back and forth from civilian to military to civilian 
again can be consuming because of everything else that is going on. Our 
family's primary concern was securing a pay increase that we were sure 
he would have earned had he not been deployed. We had hoped the pay 
raise would be a natural part of his return to work but that did not 
occur and so my husband began the due diligence to receive the raise he 
deserved. After writing letters and progressing up the appropriate 
chain, 7 months later he received the raise, and pay dated back to the 
date of the raise. Though we disagreed with the date of the pay raise, 
we felt it was best to not push our luck and considered the matter 
resolved. Other issues we faced when he returned to work were: 
reconciling whether or not he acquired leave while he was deployed (he 
did not), how to make up for matching contributions to our retirement 
plan (this process is not clear), and achieving the next scheduled pay 
raise. While we are grateful to have received his raise, but that 7-
month wait heaped stress upon my husband who was already dealing with 
other challenges from the deployment.
    Overall, I believe our family was fortunate that my husband was a 
Federal employee during his deployment. His profession as an attorney 
and chosen field of practice offered certain protections that we felt 
confident would be fulfilled, or to see enforced in the case that they 
were not. Though only weeks into his new position before he received 
orders to deploy (incidentally, he was at Air Assault school for 2 
weeks after beginning his new position when he heard of the deployment 
orders), where he came from an 18-month long Federal law clerkship, his 
supervisors were incredibly supportive. His benefits specialist was 
patient to explain any questions I had during his deployment regarding 
issues such as health care benefits, which were paid for by the Federal 
Government as primary health care coverage, military leave pay and life 
insurance.
    Mr. Chairman and distinguished Members of the Committee, I thank 
you for your interest in how Reserve component servicemembers and their 
military families transition back to civilian employment after 
returning from war. We are proud of our service, but I ask that we not 
bear additional costs as we balance our civilian life with our military 
commitments. More emphasis placed on resources for job placement after 
returning from deployment, better communication and enforcement of 
Reserve and Guard employment rights, and continued support from 
outstanding employers will help sustain citizen warriors and their 
families, and our Nation's security for the long term.
                                 ______
                                 
          Monique Rizer's Recommendations for the Improvement 
                          of TurboTAP Web Site
    I have gone through the Turbo TAP web site and I have a few 
observations:
    First, I think it is very well done. The information is organized, 
well written, and visually pleasing. I was especially happy to see 
information for servicemembers who are also small business owners. From 
a web development perspective, I think a search tool and a clear 
``enter here'' button would be useful, rather than having to find a way 
to get to the ``meat'' of the site by clicking on the General 
Information link down on the lower right side of the home page.
    I think the site would be improved by adding more information about 
family members. Where do spouses go for counseling if they need it 
after a deployment ends? What kind of assistance is there for children? 
Parents of single servicemembers? A large part of the transition, 
particularly when coming off a combat tour, is mental and emotional. 
What can family members expect in their servicemember as he or she 
makes the transition to the civilian world and how can the family 
member help, or how can the servicemember help? This kind of 
information would make the site even more comprehensive.
    The Guard and Reserve section seems more for active duty 
servicemembers going to a Reserve component, instead of for Reserve 
Component servicemembers separating from active duty. I think it would 
be well worth it to expand that section into resources for RC 
servicemembers and have more information about PTSD, going through the 
disability rating process, leave time after coming off active duty, 
USERRA rights, etc. I realize some of this information may be in other 
areas of the site, but with the web, redundancy is important to 
reaching the intended audience as so many people search for information 
in so many different ways. As a Reserve or Guard spouse, I would head 
straight for that section and hope to find my answers there, tailored 
for a Reserve family.
    I think asking a servicemember and family member who has used the 
site to guide their transition would really tell how useful this site 
is. I know it would have been a great resource for me and my family 
when my husband returned from Iraq last year. But, we found our way . . 
. and I guess we still are.

    Chairman Akaka. Thank you very much.
    And now Mr. Osterberg.

STATEMENT OF DON OSTERBERG, VICE PRESIDENT, SCHNEIDER NATIONAL, 
                   INC., GREEN BAY, WISCONSIN

    Mr. Osterberg. Good morning, Chairman Akaka and 
distinguished Members of the Committee. I certainly am honored 
to serve on such a distinguished panel as my co-panelists today 
and I thank both of you for your service to our great Nation.
    As was mentioned, my name is Don Osterberg. I am currently 
serving as Vice President for Schneider National. I am also a 
retired Army infantry officer. I am here today representing not 
only Schneider National, but the Truckload Carriers 
Association, as well. For those of you that may not be familiar 
with Schneider National, we are our Nation's largest truckload 
carrier. We generate nearly $4 billion in annual revenue. We 
have nearly 25,000 associates that serve worldwide. And we 
provide integrated transportation logistics services. Perhaps 
most importantly today, we have a very long history of 
supporting America's veterans.
    Our history dates back to 1935, when our founder, Al 
Schneider, a longtime member of the Wisconsin National Guard, 
sold his family automobile to buy his first truck. As Al 
Schneider's business grew, so did his need for quality drivers 
and other associates and Al began recruiting, as you would 
expect, from his fellow Guardsmen in the Wisconsin National 
Guard. Over 70 years later, Schneider National continues to 
approach Guard members, Reservists, and separating servicemen 
and women with nationwide career opportunities.
    Our preference to hire military veterans is as true today 
as it was for Al Schneider back in 1935. As an example, last 
year, we hired just under 1,700 veterans as driver associates 
for our company, and this year to date, we have hired 812 
veterans as driver associates. We also hire many military 
veterans as mechanics, office associates, managers, and 
executive leaders.
    We currently have 56 of our associates that are serving on 
active duty and are deployed with Guard and Reserve units 
worldwide. We have several programs in place for our members of 
the Guard and Reserve. For example, we offer extended benefits 
and differential pay when servicemembers are deployed and we 
have guaranteed home time for weekend drill and annual training 
where no vacation time is required on the part of our 
associates.
    Our programs for supporting our military have garnered us 
many regional and national awards and recognition. For example, 
in November 2006, Schneider National was ranked 17th on GI 
Jobs' annual list of top 50 military-friendly employers. Going 
back to 1991, Schneider National was named America's most 
supportive employer of the Guard and Reserve by the Enlisted 
Association of National Guard of the United States. It was the 
first time that they had presented that award, as many of you 
may know, and today, that award is known as the Al Schneider 
Award in honor of our founder.
    In 1996, Schneider was awarded the first ever Employer 
Support Freedom Award by the Department of Defense and the 
National Committee for Employer Support of the Guard and 
Reserve. Schneider National was selected based on our continued 
support for Guard and Reserve associates and their families. 
Over the years, Schneider has also received numerous awards 
from veterans' support organizations at State and national 
levels, including most recently recognition from the Department 
of Defense through the ``My Boss is a Patriot'' program.
    Schneider National is active in the National Committee for 
Employer Support of the Guard and Reserve, encouraging other 
employers to hire members of the Guard and Reserve and 
supporting membership and participation in Reserve units. We 
are also a national HireVetsFirst employer, an Employer Support 
for the Guard and Reserve Five-Star Employer, and a proud 
supporter of the Army Wounded Warrior Program.
    However, I don't mention those for any attempt at 
organizational self aggrandizing, but really to establish I 
believe we have earned a modicum of credibility and experience 
on the question of employing not only Guard and Reserve 
members, but military veterans separating from the military. We 
have some challenges that organizations like Schneider National 
and others will face, other truckload carriers. I want to 
summarize some of those challenges and really ask for your help 
in several of these areas.
    First of all, our challenge today, and it certainly has 
been very enlightening for me to listen to the predecessor 
speakers today, but our challenge is to recruit even more 
separating servicemembers and members of the Guard and Reserve 
than we have in the past. We certainly have a need, and toward 
that end, we offer a quick-hire process for separating 
servicemembers. We actively participate in many of the 
organizations and programs that were mentioned today, including 
military job fairs. We have a section on our employment web 
site dedicated exclusively to veterans. And our company and our 
industry have many thousands of good jobs available today.
    Recent projections, for those of you that are familiar with 
the truck driver shortage that we currently are experiencing, 
not only do we have an acute truck driver shortage today, but 
that shortage is projected to grow to perhaps as high as 
111,000 by the year 2014. By virtue of the fact that we have 
good jobs available today, and yet there are certainly some 
unemployed military veterans, suggests that we certainly have a 
communications and marketing issue. But perhaps more 
importantly, I think we face transition issues with separating 
servicemembers.
    It is my opinion that it seems imperative that the 
Department of Veterans Affairs become involved in developing 
career transition programs to facilitate matching separating 
servicemen and women with employers that provide opportunities 
that directly affect our economy, like the trucking industry.
    In 2005, I was honored to be invited to participate in a 
national conference hosted by Secretary Nicholson to discuss a 
VA-led career transition initiative, Coming Home to Work. I 
believe it is very unfortunate, both for veterans as well as 
for employers, that the Coming Home to Work initiative was not 
fully launched. I firmly believe that VA leadership in helping 
separating veterans as well as Guard and Reserve members 
transition from their military career to suitable civilian 
careers is even more essential today with the large number of 
combat veterans returning from both Iraq and Afghanistan.
    Secondly, I would ask for your support in revising the 
accelerated benefits under the Montgomery GI Bill for 
separating servicemen and women. The current GI Bill system of 
educational assistance for veterans is inefficient. It is an 
inefficient funding system for professional truck driver 
training and other short-term, high-cost educational programs 
that are not currently listed on VA's accelerated benefits 
payment list. Accelerating GI Bill benefits for training in 
high-growth occupations like trucking, as opposed to simply 
high-tech occupations, would help provide more veterans with 
gainful employment opportunities and sound career paths even 
faster. We are currently working with DOL on an apprenticeship 
program that we think will help.
    I finally would ask, I know there is a great deal of work 
going on with the Air Force as the Air Expeditionary Force 
Cycle and the Army's Force Generation Model to address the 
issue of predictability of Reserve and Guard members, and 
certainly we would ask for your support in ensuring that the 
services can provide us with that modicum of predictability.
    In closing, Schneider National and other Truckload Carriers 
Association members have great employment opportunities for 
veterans today. We also have a strong motivation to provide 
veterans with honorable career opportunities that support the 
transportation industry as the lifeblood of our Nation's 
economy.
    Thank you very much for your kind attention.

    Chairman Akaka. Thank you very much, Mr. Osterberg.
    I would like to change the order and ask Senator Webb for 
your questions and I will close out. Senator Webb?
    Senator Webb. Thank you, Mr. Chairman.
    I would like to first thank all of you for your testimony. 
I think in different ways, I have lived all different facets of 
what you have just testified about.
    First, I would like to, if I may, Mr. McGee, I would like 
to ask you something about your treatment, your medical 
treatment. I had a rifle platoon and then a company in Vietnam, 
and in my small platoon, we had a triple amputee, more than one 
double amputee, high-arm amputee, spinal cord injury, and 
largely as a result of that, I have on a daily basis for many 
years--in many cases a daily basis--tracked how people have 
been able to readjust and the opportunities that they were 
given and that sort of thing. I think it is a great story that 
you are now in the flow here.
    But for you to have proceeded from a quadriplegic to where 
you are today, could you give us a comment on the medical care 
that you received in the military and in the VA, if you were 
using DVA?
    Mr. McGee. I had nothing but great treatment from Walter 
Reed and VA, although it did take me--I spent two-and-a-half 
years 
trying to go through my medical board, so it was a long time 
because I kept progressing and getting better as time went on. 
I was paralyzed from the waist down for a year, and after the 
year was done, I kept progressing. So overall, I have had 
nothing but great treatment because they have always taken care 
of me. I have never had a complaint, just as far as the length 
of time that I was going through my medical discharge, but that 
is the only thing.
    Senator Webb. Sure. That seems to be a constant theme over 
the past couple of years, medical treatment being very good, 
but the processing itself seems to be where things are breaking 
down.
    May I ask, when you were progressing, were you put on like 
a temporary retirement while your condition continued to 
evolve, or did they just hold you on active duty until they 
decided that your condition had stabilized?
    Mr. McGee. They held me until they could finally stabilize. 
I wasn't retired until a year after I finally--well, about 
half-a-year afterwards is when I finally was discharged, when I 
finally became stabilized.
    Senator Webb. Did they put you on permanent retirement at 
that point, or are you still temporary----
    Mr. McGee. Still temporary. It is still temporary for the 
next five years.
    Senator Webb. Ms. Rizer, I would like to hear your comments 
about--you were talking about seeking employment and this sort 
of thing while your husband was deployed. There was something 
of a syndrome that went on during Vietnam with spouses, and I 
know of one case where someone I knew very well, who was a 3.9 
graduate out of college, et cetera, got turned down for 51 jobs 
in 4 months because she was deemed a permanency risk because 
her husband was deployed. Do you feel like any of the struggles 
that you were going through were as a result of your husband 
being deployed?
    Ms. Rizer. Well, when he was deployed, I was very unsure 
about what I wanted to do, so I was going on interviews and 
seeking employment and I tried not to bring up the fact that he 
was deployed. I didn't want that to be a consideration. So I 
couldn't say for sure whether that affected the interviews that 
I went into and whether or not I got a job.
    But when he came back, it was definitely something that I 
had to bring up because I had to explain that I needed to be 
home with my family and so I wasn't working. It may have 
deterred. To be honest, I only got a couple of interviews, 
which was part of the frustration. I couldn't even get my foot 
in the door for the first five months or so.
    But I have no doubt that an employer considers that, 
because my husband, even he interviewed for new jobs when he 
returned home, he was specifically asked if he thought he would 
be deployed again, and he is a Federal employee. So I think 
that it is surprising that employers still do consider that for 
Reserve and Guard, I guess spouses now too, because it is just 
a reality that we live today. We are going to be deployed 
again. So yes, in a way.
    Senator Webb. Mr. Osterberg, I hope your company will look 
at the GI Bill that I introduced at the beginning of this 
session. I spent a good bit of time working on it. As you may 
know, I was committee counsel on the House Veterans side years 
ago and I have always believed that the people who have served 
since 9/11 deserve the same level of benefits as the people who 
served in World War II, and I think that would affect the OJT 
programs you are talking about, too, because they are tuition-
based rather than monthly based. I hope your company will look 
at that and maybe give us some support if you believe it fits 
into what you are doing.
    Mr. Osterberg. Yes, and thank you for your leadership on 
that. I think you are absolutely right.
    Senator Webb. I appreciate it. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Webb.
    Ms. Rizer, I thank you very much for your compelling story. 
It is clear that it is not only the warrior, but also the 
warrior's family who bears the burden. I can also appreciate 
the very difficult decisions that you and your family faced at 
that time and, of course, what you will be facing in the 
future.
    You indicated that when you were looking for work after 
your husband's demobilization, you were not aware of the 
resources for Reserve or Guard spouses seeking employment. Was 
this because there were none or because information about such 
resources was not readily available?
    Ms. Rizer. I am sure there are resources available, because 
being a Family Readiness Group Leader and being very connected 
to the entire division, I had a lot of information disseminated 
through me. So I know there are resources. I am sure there are. 
There must be, because there are similar resources for active 
duty spouses. But I think Reserve and Guard spouses sometimes 
don't think that they are eligible for those resources because 
they are not active duty 365. So I think there could be some 
education there definitely that we are eligible for these 
services when our husbands return, our servicemembers return. 
So for myself, I don't know how I missed that information, just 
because, I guess, I was very well informed.
    Chairman Akaka. I am trying to reach for information about 
agencies or groups that would help you look for a job.
    I guess it is something that we need to work on----
    Ms. Rizer. Yes, definitely.
    Chairman Akaka [continuing].--to help the families.
    Mr. McGee, the Committee is really honored to have had the 
opportunity to share your inspiring story. Just one very brief 
question. You indicated that your primary interface in terms of 
employment was through the VA's vocational rehabilitation 
program. Did you have any interaction throughout the process 
with the Department of Labor?
    Mr. McGee. No, sir, I didn't. I didn't know who to go to. 
There was only one person that kind of came up to me and that 
was the VA representative.
    Chairman Akaka. I see. We have been talking to the 
different agencies about providing information for individuals 
like you and we want to be sure that there are a number of 
agencies that can help in this way.
    Mr. Osterberg, I especially thank you for making yourself 
available to this Committee on short notice and for your very 
interesting testimony. I understand and commend your personal 
commitment to training and hiring those returning from service. 
In terms of hiring individuals who are serving in the Guard and 
Reserve, could you comment on any special problems an employer 
might 
encounter?
    Mr. Osterberg. Well, certainly we have the luxury of being 
a relatively large employer, so we have the ability to mitigate 
some of the costs and productivity negative impacts of 
employing Guard and Reservists who are deploying at a much more 
frequent rate and for longer duration than we have historically 
seen.
    I recognize, however, that there are many smaller employers 
that don't have the luxury of size that we have and have to 
essentially work very hard at financial impact to their 
organization. They have no recourse, as you can imagine if we 
have 15-month deployments, but to replace their deployed 
servicemembers when they leave and it certainly creates some 
disruption in the workforce. I believe most of them are very 
committed to doing it because it is the right thing to do, but 
clearly there are some costs and productivity challenges 
associated with that.
    So if there is anything that the Committee and Congress can 
do to help create the same kinds of mitigation strategies that 
we have the luxury of in a larger company for smaller 
companies, I think it would certainly be appropriate to focus 
on that.
    Chairman Akaka. Thank you for that.
    DOD has recently launched its TurboTAP web site. Both Mr. 
McGee and Ms. Rizer talked about the need for online resources. 
I would greatly appreciate it if each of you would visit the 
finished product on the web and share with the Committee for 
our records your reaction to it and any suggestions you might 
have for improvements. That will certainly help us with what we 
are trying to do, to hear from you and from your level as to 
how it is working out and maybe what we can do to improve it. 
We want to try to create a system that will be helpful, that 
will be seamless, that our families as well as the warriors 
themselves might be able to seek help in these places. So I am 
very, very grateful that you all were here and look forward to 
your responses on this request. Is that all right with you?
    Ms. Rizer. Yes.
    Mr. Osterberg. Yes.
    Mr. McGee. No problem, sir.
    Chairman Akaka. Well, again, in closing, I thank all of our 
witnesses for appearing today. We truly, truly appreciate you 
taking the time to share your views with us.
    We are looking forward to this hearing so that we can try 
to put together a program that will help you and many others 
that are coming in the future. So again, we can't thank you 
enough for what you have done.
    The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

     Prepared Statement of the National Military Family Association
    Today's military is comprised of predominantly young adults under 
the age of 35. Sixty-six percent of military spouses are in the labor 
force, including 87 percent of junior enlisted spouses (E-1 to E-5). 
For many, working to pay bills and cover basic expenses is the primary 
reason for working. Studies show the gap between the financial well-
being of military families and their civilian peers is largely due to 
the frequent moves required of the military family and the resulting 
disruptions to the career progression of the military spouse. In a 2005 
report by the RAND Corporation: Working Around the Military: Challenges 
to Military Spouse Employment and Education, researchers found that 
military spouses, when compared to their civilian counterparts, were 
more likely to live in metropolitan areas and are more likely to have 
graduated from high school and have some college.
    Yet the RAND study found that all things being equal, military 
spouses' civilian counterparts tended to have better employment 
outcomes and higher wages. Surveys show that a military spouse's income 
is a major contributor to the family's financial well-being and that 
the military spouse unemployment rate is much higher (10 percent), than 
the national rate. The loss of the spouse's income at exactly the time 
when the family is facing the cost of a government ordered move is 
further exacerbated when the spouse is unable to collect unemployment 
compensation. Lacking the financial cushion provided by the receipt of 
unemployment compensation, the military spouse must often settle for 
``any job that pays the bills'' rather than being able to search for a 
job that is commensurate with his or her skills or career aspirations. 
This in turn hurts morale and affects recruitment and retention of the 
servicemember.
    With a concern that spouses desiring better careers will encourage 
servicemembers to leave the military, the Department of Defense (DOD) 
is acknowledging the importance of efforts to support spouse 
employment. In 2003 DOD signed a memorandum of understanding (MOU) with 
the Department of Labor (DOL) to expand connections to the job markets 
in America's communities, involvement with labor laws that affect 
reemployment (i.e., training, unemployment compensation) and interest 
in states' reciprocal licensing and certification requirements needed 
to qualify for employment.
    The results of this collaboration thus far have been:

    <bullet> Establishing Milspouse.org, a resource library for 
military spouse employment, education and relocation information.
    <bullet> Establishing One-Stop Career Centers near major military 
installations (i.e. Norfolk, Va.; San Diego, Calif.; Fort Campbell, 
Ky.).
    <bullet> Expanding opportunities for National Guard and Reserve 
members and military spouses to access training and education grants.
    <bullet> Exploring options with states to offer unemployment 
compensation to military spouses when unemployment is the result of a 
permanent change of station (PCS) move.
    <bullet> Improve reciprocity for state certifications and licensing 
requirements.

    Unfortunately, funds for this promising collaboration have run out 
and are not due to be reinstated. NMFA believes this lack of funding is 
a significant blow to the promise of these early initiatives. While DOD 
will continue to work some of these issues, we believe the Department 
of Labor is best positioned to provide the coordination necessary with 
states and other agencies to promote opportunities for military spouse 
employment.
    DOD has also sponsored a partnership with Monster.com to create the 
Military Spouse Career Center (www.military.com/spouses) and recently 
announced the availability of free career coaching through the Spouse 
Employment Assessment, Coaching and Assistance Program (SEACA). 
However, with more than 700,000 active duty spouses, the task of 
enhancing military spouse employment is too big for DOD to handle 
alone. Improvements in employment for military spouses and assistance 
in supporting their career progression will require increased 
partnerships and initiatives by a variety of government agencies and 
private employers. NMFA applauds current partnerships through the Army 
Spouse Employment Partnership (ASEP) where currently 26 corporate and 
government partners have pledged to provide solid employment 
opportunities to military spouses. Although marketed as an Army 
initiative, all military spouses may take advantage of this program. 
Unfortunately, without the ability to track the actual hiring numbers, 
it is difficult to determine the success of these partnerships.
    Despite greater awareness of the importance of supporting military 
spouse career aspirations, some roadblocks remain. In addition to their 
inability to qualify for unemployment compensation in many states, 
military spouses may not be eligible for the many labor and workforce 
development opportunities offered in the states in which their 
servicemember is assigned. As the military streamlines operations and 
contracts out many services, military spouses may find the contract 
positions have significant disadvantages over positions as non-
appropriated fund (NAF) or civil service employees. While one could 
argue that the ability to be a contractor provides a spouse with some 
flexibility, this ``opportunity'' also brings significant monetary 
implications for the military spouse. What many spouses do not realize, 
until it is too late, is that, as a contractor, spouses enjoy none of 
the regular employee benefits available through NAF or civil service 
positions. In addition, they must file quarterly tax statements to pay 
self-employment tax. NMFA asserts it is time to take a closer look at 
the efficiencies of contracting and the resulting impact on military 
spouses who frequently fill these contractor positions.
    One of the primary reasons that spouses interviewed in the RAND 
study gave for not working outside the home was a lack of affordable, 
accessible child care. As a spouse explained in a 2005 NMFA Survey of 
Military Spouses, ``For the first time, I am staying home because we 
have 3 children, 2 are under 2 years of age, and the cost of daycare is 
so much that it is not worth it for me to return to work.'' This 
situation may be further exacerbated in National Guard and Reserve 
families where parents may work shifts to tradeoff child care 
responsibilities. When the servicemember is activated the spouse is 
forced to find child care and to make budget adjustments to cover this 
new and significant expense, along with adjusting to all of the other 
stresses a deployment brings.

        As a National Guard spouse, I had to quit my high paying 
        position (primary source of income and benefits) during my 
        husband's deployment because of a combination of a long commute 
        and daycare hours. My husband had drop off responsibilities so 
        that I could commute before peak traffic hours. There is no 
        protection or advocacy for Guard and Reserve spouse jobs. My 
        family went from software jobs to qualifying for food stamps in 
        the year and a half after my husband's return because of the 
        difficulty in finding a job that I could stick with through 
        another potential deployment.

    Many National Guard and Reserve families live a significant 
distance from a military installation making DOD child care centers an 
unrealistic solution to the problem. Programs such as Military Child 
Care in Your Neighborhood and Operation Military Child Care which are 
offered through a DOD partnership with the National Association for 
Child Care Resource and Referral Agencies (NACCRRA), are helping. The 
fact remains, however, that currently DOD has a shortage of 35,000 
child care slots just for regular full time care. This number does not 
even begin to reflect the staggering shortage of part-time, evening, 
and respite care slots available to military families.
    Many military spouses realize that additional education is required 
to improve their employment prospects. These spouses encounter another 
set of barriers as they seek further education. As one spouse stated in 
a recent NMFA online spouse education and employment survey: ``My 
resume looks like I cannot hold a job, never mind that I have worked 
since I was 15! Low salary, no time to accrue seniority, no time for 
education to improve skills all lead to low self esteem. Never mind 
that when my husband retired he had access to the MGIB and subsequently 
has finished two masters' degrees while my options are still limited.''
    In the 2006 Defense Manpower Data Center Survey for Military 
Families, 87 percent of spouses report education/training is a personal 
goal and 54 percent report training would have helped during their last 
relocation. The high cost of education, the lack of uniformly 
authorized in-state tuition, and the high cost of transferring 
certifications and licenses from state to state are challenges that 
must be addressed.
    NMFA has also been aware of these challenges. In 2006, the 
Association's Joanne Holbrook Patton Military Spouse Scholarship 
Program garnered over 8,000 applicants! An analysis of responses 
reaffirmed that military spouses have a strong commitment to 
educational advancement even as they struggle to juggle school, work, 
and family, especially with today's current deployments. They 
understand service life brings unique educational challenges, which 
often influences their career choices as well. NMFA is developing 
educational tools to enhance a spouse's ability to navigate through the 
frustrating years it can take to complete a degree. The NMFA Military 
Spouse Education Resource Guide is now in its second printing.
    In January of this year, NMFA launched its new online Military 
Spouse Education web section, a comprehensive resource about higher 
education tailored for the military spouse (http://www.nmfa.org/
spouseeducation).
    But even with all these initiatives and scholarship opportunities, 
the need continues to be great. As one spouse put it, ``I have searched 
for education or tuition reimbursement for military spouses and I have 
found no help. I don't qualify for grants or financial aid because my 
spouse makes too much money. I see many scholarships for military 
children or children of the fallen but very little for spouses. How can 
a spouse further her education when there is very little help for us?''
    NMFA is pleased to report that some states, with encouragement from 
the DOD State Liaison Office, are examining their in-state tuition 
rules and licensing requirements to ease spouses' ability to obtain an 
education or to transfer their occupation as they move. NMFA is 
appreciative of the efforts by DOD to work with states to promote the 
award of unemployment compensation to military spouses, eligibility for 
in-state tuition, and reciprocity for professional licenses. DOD has 
also recognized it is imperative that programs be developed to move the 
22,500 military spouses without a high school degree toward General 
Education Development (GED) certificates and address the 52,000 
military spouses with a high school diploma who need to move toward an 
Associate or Technical degree.
    NMFA asks that:

    <bullet> The partnership between DOD and DOL be realigned to give 
DOL the authority to serve military spouses through legislative changes 
designating military spouses as an eligible group for funds for 
training and education.
    <bullet> Congress promote Federal and state coordination to provide 
unemployment compensation for military spouses as a result of Permanent 
Change of Station (PCS) orders.
    <bullet> Congress promote Federal and state coordination to make 
college credits and fees more easily transferable and adopt state 
education policies that permit a military spouse to qualify for in-
state tuition regardless of servicemember's duty location.

    NMFA also supports programs or legislative changes that would give 
local Workforce Investment Boards the opportunity to provide education 
and training assistance to military spouses. Private sector employers 
who protect employment and/or education flexibility of spouses and 
other family members impacted by deployment should be applauded as role 
models.
              wounded servicemembers have wounded families
    As revealed in the series of articles about Walter Reed Army 
Medical Center, post-deployment transitions can be especially 
problematic for injured servicemembers and their families. NMFA asserts 
that behind every wounded servicemember is a wounded family. Spouses, 
children, parents, and siblings of servicemembers injured defending our 
country experience many uncertainties. Fear of the unknown and what 
lies ahead in future weeks, months, and even years, weighs heavily on 
their minds. Other concerns include the injured servicemember's return 
and reunion with their family, financial stresses, and navigating the 
transition process to the Department of Veterans Affairs (VA). The 
system should alleviate, not heighten these concerns, and provide for 
coordination of care that starts when the family is notified the 
servicemember has been injured and ends with the DOD and VA working 
together to create a seamless transition as the injured servicemember 
transfers from active duty status to veteran.
    While all military spouses face unique challenges in obtaining 
employment, spouses of wounded servicemembers face additional issues. 
Initially many spouses of wounded servicemembers find themselves in the 
role of caretaker while the wounded servicemember receives treatment 
and rehabilitation. When a wounded servicemember is discharged, 
however, the spouse may also become the primary wage earner in the 
family. Many military spouses are unprepared for this new circumstance 
for all of the reasons discussed earlier in this statement. This new 
reality can be financially devastating. In these circumstances it is 
imperative that the Department of Veteran's Affairs (VA) and DOL are 
prepared to assist spouses in transition.
    The current program, which permits military spouses of severely 
injured servicemembers to utilize remaining GI Bill benefits, is an 
excellent concept. Unfortunately, many spouses in the role of caretaker 
are unable to return to school in the time frame permitted under the 
current program. NMFA recommends extending the eligibility period for 
this program to permit more spouses in this situation to utilize this 
important benefit.
    The DOL has assisted veterans, who have special needs, transition 
to the civilian workforce. In 2002, Congress enacted the Jobs for 
Veterans Act (JVA) to improve employment and training services for 
veterans. A one-stop system was created under the Workforce Investment 
Act of 1998 to integrate employment and training into a comprehensive 
service delivery system. The JVA stipulates veterans, who meet 
eligibility requirements, are given reemployment service priority over 
non-veterans. NMFA recommends this benefit be expanded to include 
spouses of seriously wounded servicemembers, who would have qualified, 
but due to their injuries are unable to work.
    In the past, the VA and DOD have generally focused their family 
support service on spouse and children. Now, however, it is not unusual 
to see the parents and siblings of a single servicemember included as 
part of the servicemember's family unit. Almost 50 percent of active 
duty and Reserve component servicemembers are single. Having a wounded 
servicemember is new territory for family units. Regardless of a 
servicemember's marital status, their families will be affected in some 
way by an injury. As more single servicemembers are wounded, parents 
and siblings must take on the role of helping servicemembers through 
the recovery process. Family members are an integral part of the health 
care team. Their presence has been shown to improve their quality of 
life and aid in a speedy recovery.
    Congress needs to be cognizant of the caregiver. Family members 
have made the commitment to care for their loved one. We must 
acknowledge they are a part of the health care team. They advocate, 
transport, and move along with their wounded loved one from Walter Reed 
Army Medical Center or the National Naval Medical Center at Bethesda, 
to a polytrauma center and follow on to other medical treatment 
facilities throughout the United States, often leaving their own lives/
jobs behind. Congress needs to take into consideration the economic 
impact on families who decide to care for their loved one. Families may 
voluntarily choose to leave their jobs for a variety of reasons. Family 
members may desire to spend as much time as possible with the wounded 
servicemember. The overwhelming challenges of trying to care for and 
navigate the complex health care system may cause them to give up their 
jobs. They may wish to relocate to be with the injured servicemember or 
veteran so they may receive optimum care.
    The Family Medical Leave Act (FMLA) provides leave for 12 unpaid 
work weeks for 1 year. We are finding family members switch on and off 
in order to maintain a family presence 24/7. The law may not provide 
enough time off given the seriousness of injuries of the 
servicemembers. Unpaid leave may further add to the overall loss of 
families' incomes. Some families do not qualify for the FMLA because 
their employer does not employ over 50 employees or because they have 
not been with the employer for over 12 months. NMFA recommends Congress 
reevaluate the FMLA given the unique aspects presented with wounded 
servicemembers and their families.
    Families are taking on an ever increasing role in caring for their 
loved one's wounds. Traumatic Brain Injury (TBI) has been found to be 
the signature wound for Operation Enduring Freedom and Operation Iraqi 
Freedom injured servicemembers. Families' active role in caring for TBI 
injuries should be acknowledged. NMFA recommends the establishment of a 
TBI training and certification program for family caregivers, which 
would recognize the important commitment family members make in caring 
for their loved ones diagnosed with TBI.
    There is no doubt that tremendous strides have been made to assist 
military spouses in obtaining and retaining employment. Work remains to 
be done, however. Valuable programs such as those fostered by the 
partnership between DOD and DOL must be funded. The issues surrounding 
military spouse employment are multifaceted; therefore, the solution 
must also be multifaceted. Agencies such as DOL and VA must be included 
in the solution, but the outreach must also extend to local 
communities, state agencies, educational institutions, and employers. 
Only by weaving a tapestry of services and programs can we truly begin 
to tackle this important issue.
    Military families support the Nation's military missions. The least 
their country can do is make sure wounded servicemembers and veterans' 
families have consistent access to high quality education and 
employment. Wounded Servicemembers have wounded families. DOD and VA 
must support the caregiver by recognizing the important role they play 
in the recovery and rehabilitation of the wounded servicemember and 
veteran, and the sacrifices they make in delivering daily care to their 
loved one's wounds.
    Thank you for your continued support of military families.

  

                                  <all>

</pre></body></html>
